<html>
<title> - SOCIAL SECURITY DISABILITY BENEFITS: DID A GROUP OF JUDGES, DOCTORS, AND LAWYERS ABUSE PROGRAMS FOR THE COUNTRY'S MOST VULNERABLE?</title>
<body><pre>[Senate Hearing 113-503]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-503

                  SOCIAL SECURITY DISABILITY BENEFITS:
                  DID A GROUP OF JUDGES, DOCTORS, AND
       LAWYERS ABUSE PROGRAMS FOR THE COUNTRY'S MOST VULNERABLE?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               ----------                              

                            OCTOBER 7, 2013

                               ----------                              

         Available via the World Wide Web: http://www.fdsys.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                                                        S. Hrg. 113-503

                  SOCIAL SECURITY DISABILITY BENEFITS:
                  DID A GROUP OF JUDGES, DOCTORS, AND
       LAWYERS ABUSE PROGRAMS FOR THE COUNTRY'S MOST VULNERABLE?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

                            OCTOBER 7, 2013

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
      

                         U.S. GOVERNMENT PRINTING OFFICE 

85-499 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001    
        
        
        
        
        
        






        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware, Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota         JEFF CHIESA, New Jersey

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
                    Beth M. Grossman, Chief Counsel
       Lawrence B. Novey, Chief Counsel for Governmental Affairs
            Peter P. Tyler, Senior Professional Staff Member
                      Deanne B. Millison, Counsel
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
               Andrew C. Dockham, Minority Chief Counsel
                Kathryn M. Edelman, Senior Investigator
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Coburn...............................................     2
    Senator Levin................................................     9
    Senator Heitkamp.............................................    30
    Senator Baldwin..............................................    32
    Senator McCaskill............................................    34
Prepared statements:
    Senator Carper...............................................    91
    Senator Coburn...............................................    95

                               WITNESSES
                        Monday, October 7, 2013

Sarah A. Carver, Senior Case Technician, U.S. Social Security 
  Administration (Appearing in a Personal Capacity)..............    14
Jennifer L. Griffith, Former Master Docket Clerk, U.S. Social 
  Security Administration (Appearing in a Personal Capacity).....    16
Jamie L. Slone, Former Employee, The Conn Law Firm...............    18
Melinda L. Martin, Former Employee, The Conn Law.................    19
David P. Herr, D.O., West Union, Ohio............................    46
Alfred Bradley Adkins, Ph.D., Pikeville, Kentucky................    47
Srinivas M. Ammisetty, M.D., Stanville, Kentucky.................    47
David B. Daugherty, Former Administrative Law Judge, U.S. Social 
  Security Administration (did not appear).......................
Eric C. Conn, Attorney and Owner, The Conn Law Firm..............    68
Charlie P. Andrus, Administrative Law Judge, U.S. Social Security 
  Administration (Appearing in a Personal Capacity)..............    69

                     Alphabetical List of Witnesses

Adkins, Alfred Bradley, Ph.D.:
    Testimony....................................................    47
    Prepared statement...........................................   115
Ammisetty, Srinivas M., M.D.:
    Testimony....................................................    47
    Prepared statement...........................................   120
Andrus, Charlie P.:
    Testimony....................................................    69
    Prepared statement...........................................   122
Carver, Sarah A.:
    Testimony....................................................    14
    Prepared statement...........................................   102
Conn, Eric C.:
    Testimony....................................................    68
Griffith, Jennifer L.:
    Testimony....................................................    16
    Prepared statement...........................................   102
Herr, David P.:
    Testimony....................................................    46
Martin, Melinda L.:
    Testimony....................................................    19
Slone, Jamie L.:
    Testimony....................................................    18
    Prepared statement...........................................   113

                                APPENDIX

Statement from Jennifer L. Griffith..............................   123
Prepared statement from Debra Brice, Social Security 
  Administration.................................................   124
Responses to post-hearing questions for the Record:
    Ms. Bice.....................................................   139
    Mr. Cristaudo................................................   151
    Ms. Jonas....................................................   157
Prepared statement for the National Organization of Social 
  Security Claimant's Representatives (NOSSCR)...................   166

Report by the Committee on Homeland Security and Governmental 
  Affairs, Staff Report entitled ``How Some Legal, Medical, and 
  Judicial Professionals Abused Social Security Disability 
  Programs for the Country's Most Vulnerable: A Case Study of the 
  Conn Law Firm,'' October 7, 2013...............................   171

                              EXHIBIT LIST

 1. GDecember 2, 1999 Email from RCALJ Cristaudo to Judge Charlie 
  Paul Andrus, PSI-SSA-95-032338-39                                 368
 2. GJuly 7, 2004 Memorandum from Frank Cristaudo, Regional Chief 
  Judge, Region III--Philadelphia to Hearing Office Chief Judges, 
  Hearing Office Directors, Region III--Philadelphia on ``Fourth 
  Quarter Performance''..........................................   370
 3. GApril 18, 2007 Memorandum from Frank Cristaudo, Chief Judge 
  to Regional Chief Judges.......................................   373
 4. GOctober 31, 2007 Memorandum from Frank A. Cristaudo, Chief 
  Administrative Law Judge.......................................   375
 5. GMay 20, 2011 Email from Patricia Jonas, Executive Director, 
  Office of Appellate Operations to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb3bdbdbfacaebbac9eb3adb0f0bdb1b3">[email&#160;protected]</a>, PSI-SSA-
  96D2-04632.....................................................   378
 6. GAugust 18, 2011 Email from Gregory Hall, Huntington ODAR 
  Hearing Director to ODAR Huntington Office.....................   379
 7. GJuly 24, 2001 Email from Ronald M. Kayser to William H. 
  Gitlow, PSI-SSA-95-032435......................................   380
 8. GSocial Security Administration, Office of Inspector General, 
  Congressional Response Report: Huntington, West Virginia, 
  Office of Hearings and Appeals, A-13-02-22090..................   384
 9. GMay 17, 2012 Letter from Pamela J. Marple, Esq., attorney 
  for Eric C. Conn, to the Permanent Subcommittee on 
  Investigations.................................................   394
10. GJuly 5, 2001 Memorandum from Charlie P. Andrus HOCALJ 
  Huntington, WV to Steve Slahta, Acting RCALJ OHA Region III....   445
11. GJuly 23, 2001 Email from Jim Comerford to #OHA R3 RO MGMT 
  ANALYSTS, PSI-SSA-96D2-003930..................................   447
12. GJune 19, 2002 Email from Frank Cristaudo to Charlie Paul 
  Andrus, PSI-SSA-96D2-003368....................................   453
13. GNovember 29, 2002 Email from Charlie Paul Andrus to Frank 
  Cristaudo, PSI-SSA-003696......................................   454
14. GForm ``Request for Transfer and Waiver of Travel Expenses''.   456
15. GAugust 30, 201l Email from Debra Bice to Kristen Fredricks, 
  Joseph Lytle, PSI-SSA-100-004537...............................   458
16. GJune 12, 2012 Affidavit of Jamie Lynn Slone.................   460
17. GJune 13, 2012 Affidavit of Melinda Lynn Martin..............   470
18. GDB Lists, CLF030566-810.....................................   479
19. GOctober 4, 2005 Email from James D. Kemper, Jr. to Charlie 
  P. Andrus, Andrew J. Chwalibog, and William H. Gitlow..........   722
20. GMay 18, 2006 Email from William H. Gitlow to Roland M. 
  Kayser, PSI-SSA-95-032792......................................   723
21. GJuly 31, 2006 Email from Charlie P. Andrus to Huntington 
  ODAR Office, PSI-SSA-95-032809.................................   724
22. GJanuary 25, 2007 Email from Sarah Randolph [Carver] to 
  Gregory Hall...................................................   725
23. GMay 9, 2007 Email from Sarah Randolph [Carver] to Gregory 
  Hall...........................................................   726
24. GSeptember 18, 2007 Signed Statement of Donna George.........   727
25. GAugust 31, 2007 Email from William H. Gitlow to William H. 
  Gitlow, PSI-Gitlow-01-000 1....................................   728
26. GSeptember 11, 2007 Email from Jennifer Griffith to Gregory 
  Hall...........................................................   729
27. GOctober 24, 2007 Email from Sarah Randolph to Gregory Hall..   730
28. GMarch 29, 2010 Email from Sarah Carver to William H. Gitlow.   732
29. GApril 29, 2011 Email from William H. Gitlow to William H. 
  Gitlow, PSI-SSA-95-033229......................................   733
30. GMay 2, 2011 Email from Judge Daugherty to Charlie P. Andrus, 
  Andrew J. Chwalibog, and William H. Gitlow.....................   734
31. GJune 10, 2011 Memorandum to ODAR Staff, Huntington, West 
  Virginia from Gregory Hall, Hearing Office Director............   738
32. GMay 19, 2011 Email from William H. Helsper to Charlie Paul 
  Andrus.........................................................   739
33. GJanuary 23, 2002 Email from Charlie Paul Andrus to 
  Huntington Hearing Office ALJs, PSI-SSA-95-032421..............   740
34. GSeptember 5, 2002 Email from David B. Daugherty to Charlie 
  P. Andrus, PSI-SSA-9602-003483.................................   741
35. GDecember 2, 2002 Letter from Region III Chief Judge Frank 
  Cristaudo to Associate Commissioner, PSI-SSA-9602-003703.......   742
36. GUndated draft letter from Associate Commissioner A. Jacy 
  Thurmond, Jr. to David Daugherty...............................   743
37. GApril 24, 2003 Memorandum from Regional Chief Judge OHA--
  Region III--Philadelphia Frank A. Cristaudo to Charlie P. 
  Andrus Hearing Office Chief Judge, PSI-SSA-96D2-00402l.........   745
38. GMay 5, 2003 Email from Charlie P. Andrus to Frank Cristaudo, 
  PSI-SSA-96D2-004050............................................   748
39. GMay 4, 2009 Email from William H. Gitlow to Ronald Bernoski, 
  PSI-SSA-95-032907..............................................   750
40. GJune 14, 2011 Email from William H. Gitlow to Barbara 
  Powers, PSI-SSA-95-031480......................................   751
41. GCLF03l230...................................................   752
42. GAugust 6,2010 Email from Charlie P. Andrus to Eric Conn, 
  PSI-Conn-09-0050...............................................   758
43. GCLF06038 and CLF02216.......................................   760
44. GCLF029445-48, CLF033356, CLF033360 , CLF033371, CLF033378, 
  CLF033384, CLF033386, CLF033392, CLF033399.....................   762
45. GRFC Forms Version #1-#15....................................   774
46. GDRAFT: Report of the Division of Quality's Review of 
  Decisions issued by the Huntington, WV Hearing Office, PSI-SSA-
  96D2-044750....................................................   849
47. GCLF016923-25, CLF030282-84, CLF030289-91, CLFCLF028358-60, 
  CLF030111-13, CLF025997-99, CLF028569-71, CLF028415-17, 
  CLF015807-18, CLF019495-501, CLF025065-76, CLF030115-27, 
  CLF030146-57, CLF030159-70, CLF024291-302, CLF025901-12, 
  CLF025989-99, CLF028471-82, CLF025888-99, CLF027717-23, 
  CLF027758-68, CLF028604-15.....................................   872
48. GRFC Form, Version #5........................................  1087
49. GCLF033403-04................................................  1097
50. GHuntington Team Award Submission............................  1099
51. GState of West Virginia Campaign Financial Statement (Long 
  Form) in relation to the 2008 Election Year Reports Filed by 
  Amy Daugherty..................................................  1105
52. GPetty Cash Voucher CLF00118.................................  1173
53. GGregory Hall Awards Nomination Forms........................  1174
54. GMarch 18, 2009 Memorandum from Jasper J. Bede, Regional 
  Chief Administrative Law Judge--Region III to All Region III 
  HOCALJs........................................................  1178
55. GSee May 10, 2001 Memorandum from Gregory A Hall, Group 
  Supervisor to Charlie Andrus, HOCALJ...........................  1180
56. GJune 19, 2002 Email from Valerie Loughran to Frank Cristaudo 
  and Gregory Hammel, PSI-SSA-96D2-003356-57.....................  1181
57. GJune 19, 2002 Email from Frank Cristaudo to Charlie Andrus, 
  HOCALJ, PSI-SSA-96D2-003146-47.................................  1184
58. GJuly 1, 2002 Email Chain from Frank Cristaudo to Charlie P. 
  Andrus, Valerie Loughran, Howard Goldberg, and Gerri Polito, 
  PSI-SSA-96D2-003391............................................  1188
59. GNovember 8, 2002 Email from Frank Cristaudo to Charlie P. 
  Andrus, Valerie Loughran, Gregory Hamel, Howard Goldberg, PSI-
  SSA-96D2-003589................................................  1190
60. GNovember 18, 2002 Memorandum of Record from James D. Kemper, 
  Jr. to Assistant Inspector General for Investigations, 
  Attention: Mr. Paul Ragland....................................  1191
61. GApril 20, 2005 Email from Valerie Loughran to Frank 
  Cristaudo, PSI-SSA-96D2-004394.................................  1194
62. GMay 23, 2005 Email from Frank Cristaudo to Charlie Paul 
  Andrus, Valerie Loughran, Gregory Hamel, Howard Goldberg, PSI-
  SSA-96D2-004408................................................  1196
63. GJune 16, 2005 Email from Charlie P. Andrus to Frank 
  Cristaudo and Howard Goldberg, PSI-SSA-96D2-004416.............  1198
64. GApril 30, 2007 Email from James Kemper Jr. to Robert 
  Habermann, PSI-SSA-95-032853...................................  1200
65. GOctober 14, 2008 Email from Sarah Randolph to Charlie 
  Andrus, HOCALJ.................................................  1203
66. GInvoices from Shred-All, PSJ-Shred--All--Docs-01-0001.......  1204
67. GU.S. Merit Systems Protection Board, Social Security 
  Administration v. Algernon W. Tinsley, Statement of Charges and 
  Specifications, PSI-SSA-96D2-018249............................  1221
68. GUndated Affidavit, Judge Charlie P. Andrus RE: EEO Complaint 
  of Judge Algernon Tinsley......................................  1227
69. GMemorandum Opinion and Order, Algern on W. Tinsley v. 
  Michael J. Astrue, Civil Action No. 3:09-0600, United States 
  District Court For the Southern District of West Virginia, 
  Huntington Division............................................  1240
70. GMay 6, 2011 Email from Charlie P. Andrus to Jasper J. Bede 
  forwarding answers to WSJ questions............................  1254
71. GIncoming Call Log, CLF00085.................................  1259
72. GD.B. Daugherty Answers to Wall Street Journal sent to Mark 
  Lassiter, National Press Office................................  1260
73. GMay 19, 2011 Email from Michael J. Astrue to Mark Lassiter, 
  PSI-SSA-96D3-000952............................................  1262
74. GSeptember 24, 2007 Document Recovered from Judge Daugherty's 
  Computer at the Social Security Administration.................  1265
75. GReceipt, CLF01022...........................................  1266
76. GMay 26, 2011 Email from Judge Charlie P. Andrus, HOCALJ to 
  Judge Debra Bice, PSI-SSA-10-027678............................  1268
77. GMay 23, 2011 Email between Debra Bice to Marsha Stroup, PSI-
  SSA-100-030524.................................................  1269
78. GJune 8, 2011 Email from Judge Debra Bice to Judge Jasper 
  Bede, and John Allen, PSI-SSA-100-030480.......................  1271
79. GJune 9, 2011 Emails between Judge Debra Bice and Judge 
  Charlie P. Andrus, PSY-SSA-100-030471..........................  1272
80. GJune 9, 2011 Email from Judge Charlie P. Andrus to 
  Huntington ODAR, PSI-SSA-95-031007.............................  1274
81. GAugust 28, 2011 Email from Michael Devlin to Judge Debra 
  Bice, PSI-SSA-10-029427........................................  1275
82. GJanuary 15, 2013 Statement of Judge Charlie P. Andrus.......  1276
83. GNovember 19, 2010 Email from Charlie P. Andrus to Patricia 
  Taylor and Gregory Hall........................................  1300
84. GJuly 6, 2011 Emails between Vickie Moreland and Bridgette 
  Campbell.......................................................  1301
85. GJuly 9, 2011 Shipment Confirmation..........................  1302
86. GJuly 28, 2011 Letter to Michael J. Astrue, Commissioner, 
  Social Security Administration from Senator Tom A. Coburn, M.D. 
  and Senator Carl Levin.........................................  1304
87. GAugust 1, 2011 Letter to Senator Carl Levin from Michael J. 
  Astrue, Commissioner Social Security Administration............  1305
88. GAugust 2, 2011 Email RE: Ltr from Perm. Sub. Invest.........  1307
89. GCD Produced by Judge Darell Mullins: The Eric C. Conn Law 
  Complex Presents ``We the People,'' Songs by Darrel Mullins and 
  Dan Huff.......................................................  1308
90. GCommonwealth of Kentucky vs. Eric C. Conn, Commonwealth of 
  Kentucky Court of Justice, Case No. 13-CB-00231, September 9, 
  2013...........................................................  1310

A. Exhibits Related to Case A

 1. GJune 1, 2010 Decision, Administrative Law Judge David B. 
  Daugherty......................................................  1315
 2. GAugust 27, 2009 Decision, Administrative Law Judge Andrew J. 
  Chwalibog......................................................  1320
 3. GAugust 31, 2009 Appointment of Representative and Fee 
  Agreement......................................................  1329
 4. GDisability Report--Adult-Form SSA-3368......................  1331
 5. GOctober 5, 2009 Request for Medical Advice..................  1340
 6. GMarch 5, 2010 Physical Residual Functional Capacity.........  1341
 7. GNovember 10, 2009 Notice of Disapproved Claim...............  1349
 8. GSimplified Vocational Rationale.............................  1353
 9. GMarch 5, 2010 Notice of Reconsideration.....................  1354
10. GMarch 24, 2010 Request for Hearing by Administrative Law 
  Judge..........................................................  1357
11. GDB OTR List (May) CLF 030713................................  1359
12. GApril 27, 2010 Social Security Disability Medical 
  Assessment, Frederic T. Huffnagle, M.D.........................  1360
 GExhibits for Appendix I will remain sealed by the Senate 
  Homeland Security and Governmental Affairs Committee.

 
                  SOCIAL SECURITY DISABILITY BENEFITS:
                   DID A GROUP OF JUDGES, DOCTORS,
     AND LAWYERS ABUSE PROGRAMS FOR THE COUNTRY'S MOST VULNERABLE?

                              ----------                              


                        MONDAY, OCTOBER 7, 2013

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3 p.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Thomas R. Carper, 
Chairman of the Committee, presiding.
    Present: Senators Carper, Levin, McCaskill, Baldwin, 
Heitkamp, Coburn, and McCain.
    Also present: Senator Manchin.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. The hearing will come to order. We welcome 
all of our guests here today.
    I want to start at the outset by thanking Dr. Coburn, 
Senator Levin, Senator McCain, their staffs, and our witnesses 
for the heroic work, I think, that you have done--to bring us 
here to this day.
    I am going to make a very brief opening statement. I am 
going to yield to Dr. Coburn for a much longer statement. Then 
I will have some more things to say.
    I will say this: All of us know we are facing huge budget 
deficits in this country. They are down, cut in half, from 
about $1.4 trillion to about $700 billion. That is still way 
too much, and it is part of the reason why we have this 
government shutdown that is in effect even today. But there are 
a number of things that we need to continue to do to make sure 
that we bring down that deficit and we run this country in a 
fiscally responsible way.
    I think we have a moral imperative to do what is right, the 
right thing to do, particularly looking out for the least of 
these in our society. I think we also have a fiscal imperative 
to make sure we are meeting that moral imperative in a 
fiscally, financially responsible way. And Dr. Coburn and I 
have spent years working together, along with Senator Levin, 
Senator McCain, and others on this Committee, trying to make 
sure that we are rooting out waste, whether it is fraud or just 
ineffective spending, wherever we find it, and to reduce it. 
And in this case, I think Dr. Coburn and his staff and others 
have done terrific work. I am grateful for that, and I am going 
to yield to him at this time. And when he finishes, I will have 
some more to say. And I think maybe Senator Levin would like to 
make a short opening statement, too. Thanks.
    Dr. Coburn, congratulations and thank you for all your good 
work.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you, Mr. Chairman. This is the second 
hearing in a series looking at deficiencies in the Social 
Security Administration handling of disability claims. Our 
first hearing, held in September 2012, looked broadly at the 
weaknesses and decisions made by the agency's administrative 
law judges (ALJs), and their own internal study showed that 22 
percent of those were decided inappropriately. Our look at 
those showed 25 percent.
    This afternoon, we are going to focus on the findings of a 
2-year investigation into the Huntington, West Virginia, Social 
Security Office of Disability Adjudication and Review (ODAR). 
Specifically the investigative report we are releasing details 
how one lawyer, one judge, and a group of doctors financially 
benefited by working together to manufacture bogus, fraudulent 
medical evidence to award disability benefits to over 1,800 
people.
    I would like to thank my Chairman, Tom Carper, and the 
Chairman and Ranking Member of the Permanent Subcommittee on 
Investigations (PSI), Senators Levin and McCain, for their 
support and their hard work on this investigation. Without 
their help, this hearing would not be possible.
    Before we get into the findings of our investigation, I 
want to extend a thank you to the four courageous ladies 
sitting in front of us at this time. Republics only survive 
when courage is demonstrated on the basis of character, sound 
morals, integrity, and honor. And each four of them have 
demonstrated that to this Committee, their investigators, and I 
think the public will see that as their stories are told.
    These women--Jamie Slone, Melinda Martin, Sarah Carver, and 
Jennifer Griffith--saw the disability programs being exploited 
and were brave enough to bring their story to the Committee. I 
commend all of you and hope others will take up your example to 
speak up when you see wrongdoing, whether it is in Social 
Security or any other agency of the Federal Government.
    Congress needs to know where the problems are in our 
government so that they can be addressed and hopefully changed 
for the better. Again, thank you to each of you for traveling 
to Washington to tell your story. I very much look forward to 
hearing from you.
    The issues we are going to discuss today, like many of our 
country's current problems, began and begin with Congress. Only 
here could we take something as important as the Social 
Security disability programs and let politics hurt those most 
in need. By this I mean that for a long time Congress has acted 
as if getting people onto the program is more important than 
doing oversight of the program. In practical terms, this has 
meant pushing the Social Security Administration (SSA), to 
eliminate its hearings backlog with little interest on how that 
is performed.
    This point was driven home clearly the last time the Senate 
considered a nominee to head the agency. During the 2007 
confirmation process for former Commissioner Michael Astrue, 
many Senators used the chance to criticize how long it took for 
claimants to get a hearing. Mr. Astrue in response pledged to 
work to reduce the backlog and wait times for hearings, and we 
saw the results.
    Shortly after he was confirmed, the agency rolled out an 
aggressive plan to reduce the backlog. At bottom, the backlog 
plan asked agency employees to do more, faster. While the 
agency hired more administrative law judges to carry the load, 
it also pressured the ALJs to decide more cases by spending 
less time on each case. As part of the plan, SSA pushed all 
ALJs to decide between 500 and 700 cases per year, many of 
which contained thousands of pages of medical evidence. The 
agency also went so far as to set daily goals for ALJs. In 2011 
and 2012, each ALJ was to decide 2.37 cases per day. To speed 
the process further, the judges were encouraged to skip 
hearings altogether and just write opinions if they felt it was 
warranted.
    The agency made clear that moving a high volume of cases 
was the top priority. On the surface, the plan appeared to 
work.
    Over the next few years, the agency saw an incredible 
improvement in the time it took to issue a decision by an ALJ. 
Wait times for ALJ hearings dropped from 514 days to as few as 
353 days by 2012. The number of ALJ decisions likewise 
increased from roughly 575,000 in 2008 to more than 820,000 in 
2012, a 43-percent increase. By February 2011, Commissioner 
Astrue proudly announced that under his watch the agency had 
``reversed the trend of declining service and increasing 
backlog in our disability workloads.''
    With so much emphasis on the quantity, the agency's 
attention to oversight of the ALJ decisions diminished. The 
report the Committee is releasing today details just how much 
the quality of the decisions suffered in one particular 
office--SSA's Huntington, West Virginia, office. The report 
describes how one lawyer, several judges, and a group of 
doctors took advantage of the situation and exploited the 
program for their own personal benefit. Together they moved 
hundreds of claimants onto the disability rolls based on 
manufactured medical evidence and boilerplate decisions. As a 
result, they saw millions of dollars flow their way, promotions 
at work, and had bad behavior ignored.
    The ALJ at the center of this mess was Judge David B. 
Daugherty. Over the course of his tenure with the agency, he 
became one of the most prolific ALJs for the agency in the 
country. During 2010, the last full year he decided cases, 
Judge Daugherty was the third highest producing ALJ out of more 
than 1,500 at SSA. In that year alone, he decided 1,375 cases 
and awarded benefits in 1,371, with an approval rate of 99.7. 
He denied only four cases. He was outgunned only by Frederick 
McGrath of Atlanta, Georgia, who decided 3,200 cases, and 
Charles Bridges of Harrisburg, Pennsylvania, who approved 1,855 
cases.
    Many of Judge Daugherty's peers, however, questioned how it 
was possible to decide so many cases when most others struggled 
to finish a third of that. When asked by a fellow ALJ how he 
was deciding such a high volume of cases, Judge Daugherty 
responded, ``You are just going to have to learn which corners 
to cut.''
    To cut those corners, our investigation found that Judge 
Daugherty focused on cases from one attorney, Eric C. Conn of 
The Conn Law Firm. A self-described multimillionaire, Mr. 
Conn's law office is located in Stanville, Kentucky. His 
practice focused almost entirely on clients seeking Social 
Security disability benefits. Early on, Mr. Conn became known 
for his aggressive marketing with billboards throughout 
Stanville and eastern Kentucky. Witnesses interviewed by the 
Committee said you could not listen to the radio or watch 
television without seeing his commercials.
    By all accounts, his marketing efforts worked. By 2010, Mr. 
Conn was the third highest paid disability attorney in the 
country, despite working in a town with only 500 people. In 
2010, Mr. Conn received almost $4 million in attorneys' fees 
from the agency. The only other attorneys receiving more from 
SSA were Charles Binder of the Binder & Binder firm, which 
received $22 million, and Thomas Nash of Chicago, who received 
$6.3 million.
    However, as our investigation uncovered, there was much 
more to the story than Mr. Conn's advertising. Mr. Conn, Judge 
Daugherty, and several doctors carried out a sophisticated plan 
to ensure claimants would be approved for disability, relying 
on questionable and, in my opinion, fraudulent methods. We will 
turn next to the plan they carried out.
    For the plan to succeed, the top priority was getting Mr. 
Conn's cases in front of Judge Daugherty. Generally, whenever a 
claimant is denied benefits and then appeals to an ALJ, the 
Social Security Administration sends the case to whichever 
office is closest to where the claimant lives. This protects 
claimants who might otherwise have to travel great distances, 
which can be difficult for someone who is disabled.
    Mr. Conn, however, discovered a way to ensure that his 
cases would always go to the Huntington office. He would 
require his clients to sign a waiver requesting their cases 
instead to go to SSA's Prestonsburg, Kentucky, office, a 
satellite office of the Huntington office, which was located 
near the Conn law offices. The Prestonsburg hearing office is 
staffed by Huntington ALJs who travel there once a month, and 
so no matter where the claimant lived, their disability claim 
would be assigned to a Huntington ALJ on appeal. Directing the 
cases from there to Judge Daugherty, however, would take 
additional effort.
    In the normal course, agency rules required cases to be 
assigned to ALJs on a rotational basis with the oldest cases 
assigned a hearing date first. Yet at the moment a case arrived 
in the office, but before it was assigned, Judge Daugherty 
would at times intercept Mr. Conn's cases and assign them to 
himself. If cases would happen to slip past and get assigned to 
another judge, Judge Daugherty would go into the computer 
system and move the case to his docket.
    Some in the SSA office began to notice what was happening 
and brought it to the attention of the office's chief judge, 
Charlie Andrus. Despite having the issue brought to him 
repeatedly over a period of 10 years, Judge Andrus never once 
stopped this procedure. By approving a large volume of Mr. 
Conn's cases, Judge Daugherty met his agency mandated monthly 
quota with very little effort.
    According to documents and Committee interviews, each month 
Judge Daugherty and Mr. Conn would coordinate on a list of his 
clients to approve. The key, however, was that he would only 
approve Mr. Conn's clients if he provided the judge with one 
additional piece of evidence that showed they were disabled. 
And so every month, Judge Daugherty would call Mr. Conn's 
office to let him know just what kind of evidence he needed for 
each client. On the call, Judge Daugherty would start by 
relaying the name and Social Security number of each person he 
was ready to approve. He would then say whether the new piece 
of evidence should relate to a mental or physical impairment. 
The list would then be typed up and saved on computers at The 
Conn Law Firm. Mr. Conn's staff referred to these monthly lists 
as ``the DB list,'' after Judge Daugherty's nickname, D.B. 
Daugherty.
    The Committee obtained DB lists from June 2006 through July 
2010. The list contains as many as 52 claimants each month. In 
total, the DB list from that time contained 1,823 people who 
were approved for disability benefits.
    After Judge Daugherty told Mr. Conn the kind of medical 
evidence he needed, the next step for Mr. Conn was to ensure a 
doctor provided it. Fortunately for Mr. Conn, he had a crew of 
paid doctors ready to provide what he needed. To find doctors 
willing to go along with him, Mr. Conn searched the Internet 
for ones with checkered or difficult pasts. Those in his circle 
had histories of malpractice, medical licenses revoked, 
hospital privileges suspended.
    Until his death in 2010, Mr. Conn's go to doctor for 
physical ailments was Dr. Frederic Huffnagle. While practicing 
as an orthopedic surgeon, Dr. Huffnagle was the subject of 
multiple malpractice suits, had his medical license revoked, 
and hospital privileges revoked in other States.
    Since Dr. Huffnagle lived 4 hours away, Mr. Conn arranged 
for him to come to town for 2 days each month and examine his 
clients in a medical suite in his law office. Clients were 
scheduled for exams in 15-minute blocks, and the doctor would 
meet up to 35 clients per day.
    The medical report Dr. Huffnagle gave Mr. Conn was modest 
at best. Dr. Huffnagle, as well as the others, would provide 
brief reports about the visit in a form describing the 
claimants' residual functional capacity (RFC). That is an 
important term that we need to be aware of during this hearing.
    The second form is commonly known as the ``RFC'' and is a 
key document used by all SSA judges. A residual functional 
capacity describes a claimant's limitations in performing any 
job in the national economy, the agency standard in determining 
whether a claimant was entitled to benefits.
    To understand the problem with RFCs filled out by Dr. 
Huffnagle, it is important to understand what they contain. For 
each claimant, the RFC asks the doctor to determine a few basic 
things: the amount the claimant could lift or carry, the number 
of hours that the claimant could sit, stand, or walk in an 8-
hour work day. The RFC also required the doctor to determine 
how often the claimant could perform 22 other activities by 
marking one of four answers: never, occasionally, frequently, 
or constantly.
    Given the vast range of answers Dr. Huffnagle could provide 
on this form about the claimant, it would be nearly impossible 
for two claimants to be found with the exact same limitations. 
The chances of two RFCs being filled out the exact same way is 
next to impossible. Yet somehow Dr. Huffnagle found that his 
patients almost always had the exact same limitations. Ninety 
percent of the time, Dr. Huffnagle signed one of just 15 
different variations of the form. For just one version he 
frequently signed, Dr. Huffnagle reported 97 claimants had 
exactly the same limitations.
    This was no coincidence. Our investigation found that this 
was a planned step in the process for getting Mr. Conn's 
clients onto disability. Mr. Conn had developed 15 versions of 
the RFC completely filled out before any doctor visit took 
place. He cycled through them, assigning one of these 15 pre-
filled RFCs to people in the order that they came through his 
door. It had no connection to their disability. The only thing 
that changed was the name and Social Security number on the top 
of the page. Mr. Conn then forwarded the opinion and the RFC to 
Judge Daugherty.
    While agency rules require ALJs to carefully review a 
claimant's entire file and write a comprehensive decisions, 
Judge Daugherty did otherwise. Based on the decisions we 
reviewed, his opinions would routinely cite only a single piece 
of evidence, namely, the reports from Mr. Conn's doctors. As 
such, his opinions were much shorter and less detailed than 
those of other ALJs. Almost all of them included a boilerplate 
paragraph and concluded with the following quote:
    ``Having considered all the evidence, I am satisfied that 
the information provided by Dr. Huffnagle most accurately 
reflects the claimant's impairments and limitations. Therefore, 
the claimant is limited to less than sedentary work at best.''
    This was remarkable for two reasons: One, a claimant's case 
file can be hundreds of pages, if not thousands of pages long. 
For a judge to say the only piece of evidence worth looking at 
is the one paid for by the claimant's lawyer is absurd.
    Second, before a claimant ever gets to the ALJ, most have 
already been evaluated and denied by the agency twice, 
professionals who do this all day every day and have dedicated 
their lives to it. In the opinions we reviewed, Judge Daugherty 
rarely strayed from a basic format. In fact, most of his 
decisions were identical to one another with only small 
portions changed. As such, he was able to write a lot of 
decisions with little effort.
    While Dr. Huffnagle passed away in 2010, the same RFC forms 
that he signed continued to be submitted by other doctors, 
several of whom we will hear from today. We reviewed 102 RFCs 
signed by Dr. Herr, and 94 percent were identical to the RFCs 
that Dr. Huffnagle signed. Of the 10 RFCs we reviewed signed by 
Dr. Ammisetty, 9 were identical to the pre-filled forms used by 
Dr. Huffnagle.
    Identical RFC forms were also used by doctors examining Mr. 
Conn's clients for mental impairments. For these, Mr. Conn 
often sent his clients to see Dr. Brad Adkins. Dr. Adkins would 
meet with the clients, write up a short report, and submit a 
mental RFC. This RFC required Dr. Adkins to rank the claimant 
with regard to 15 different abilities, such as follow work 
rules, behave in an emotionally stable manner. The form 
required Dr. Adkins to rank the ability in the following ways: 
unlimited, good, fair, poor, or none. Once again finding two 
identical RFCs should be next to impossible, yet we found that 
74 percent of the RFCs signed by Dr. Adkins were one of just 
five different forms. These five forms came from Mr. Conn's 
office already filled out, but Dr. Adkins told the Committee 
investigators that he routinely signed them. Only the names and 
Social Security numbers were changed. Just as before, Judge 
Daugherty would cite only these documents when awarding 
benefits to Mr. Conn's clients.
    It would be useful now to turn back to the issue of why 
these individuals did what they did. The short answer is that 
each of them--Mr. Conn, his doctors, Judge Daugherty, and Judge 
Andrus--benefited in different ways, both personally and 
financially. Mr. Conn made millions for claimants on the DB 
list. From 2006 to 2010, Mr. Conn was paid over $4.5 million by 
the Social Security Administration in attorney fees. In 2010 
alone, he earned over $3.9 million for all of his cases, 
including those from Judge Daugherty.
    Mr. Conn's doctors also benefited handsomely. Mr. Conn paid 
his doctors up to $650 per claimant, helping them earn 
considerable fees, and by testimony that we have, sometimes 
spending less than 10 to 15 minutes with them. For the 4 years 
of records that the Committee obtained, Mr. Conn paid Dr. 
Huffnagle almost $1 million, Dr. Herr was paid more than 
$600,000, Dr. Adkins was paid nearly $200,000.
    And Judge Daugherty took full advantage of his freedom. The 
running joke in the Huntington office was if you wanted to find 
Judge Daugherty, do not bother looking in his office. When 
fellow ALJs complained about Judge Daugherty taking advantage 
of time and attendance rules, the agency looked the other way. 
His big numbers effectively let Judge Daugherty do whatever he 
wanted.
    Finally, as the Huntington office rose to be the second 
most productive office in the agency, office management and 
ALJs received salary increases. Some of the office management 
even received bonuses for their productivity. Judge Andrus 
received national recognition when he was tapped by the agency 
to mentor other ALJs across the country and then promoted to 
assistant regional chief administrative law judge.
    While lawyers and doctors were getting rich by exploiting a 
broken program, the real victims were the claimants and the 
American taxpayer. The claimants suffer because we do not do 
any favors when we wrongly award benefits, and we will 
certainly hurt those who justifiably are receiving those 
benefits when the trust fund runs out of money probably in less 
than 18 months.
    At the same time, the American taxpayers suffer. For just 
the claimants listed on the DB list, Judge Daugherty approved 
an estimated $546 million in lifetime benefits. For all his 
cases, Judge Daugherty awarded $2.5 billion in the last 6 
years.
    Probably the most troubling issue our investigation 
uncovered, however, is what happened when the details of this 
plan started to become public. In May 2011, a reporter named 
Damian Paletta with the Wall Street Journal ran a story about 
the relationship of Mr. Conn and Judge Daugherty. Along with 
Judge Andrus, Mr. Conn and Judge Daugherty responded by 
carrying out what appears to be an elaborate attempt to cover 
up the truth from the Social Security Administration and the 
American people.
    After the story ran, Judge Daugherty and Mr. Conn made the 
unusual decision to speak with each other only using prepaid 
disposable cell phones. We were told by Mr. Conn's former 
employees that this was to keep the conversations from being 
recorded.
    For his part, Judge Andrus conspired with Mr. Conn to 
retaliate against Ms. Carver, one of our witnesses today, who 
he believed was behind the Wall Street Journal article. Their 
plan was to follow and film Ms. Carver on days she was working 
from home in an attempt to get her fired for violating agency 
telecommuting rules. Despite several attempts, they were never 
able to find Ms. Carver doing anything wrong. Once the agency 
discovered what was going on, they placed Judge Andrus on 
administrative leave.
    The final troubling finding was the systematic destruction 
of documents once allegations began to surface publicly. Both 
Mr. Conn and the agency took the unusual steps to destroy 
documents potentially related to a known open congressional 
investigation. After the Wall Street Journal article, the 
Committee found that Mr. Conn had hired a local shredding 
company to destroy over 3 million pages of documents. His 
former employees informed us he shredded all hard copies of the 
DB lists along with a warehouse full of files. He had another 
employee destroy all the office computers along with the hard 
drives in a massive bonfire. Ms. Slone also noted that a number 
of e-mails from Judge Daugherty to Mr. Conn mysteriously went 
missing. The agency for its part could not find any of Judge 
Daugherty's e-mails either.
    While Mr. Conn was destroying documents, the agency 
approved the purchase of personal shredders for the offices of 
Huntington's management. Keep in mind this occurred in the 
middle of a congressional investigation when the agency was 
legally obligated to preserve all relevant documents. Senator 
Levin and I immediately asked the local SSA Office of Inspector 
General (OIG) agent to seize the shredders, which they did.
    Why Huntington management allowed an office under 
investigation to buy personal shredders is a question that 
needs to be answered. When my office asked the office's top 
judge why he approved the purchase, he said he had not even 
considered that it might be a problem. This is a judge. It is 
unacceptable.
    We cannot lose sight of why we are here today. The 
bipartisan 2-year investigation shows that Congress needs to 
update laws and regulations governing Social Security's 
disability programs. Judge Daugherty, Mr. Conn, and his doctors 
clearly stretched and, in my mind, broke all agency rules. But 
attorneys using doctors to provide bogus medical evidence is 
not just isolated to Mr. Conn or even Huntington, West 
Virginia. Just last year, I released a report that found the 
same thing happening in three other offices.
    And much like I began, I will end by noting that Congress 
continues to be the problem. With the clock ticking on the 
agency's trust fund, some in Congress refuse to acknowledge 
that the disability programs are broken and in dire need of 
significant oversight. People who are truly disabled will pay 
the price of our dithering.
    One simple reform that would make a big difference is 
including professionals from the Social Security Administration 
to represent the government and ultimately the American 
taxpayer in decisions made by ALJs. This reform would bring a 
needed balance to both hearings and decisions at the ALJ level 
of appeal which is especially true now that most claimants have 
representation.
    As we learned in our previous report, some claimant 
attorneys withhold evidence from the ALJ showing that the 
claimant's condition has improved. A government representative 
would make sure no such information is overlooked.
    While the ALJ is tasked with also representing the 
interests of the government, he is clearly outnumbered. Then 
add agency management breathing down the neck of ALJs to meet 
monthly quotas for deciding cases. A representative for the 
government would bring needed balance to ALJs' decisionmaking 
and ensure the ALJ considered all the medical evidence in the 
claimant's file.
    This reform has long been a recommendation of the Social 
Security Advisory Board and is fully supported by the 
Association of Administrative Law Judges (AALJ). This is one 
area where Congress can find common ground on needed reforms.
    We also need to make sure that these ALJs have the tools 
they need to render the proper decisions. The agency's recent 
forbidding of the purchase of symptom validity testing, like 
the Minnesota Multiphasic Personality Inventory (MMPI), is 
ridiculous. These tests determine if an individual is 
malingering or lying about their symptoms. The SSA OIG recently 
determined the agency stands alone in not using the MMPI with 
everyone else finding it a useful tool--other Federal agencies, 
private disability insurers, academics, and the medical 
community at large.
    I hope today's findings encourage others to take a hard 
look at this program and support much needed reforms for this 
program that last year supported almost 11 million Americans 
with $137 billion of American taxpayer money.
    I would close with one remark. If you work somewhere in the 
Federal Government today, I would hope that if you are seeing 
fraud, if you are seeing manipulation, if you are seeing things 
that are not right, that you will follow the lead of these four 
courageous women in bringing it to the attention of Senator 
Levin's Permanent Subcommittee on Investigations or my office.
    With that, Senator Carper, I thank you.
    Chairman Carper. Thank you so much.
    I am going to go out of order and ask Senator Levin, who 
chairs the Subcommittee under which this investigation has 
taken place, to make a statement. I will make a short statement 
after that, and then we will turn to our witnesses. Senator 
Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you very much, Senator Carper. And 
first let me commend Senator Coburn for his leadership and for 
his and his staff's hard work in uncovering the abuses that are 
the subject of today's hearing.
    I also want to thank Senator Carper for supporting this 
investigative effort and for having his Subcommittee hold this 
hearing today.
    This investigation began at the Permanent Subcommittee on 
Investigations, which I chair, when Senator Coburn was our 
ranking Republican Member, and then Senator McCain became our 
ranking Republican Member, and that is now his position on our 
Subcommittee.
    Our Subcommittee rules provide that the ranking minority 
Members may initiate an inquiry. It is an unusual rule. It is a 
very important rule, and it almost guarantees that this 
Subcommittee will be a bipartisan Subcommittee, and that is 
true of a number of our other rules as well. But it is our 
tradition now as well--it is not just the rules--that we 
participate and work together in a bipartisan way and that our 
staffs work together on investigations. And that is what 
happened here.
    For the first year of the minority-led 2-year 
investigation, our Subcommittee staffs worked together on 
document requests, conducted joint interviews, and dug into the 
facts. In the second year of the investigation, when Senator 
Coburn became ranking minority member of the full Committee, 
which he is now, the joint report being released today was 
drafted, and so this report is a prime example of a bipartisan 
congressional oversight effort, as the entire investigation has 
been, and we are now very happy and proud that Senator McCain 
is our ranking Republican, and we are working together on many 
ongoing investigations.
    Senator Coburn has already described what this 
investigation has uncovered: a case study of conduct that is 
abusive, fraudulent, longstanding, and intolerable. The case 
study shows how one lawyer living in Kentucky, Eric Conn, 
engaged in a raft of improper practices to obtain disability 
benefits for thousands of claimants, taking advantage of 
Federal disability programs that were designed to help the most 
vulnerable among us.
    His improper practices included: manufacturing boilerplate 
medical forms, misusing waivers to submit claims that should 
have gone elsewhere, employing suspect doctors willing to 
conduct cursory medical exams and sign virtually any form put 
in front of them, and colluding with administrative law judges 
on procedures that broke the rules and improperly favored his 
clients.
    Evidence of inappropriate collusion between Mr. Conn and 
one of the administrative law judges deciding the disability 
cases is particularly striking. Administrative Law Judge David 
Daugherty used a range of techniques to quickly award benefits 
in large numbers of the Conn cases. They included his 
improperly assigning the Conn cases to himself, secretly 
informing Mr. Conn of what cases he would decide and what 
documentation should be submitted, accepting boilerplate 
medical forms, relying on conclusory medical opinions to 
reverse prior benefit denials, skipping hearings, churning out 
short, poor-quality decisions.
    In addition, the chief administrative law judge in the 
regional office, Charlie Andrus, failed to act on complaints 
that too many of the Conn cases were going to Administrative 
Law Judge Daugherty and allowed Conn cases to receive favorable 
scheduling compared to other cases. After a negative media 
report on Mr. Conn tarnished the reputation of his office, and 
only after that report, Chief Administrative Law Judge Andrus 
did something else. He teamed up with Mr. Conn to discredit the 
Social Security employee that they believed had blown the 
whistle.
    In addition to improper practices, the evidence exposes the 
inept, almost non-existent oversight by Social Security 
officials that allowed the abuses to continue for years. 
Repeatedly, lower-level Social Security employees and 
administrative law judges warned senior personnel about the 
improper case assignments, Mr. Conn's outside influence over 
the office, and the mishandling of his cases by Administrative 
Law Judge Daugherty. But nothing was done to stop it. Decisive 
action was taken only after the abusive practices were exposed 
in the media, in the Wall Street Journal article that has been 
mentioned by Dr. Coburn.
    The report being released today documents how the 
individuals involved in the abuses profited from them. Mr. Conn 
was paid millions of dollars in attorneys' fees, becoming, as 
Dr. Coburn said, in 2010 the third highest paid disability 
lawyer at the Social Security Administration with fees totaling 
almost $4 million. The doctors who provided the medical 
opinions justifying benefit awards were also well paid, and 
since 2006, just five of them split $2 million in fees paid by 
Mr. Conn. Judge Daugherty never explained the origins of 
multiple cash deposits to his family bank accounts totaling 
$96,000.
    So where are we today? Administrative Law Judge Daugherty 
was placed on leave by the Social Security Administration in 
2011, then retired, and is no longer deciding disability cases. 
Last month, Judge Andrus was also placed on administrative 
leave and is undergoing a review to determine whether he should 
lose his job.
    Eric Conn is still going strong, representing thousands of 
disability claimants and reaping millions of dollars in 
attorney fees. He has even opened a new office in Beverly 
Hills. There has been no accountability yet for his actions. 
Maybe this investigation and this hearing and our report will 
begin that process.
    This investigation did not reach a conclusion about whether 
the benefits awarded to all Mr. Conn's claimants were wrong. 
There are too many claimants to generalize. Nor is the report 
intended to denigrate the dedicated and honest professionals 
that keep our disability programs going despite limited 
resources and back-breaking caseloads. Remember that this 
investigation was launched because some of the Social Security 
administration's hard-working employees blew the whistle on the 
misconduct that they observed. Those Federal employees will 
testify today, as will two former members of Mr. Conn's office 
who also helped blow the whistle. These are courageous 
witnesses. Our first panel is an extraordinary panel. Our 
Nation is in your debt.
    The point of this hearing is not to attack our disability 
programs which play a critical role in the lives of many 
Americans, but to spotlight the abusive conduct of a group of 
legal, medical, and judicial professionals exploiting these 
programs. Also, the purpose is to press the need for greater 
oversight in the agencies and by this Congress. You can have 
greater efficiency, and we must always have great efficiency. 
We cannot tolerate fraud. We also recommend a number of 
measures to prevent similar abuses in the future.
    Again, I want to thank you, Mr. Chairman, for pitching in 
the way you have, and also to Senator Coburn and his staff 
again for spearheading this investigation. Thank you.
    Chairman Carper. Senator Levin, my thanks to both you and 
to Dr. Coburn for those introductory statements. They were much 
longer than usual. You usually do not hear a Chairman of the 
Committee or Subcommittee or the Ranking Member give a 
statement of that length. This is an extraordinary 
investigation that has taken several years to do, painstaking, 
a huge amount of effort, and I am grateful to those who have 
led that charge.
    I said earlier that as we try to grapple with our Nation's 
fiscal woes, I believe there are essentially three things that 
we need to do:
    One, we need to look at our entitlement programs and ask 
what steps we need to take in order to save money in those 
entitlement programs, in order to save those programs for our 
children and for our grandchildren. And how do we do so in a 
way that is sensitive to the least of those in our society, 
that we do not savage old people or poor people or deserving 
people? That is No. 1.
    No. 2, I believe we need tax reform, tax reform that 
generates at least some revenues for deficit reduction.
    And the third thing that we need to do, we almost need a 
culture change in this government to go from a culture of 
spendthrift to a culture of thrift, and an approach in which we 
look at everything that we do across the government and say, 
How do we get a better result for less money or for the same 
amount of money? And just as we need a culture of thrift, we 
also need a culture that says there is zero tolerance for 
fraud, there is zero tolerance for dishonesty, there is zero 
tolerance for wasting taxpayers' money in order to benefit a 
relative handful.
    Entitlement spending in this country amounts to over half 
of what we spend. Social Security is a big part of that, and 
most of the people who receive Social Security, almost 
everybody, at least for the regular Social Security retirement 
benefits, deserve that, and they have worked and they have 
earned them. We want to make sure that the monies that are 
spent in this Social Security disability program--Dr. Coburn 
just said that we are going to run out of money in about a year 
and a half. How do we make sure that we stop wasting money and 
we actually direct money to the places where it is most needed?
    We had originally hoped to have four panels here today 
before us. The fourth panel is not here. As we all know, the 
government is in a shutdown. We had hoped to hear from the 
Social Security Administration, some of the top folks. They 
have asked to be excused and to have a chance to come back 
later this month. As soon as the government is back open for 
business, we expect to schedule a second hearing to invite the 
Social Security Administration to come in and tell us what we 
are doing nationally throughout the program and throughout the 
country in order to address these kinds of problems that have 
been uncovered. And we look forward to that hearing.
    We are not going away on this issue. This is a problem. It 
is a big problem. I would like to say I am a native West 
Virginian, and what I heard here today does not make me 
particularly proud of some of the things that have happened in 
my native State. But whatever State that we are from, this kind 
of thing, if true, cannot be tolerated, and we have to use our 
dead level best efforts to make sure that it stops. The old 
saying that Harry Truman used to say, ``The buck stops here? '' 
Well, in the case of these witnesses, the buck stopped with all 
of you.
    A number of us on this panel pray fairly regularly. Among 
the things we pray for is wisdom to do the right thing, and we 
pray for the strength and courage to be able to do what we know 
is the right thing. And what you all have done is not an easy 
thing to do, but it is the right thing to do. And from whatever 
source you drew your courage and your strength, hopefully you 
will be an example for the rest of us, and to enable us and 
those who might be following this proceeding today.
    We want to thank you for being here. Citizens and Federal 
employees who bring forward evidence and indication of 
potential violations of the law are one of the most important 
ways in which Federal agencies, our Inspectors General, and 
Congress can address waste, fraud, and abuse. Without each of 
you, this hearing would not have been possible. So thank you 
for putting such a high value on public interest and our 
Nation's interest and enabling us to examine these issues.
    I want to briefly introduce each of you. We will administer 
an oath of office and invite you to go ahead with your 
statements.
    Senator McCain, let me just yield to you as the Ranking 
Member of the Subcommittee, if you would like to make a short 
statement. Let me just stop right now. I should have asked you 
if you would like to make a brief statement. Go right ahead, 
please.
    Senator McCain. No, thank you, Mr. Chairman. I am looking 
forward to hearing from the witnesses.
    Chairman Carper. All right. Thank you so much. That was 
brief. We are not always that brief here.
    Our first witness is Sarah Carver, senior case technician 
at the U.S. Social Security Administration. She works at the 
Huntington, West Virginia, Office of Adjudication and Review. 
She is here before our Committee to describe her experiences 
and disclosures about the operations of the Huntington office. 
Ms. Carver appears today in a personal capacity and is not 
representing the views of the Social Security Administration.
    Ms. Carver, thank you for joining us.
    Our next witness is Jennifer L. Griffith. She is former 
master docket clerk of the U.S. Social Security Administration, 
where she worked at the Huntington, West Virginia, office. She 
is also here before our Committee to describe her experiences 
and disclosures about the operations of that office. Ms. 
Griffith appears today in a personal capacity and is not 
representing the views of the Social Security Administration.
    Ms. Griffith, welcome. Thank you for joining us.
    Next is Jamie Slone. Ms. Slone is a resident of Pikeville, 
Kentucky. She appears today to share her observations and 
experiences as an employee of the Eric C. Conn Law Firm from 
2006 to, I believe, 2012. And we want to thank you again for 
appearing before our panel today. Thank you so much.
    And, finally, Melinda L. Martin, a former employee at The 
Conn Law Firm. Ms. Martin was an employee at the Eric C. Conn 
Law Firm, and I am not sure for how long, but I am sure you 
will cover that in your testimony. We are grateful to you for 
making time to come all the way to testify before us today.
    The next thing before you testify, though, is I am going to 
ask each of you, if you will, to stand, and I am going to ask 
you to stand and raise your right hand, please. Do you swear 
that the testimony you will give before the Committee will be 
the truth, the whole truth, and nothing but the truth, so help 
you, God?
    Ms. Carver. I do.
    Ms. Griffith. I do.
    Ms. Slone. I do.
    Ms. Martin. I do.
    Chairman Carper. Please be seated. Thank you.
    Ms. Carver, if you would like to proceed, your entire 
testimony will be made part of the record, and you are welcome 
to summarize if you wish. Please proceed. Thank you.

 TESTIMONY OF SARAH A. CARVER,\1\ SENIOR CASE TECHNICIAN, U.S. 
    SOCIAL SECURITY ADMINISTRATION (APPEARING IN A PERSONAL 
                           CAPACITY)

    Ms. Carver. Chairman Carper, Senator Coburn, Members of the 
Committee, good afternoon. My name is Sarah Carver. In 
September 2001, I joined the Social Security Administration 
Office of Disability and Review, beginning a 12-year career at 
the agency.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Carver appears in the Appendix on 
page 102.
---------------------------------------------------------------------------
    Over the course of my employment with the Administration, I 
have held the position of a senior case technician (SCT). In 
2006, in addition to my duties as an SCT, I was elected to the 
position of the American Federation of Government Employees 
(AFGE) 3610 Union Steward for the Huntington, West Virginia, 
ODAR. Prior to my employment with ODAR, I was a paralegal in 
the private sector for 13 years, 8 of which I primarily focused 
on representation of claimants seeking Social Security 
disability benefits. I am a graduate of Marshall University 
with a degree in legal studies.
    From 2001 to 2006 I routinely received performance awards 
for the quality and production of my work in the Huntington 
ODAR office. However, in 2006 those awards came to an abrupt 
stop when Greg Hall became the hearing office director (HOD). 
Coincidentally, I had been voicing my concerns about what I 
perceived as the improper processing of Social Security claims 
in the Huntington office. Not only did I report my concerns to 
Mr. Hall, I also reported them to other members of the 
Huntington management throughout the years. These members 
consist of Arthur Weathersby, Kathie Goforth, Stacy Clarkson, 
Jerry Meade, John Patterson, Kelly Rowland, and Chief ALJ 
Charlie Paul Andrus. I am still currently employed as an SCT at 
the Huntington ODAR office despite many retaliatory actions 
against me by several members of management.
    I reported to management on numerous occasions what I 
perceived as inappropriate actions involving Huntington ODAR 
management, ALJ Daugherty, and Attorney Representative Eric C. 
Conn. One such example is, in May 2007 I sent an e-mail to Greg 
Hall requesting justification on the hearing request dates of 
ALJ Daugherty's fully favorable dispositions. I discussed the 
serious evidence which would substantiate the overt favoritism 
of Mr. Conn's claimants and management's continuous sweeping 
things under the rug with regards to Daugherty and Conn.
    In that e-mail I directly warned my managers, and I quote, 
``the Eric Conn situation is going to bite this office in the 
butt one day.'' I further requested management to open their 
eyes to the Daugherty and Conn issues and change the way Conn's 
cases were handled before it became an outside issue.
    Instead of any corrective action being taken, the situation 
only escalated. I continued reporting to management for several 
years thereafter before I took my concerns out of the office.
    As a result of my multiple disclosures, I have suffered 
tremendously. Management has been allowed to harass, 
intimidate, oppress, stalk, discipline, ostracize, monitor, and 
make my life as miserable as possible for the last 7 years.
    Knowing that a private investigator was hired to follow me 
has been very traumatizing. I still fear for my safety and the 
safety of my family. Also knowing that employees have been 
terminated for their association with me has left me with such 
a burdensome feeling. Perhaps I should mention at this point 
that the agency has asked me to inform you that I am here 
testifying in my personal, not official, capacity, and that the 
agency does not sanction my testimony.
    Every employee in the Huntington, West Virginia, ODAR, 
including management, is considered a public servant and is 
held to a higher standard of conduct. Management officials and 
judges are no exception.
    Where is the accountability in this agency? Why does the 
agency promote and reward management for this activity? Agency 
production goals benchmarks are important; however, they should 
not diminish the importance of the quality of work we perform 
for the American people. Changes need to be made in the agency 
to not only allow for timely processing of claims without 
sacrificing quality but also as important, a system needs to be 
put in place and monitored by an outside source, to assure that 
agency leaders and claimant representatives are held 
accountable for failing to following the laws, regulations, and 
agency policies.
    I appreciate the opportunity to speak with you and would be 
happy to answer any questions that you may have. Thank you.
    Chairman Carper. Ms. Carver, thank you so much. Ms. 
Griffith.

  TESTIMONY OF JENNIFER L. GRIFFITH,\1\ FORMER MASTER DOCKET 
CLERK AT THE U.S. SOCIAL SECURITY ADMINISTRATION (APPEARING IN 
                      A PERSONAL CAPACITY)

    Ms. Griffith. Chairman Carper, Senator Coburn, Members of 
the Committee, good afternoon. My name is Jennifer Griffith. I 
am a wife, mother of two, and student, as well as a former 
employee of the Huntington, West Virginia, Office of Disability 
Adjudication and Review. I am both humbled and honored to 
appear before you today and appreciate the opportunity to 
describe my experience while employed there.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Griffith appears in the Appendix 
on page 102.
---------------------------------------------------------------------------
    October has always been a special month for me. It was this 
day in 1997 that my son was born. It was 12 years ago in the 
month of October that I began my career with ODAR.
    Chairman Carper. So today is your son's 16th birthday. Is 
that right?
    Ms. Griffith. Yes, it is.
    Chairman Carper. Give him our best. Thank you. Tell him we 
said thank you for sharing his mom on his birthday.
    Ms. Griffith. Thank you.
    During my employment, I was a master docket clerk or case 
intake technician. Beginning in late 2005 or early 2006, on too 
many occasions to count, my group supervisor, Kathie Goforth, 
began to call me into her office and issue verbal reprimands 
based on cases being docketed improperly, incompletely, or not 
docketed timely. I was unable to answer her questions and had 
no idea what was causing the docketing issues.
    In an attempt to determine what was occurring, I began to 
run various reports on a daily basis and keep track of cases I 
docketed each day. I determined, in fact, the docketing issues 
were occurring because ALJ David B. Daugherty was assigning 
cases to himself at the master docket level before I was ever 
aware that the case had been transmitted to Huntington ODAR.
    CPMS, the agency's computerized docketing system, provided 
no safeguards at that time to display who had made the improper 
assignments. I immediately brought this to the attention of Ms. 
Goforth, Hearing Office Director Gregory Hall, and Hearing 
Office Chief Administrative Law Judge Charlie Paul Andrus, 
thinking that my discovery would explain and alleviate the 
issues that appeared to be mistakes on my part. Instead it was 
the beginning of the end of my career.
    I began to question how ALJ Daugherty was accessing files 
that were not even making it to the daily master docket 
reports. If the files had not been through the docketing 
process and assigned to an ALJ, how was he aware that they were 
even in the office? It is simple. He had prior knowledge.
    ALJ Daugherty did not simply take cases from the master 
docket without proper docketing. He assigned and self-scheduled 
extensive quantities of Mr. Conn's cases and awarded all of 
them in favorable sham hearings.
    In 2007, other area attorneys complained that Conn was 
receiving preferential treatment from ALJ Daugherty in 
scheduling hearings. I forwarded those individuals to speak 
with Ms. Goforth and Mr. Hall. Soon after, ALJ Daugherty 
stopped holding hearings for Mr. Conn's claimants, and for an 
extended period, all of his cases were decided favorably, on 
the record, without hearings, 100 percent approval.
    Ms. Goforth and Mr. Hall instead increased their efforts to 
stop my reporting. I then decided to make each notification in 
writing and to include my union representative. I felt I was 
doing the right thing. I simply wanted the retaliation to stop 
and to be able to do my job without constant threat of 
reprimand.
    Instead, as my reporting of ALJ Daugherty's 
misappropriation of Eric Conn cases increased, the 
investigations and retaliation by Huntington ODAR management 
increased. At one point my supervisor would time every action I 
took during the day, including how long I spent in the 
bathroom.
    In October 2007, after enduring multiple investigations and 
verbal and written reprimands, Ms. Goforth told me in an annual 
progress review that her goal by the end of the year was to 
make sure that I was no longer employed there and that there 
was nothing I could do about it.
    After years of attempting to get Huntington ODAR management 
to correct the consistent misappropriation of cases by ALJ 
Daugherty for Eric Conn, it was clear to me that things were 
never going to change. The constant retaliation had severely 
affected my health and my family. My physician advised me to 
leave my employment with the Huntington ODAR before it killed 
me, and I left.
    I filed 2 complaints with the Office of the Inspector 
General. One was a verbal anonymous complaint made to the OIGs 
hotline in 2009. They did not contact me until April 2011, 
apparently because of a rumored Wall Street Journal 
investigation. The OIG called me regarding my complaint, and I 
cooperated fully. The 2nd complaint was in 2011, using the 
OIG's website.\1\
---------------------------------------------------------------------------
    \1\ See page 123 for edits requested by witness.
---------------------------------------------------------------------------
    In addition to my cooperation with the OIG, I have had the 
great fortune to cooperate with this investigation and speak 
with Committee staff, as well as to participate in the article 
written by Damian Paletta for the Wall Street Journal.
    I also filed a complaint with the Office of Special Counsel 
regarding my forced resignation from ODAR, and after appealing 
that claim to the Merit Systems Protection Board (MSPB), I 
settled it, and as requested by the agency, I have agreed not 
to seek employment with the Social Security Administration for 
5 years.
    In October 2011, Sarah and I found attorneys to sue Mr. 
Conn and ALJ Daugherty on behalf of the United States, and we 
are continuing to pursue that case in hopes that through it we 
will be able to obtain compensation from them for the American 
taxpayers.
    Each time I spoke with someone, I was asked what I thought 
could be done to prevent this type of situation from occurring 
and what could be done to fix it. There are not nearly enough 
safeguards built in to catch the type of fraud that occurred 
here. As long as financial incentives to produce large numbers 
of disability decisions exist, there are going to be managers 
willing to subvert the system to meet those goals and receive 
compensation. In my experience, the primary concern of the 
management I worked for was quantity, with little to no regard 
for quality.
    My family has not been the same since my employment with 
Huntington ODAR, and financially we will never have the same 
amount of security that we had at that time. We have suffered 
loss and will probably continue to do so. But I can look at my 
children with a clear conscience and know that whatever happens 
from this, whether any meaningful action has taken place, I did 
everything possible to make sure that the American public knew 
about it.
    Thank you, and I look forward to your questions.
    Chairman Carper. Ms. Griffith, thank you very much for that 
statement and, again, for joining us today, and for this 
journey of the last several years.
    Ms. Griffith. Thank you.
    Chairman Carper. Ms. Slone, welcome, and you are recognized 
to make your statement. Thank you.

TESTIMONY OF JAMIE L. SLONE,\1\ FORMER EMPLOYEE AT THE CONN LAW 
                              FIRM

    Ms. Slone. My name is Jamie Slone. I am 36 years old, and I 
live in Pikeville, Kentucky. I am married and have four 
children. I worked for the Eric C. Conn Law Firm from September 
2006 to March 16, 2012.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Slone appears in the Appendix on 
page 113.
---------------------------------------------------------------------------
    One of my responsibilities at the firm was to field calls 
from Administrative Law Judge David B. Daugherty. Each month, 
Judge Daugherty called and gave the following information for 
30 to 50 Social Security disability claimants represented by 
Eric Conn: first name, last name, the claimant's Social 
Security number, and either ``mental'' or ``physical.''
    I created a list of these claimants, which was known 
throughout the office as the monthly ``DB list.'' Once the list 
was created, another employee called each claimant on the DB 
list to schedule an exam with a doctor. During my tenure at the 
firm, Jessica Newman was primarily responsible for scheduling 
claimants. Depending on whether Judge Daugherty indicated 
``mental'' or ``physical'' for the claimant, Ms. Newman 
scheduled the claimant to see a certain doctor to provide an 
opinion on the claimant's alleged disability.
    When the medical opinions were completed, Judge Daugherty 
sent a barcode to the firm to attach to the reports, which were 
used to upload the reports into the SSA electronic file system. 
After 6 to 8 weeks, Judge Daugherty issued a decision approving 
the claimant for disability benefits ``on-the-record'' without 
holding a hearing.
    If you have any questions, I would be happy to answer. 
Thank you.
    Chairman Carper. Thank you, Ms. Slone.
    And, finally, Ms. Martin, please proceed. Welcome. Would 
you make sure your mic is on? Thank you.

TESTIMONY OF MELINDA L. MARTIN, FORMER EMPLOYEE AT THE CONN LAW 
                              FIRM

    Ms. (Martin) Hicks. My name is Melinda Hicks, formerly 
Melinda Martin. I was married in June 2012. I worked at The 
Eric Conn Law Firm from January 2006 until February 2012. My 
responsibilities at the firm ranged from receptionist to 
several different supervising positions to assisting in 
management of the office.
    During my time at the firm, I did witness several 
inappropriate acts between Eric Conn and some of the 
administrative law judges from the Huntington, West Virginia, 
hearing office. I have previously submitted an affidavit which 
outlines the relationship between Mr. Conn and some of those 
judges that I saw during my time working at his office.
    If you have any questions, I am ready to answer those.
    Chairman Carper. All right. Ms. Martin, thank you.
    This is not a trial. This is a Committee hearing. And this 
is an opportunity for us to try to get to the truth. I think it 
was Thomas Jefferson who said that if the American people know 
the truth, they will not make a mistake. And so what we are 
trying to do today is to garner as much of the truth as we can.
    I do not know who would like to do this, but whoever--our 
staff come and go, our Senators come and go during a hearing 
like this because there are other things that they need to be 
doing at the same time. But if one of you or a couple of you 
could just take a minute or two and or maybe explain what was 
going on. Just in your own words, what was going on here? If 
someone, one of you feel comfortable in doing that, please do.
    Ms. Carver. It is in my opinion that it was a mass 
collusion between a judge and an attorney. It was something 
that was very noticeable from within days of my employment, and 
it just increased. And it was done in such openness, and it was 
not something that was going on behind the scenes. I mean, we 
had office statistics, and as Jennifer mentioned, as those 
statistics became available to us in a system to where we were 
able to view these reports, it became more apparent because you 
could see the mass numbers of favorable decisions going out. 
This was something that really came to light when this 
electronic folder came out, because you could just see the 
massive amount of numbers.
    And the other thing that kind of astonished me, even after 
this investigation started, management was still pulling--and, 
again, this is in my personal opinion. Management was still 
pulling these cases out of hearing request dates and was still 
allowing--and then at one point before--and it happened also on 
several occasions--once Judge Daugherty helped them meet their 
monthly goals, because we had monthly disposition goals, they 
would bank these decisions. I mean, these were decisions of 
people who were waiting for them to come in the mail, and they 
would bank these for their own numerical purpose and hold them 
before sending them out the next month. And they were all Eric 
Conn cases. I mean, there would be 50 sitting, all favorable, 
on-the-record Eric Conn decisions. Management would allow him 
to put them in AWPC, which basically means it is with the judge 
for writing. However, they had been written 2 weeks ago, and 
all favorable, just sitting there for the next reporting month.
    So, in my view, management was just a part of this as the 
individuals that were actually, you know----
    Chairman Carper. All right. That was a great overview. 
Thank you.
    Any idea how many people worked at the Huntington office, 
the Social Security office in Huntington? Are we talking about 
dozens of people? Scores of people?
    Ms. Carver. Oh, at one time I believe we had about 60 
employees.
    Chairman Carper. In that office, maybe other satellite 
offices, and maybe in the law office of Mr. Conn, other people 
had to know something was going on.
    Ms. Carver. Absolutely.
    Chairman Carper. People had to know. But the four of you 
have somehow stepped up, shown courage, and are here today. It 
sounds like some of you have been through a very difficult 
time. Let me just ask, what was it that compelled you to stand 
up and say this is wrong and somebody needs to say something 
and do something? What compelled you, Ms. Martin? We will just 
ask everybody that question. What compelled you to do this?
    Ms. (Martin) Hicks. I am not really sure. I actually 
probably would have been too scared to do it myself. But I had 
actually spoken to another attorney in the Prestonsburg area 
just about what was going on, and he actually contacted someone 
for me, and that made it a little easier for me to be able to 
do.
    Chairman Carper. All right. Thank you. Ms. Slone.
    Ms. Slone. Actually, I----
    Chairman Carper. What you have done is not an easy thing to 
do. What was it that compelled you and gave you the courage to 
do it.
    Ms. Slone. Melinda had initially taken the first step 
toward speaking to someone about the problems within the 
office. Then I was approached to cooperate and answer some 
questions and give my insight on things involved at the law 
firm. And, I mean, there was not any question; I just 
cooperated.
    Chairman Carper. Cooperated with whom? Was it the Inspector 
General or----
    Ms. Slone. At first it was your staff. It was the staff 
here, the Subcommittee, and then also the OIG.
    Chairman Carper. All right. Thank you.
    Ms. Griffith, same question, please.
    Ms. Griffith. I do not really know the answer to that 
question. I left in 2007 and walked away from it, until 2009. 
And in 2009, I began to see some things in the media that were 
put out by Mr. Conn and some other things, and it just--I 
walked away for my health, but suddenly I was mad again and 
ready to take that next step to do something. And I filed a 
complaint with the OIG fraud division at that time. And just 
sort of nothing really happened for a while, and then I was 
contacted by Mister--or communicated with Mr. Paletta and then 
to the Committee here and worked with them to bring it out. I 
think you just have to have a certain level of anger over what 
you see to get you to have the courage to come forward.
    Chairman Carper. OK. Same question, Ms. Carver. What 
compelled you to step forward?
    Ms. Carver. I agree with Jennifer as far as the anger. We 
initially started reporting this together. I was the union rep, 
and she initially came to me because of the disciplinary 
problems that she was having with her supervisors. And whenever 
I would have one-on-one talks with our office management, it 
was apparent that this is not what they wanted to hear. And at 
a point where they started retaliating in doing things not only 
to her but to me, I really truly believe that that just 
triggered something inside of me that, I am a fighter when it 
comes to doing the right thing. And I just kept doing it to the 
point where I could not stop now and I am there to--as a union 
representative, to help and to set an example, and that is what 
I was trying to do.
    Chairman Carper. Good, and I think you have. You all have.
    Ms. Carver. Thank you.
    Chairman Carper. Before yielding to Dr. Coburn for his 
questions, I would ask unanimous consent that my entire 
statement be made part of the record.
    Dr. Coburn, please.
    Senator Coburn. Thank you.
    Jennifer, I am going to go through a list of questions, if 
you can answer them fairly rapidly for me. I think you probably 
have the answers to them in your mind.
    How long did you work at the Huntington office?
    Ms. Griffith. From 2001 to 2007.
    Senator Coburn. And you were a master docket clerk?
    Ms. Griffith. For the latter half of my employment. I 
initially was a senior case technician.
    Senator Coburn. OK. And were cases assigned only by the 
master docket clerks, or were judges allowed to assign cases 
themselves?
    Ms. Griffith. At that time the master docket clerks were 
the only ones assigning cases, unless, of course, something was 
brought to their attention by a supervisor, and then the 
supervisor would assign it. But, traditionally, it was the 
master docket clerk.
    Senator Coburn. And the reason that they did not want 
judges assigning cases on the master docket list?
    Ms. Griffith. Is to avoid judge shopping or favoritism.
    Senator Coburn. OK. And once a case was assigned to a 
judge, was it typical for that case to then be reassigned to 
another judge?
    Ms. Griffith. It was not supposed to be assigned to another 
judge.
    Senator Coburn. Now, you have talked about some of the 
problems you had when Judge Daugherty was going into the 
computer system, the CPMS, and assigning himself cases, and 
that was some of your conflict that you were supposedly 
disciplined over----
    Ms. Griffith. Yes.
    Senator Coburn [continuing]. That really was not your 
fault. Is that the only way you can manipulate this system? Are 
there other ways that you can manipulate the system and 
somebody could still cheat the system today?
    Ms. Griffith. There are numerous ways, or at least there 
was when I was there. Keep in mind I have been gone for a 
while. But at the time, unless something is changed 
significantly, the numerical goals make it a priority to sort 
of sort things around. For example, if you have a case in one 
status for too long, then that could be an issue. You want to 
make sure that you are processing things timely. You can simply 
change status out of a case and then change it back or move it 
to a different status without really ever doing anything to 
that case.
    Senator Coburn. So you meet the numbers, but you did not 
really do anything?
    Ms. Griffith. Essentially, yes.
    Senator Coburn. All right. Sarah--let us see. Let me finish 
with Jennifer again. Jennifer, if you would turn to Exhibit 
26\1\ that is in that big book in front of you, this is an e-
mail you wrote on September 11, 2007, to Greg Hall, the hearing 
office director, who was the top manager in charge of the 
Huntington office at that time. In it, you express serious 
frustration. You let him know that you were quitting. You 
wrote, ``I am aware that while I was out of the office, Judge 
Daugherty felt it was necessary to take away some more cases 
that were assigned to another judge and place them in his 
name.''
---------------------------------------------------------------------------
    \1\ See Exhibit No 26, which appears in the Appendix on page 729.
---------------------------------------------------------------------------
    I take it that this was not the first time that this 
happened?
    Ms. Griffith. No. This had begun approximately a year, year 
and a half prior.
    Senator Coburn. Why did that make you so upset?
    Ms. Griffith. Because every time a case would disappear or 
a group of cases would disappear off the master docket list, 
then my supervisor was coming to me for explanations as to why. 
If I am not performing my job to the fullest capacity, then I 
will not receive a successful performance evaluation, and I 
have no chance for promotion or anything else. And it had taken 
me a long time to figure out what caused this because there was 
no clear way to determine what happened. And it had escalated 
to a point of almost constant altercations with my supervisor.
    Senator Coburn. How long do you think Judge Daugherty was 
doing this?
    Ms. Griffith. By my estimation, it began after the e-folder 
process went into effect----
    Senator Coburn. Which was?
    Ms. Griffith. In 2005 is when we started that.
    Senator Coburn. All right. How many times do you remember 
this happening that he would reassign cases?
    Ms. Griffith. I do not think I can count that. I mean, it 
was every month. He would do it----
    Senator Coburn. Fifty, 60, or 100 times?
    Ms. Griffith. Yes. I mean, there would sometimes be 50 
cases missing off of my pending list, or sometimes it might be 
5--you docket daily, and there would be cases disappearing 
every day, sometimes every week.
    Senator Coburn. In your e-mail you also wrote, ``Judge 
Daugherty''--``DBD does many things like this every month. When 
I find them, I make management aware of it. Nothing is ever 
done about it.''
    What did you tell your managers and what was their 
response?
    Ms. Griffith. Well, at a certain point in time, after 
verbal notifications, it became clear to me that they were not 
going to do anything. So I started making written notifications 
and including the name and Social Security number of each case 
that he took off the docket that I became aware of. And that 
continued from mid-to late 2005 all the way up until I left in 
2007.
    Senator Coburn. And to your knowledge, was Judge Daugherty 
ever disciplined for what he did?
    Ms. Griffith. Not to my knowledge.
    Senator Coburn. And that is a violation of the rules inside 
Social Security. Is that correct?
    Ms. Griffith. To my understanding, it is a violation of the 
Hearings, Appeals and Litigation Law (HALLEX).
    Senator Coburn. Were the cases always from one particular 
lawyer, or did he do that for all kinds of cases?
    Ms. Griffith. I am not aware of him doing it for any other 
office other than Eric Conn's office.
    Senator Coburn. All right. Thank you.
    Ms. Carver, you noticed many of the same problems that Ms. 
Griffith saw in the Huntington, West Virginia, office. Can you 
describe your role in the office specifically as to what 
Jennifer has talked about?
    Ms. Carver. Jennifer was receiving disciplinary reprimands, 
verbal and in writing, at first she was denied a union 
representative to even be present when they were verbally--what 
they said is counseling. But then it escalated to the verbal 
counseling and they would always put it in writing. It was a 
battle with management to even let me be present. So that is 
when I kind of got involved with not only management, but even 
with my outside union president and vice president and chief 
steward, and I began talking with management and also keeping 
things in writing based on what conversations we had.
    Senator Coburn. Right. Before we talk about Judge 
Daugherty's decisions, I understand the office joke was that if 
you were looking for Judge Daugherty, do not look in his 
office. Is that true?
    Ms. Carver. That is true.
    Senator Coburn. That was an observation not by you but by 
several other people in the Huntington office?
    Ms. Carver. Yes. There were several occasions where they 
had to go next door or management would call him on his cell 
phone because there were people waiting in the hearing rooms 
for him, and he was usually at the coffee shop at the Holiday 
Inn across the street.
    Senator Coburn. And did anyone in Huntington management 
know about Judge Daugherty's time and attendance problems?
    Ms. Carver. Yes. Not only did other ALJs report it, I 
reported it approximately probably two or three times.
    Senator Coburn. Was anything done about it?
    Ms. Carver. No.
    Senator Coburn. It has now been about 2\1/2\ years since 
the problem within the Huntington Social Security office became 
known publicly. Have you witnessed any retribution recently for 
those who are still trying to speak out?
    Ms. Carver. Yes.
    Senator Coburn. Would you describe that, please?
    Ms. Carver. There have been--well, I will give you a really 
good example. One of the employees who reported to the OIG that 
the private investigator was hired to have me followed, she 
went from being one of the top employees as far as production 
and her workup in the country--I mean, she was No. 1, No. 2 in 
workup, and often helped management with projects that were not 
even--I mean, they were management-type projects--to being 
suspended for 2 weeks. She was also reprimanded for bringing 
the word ``diversity'' up in one of her office evaluations. 
Several employees that participated were also--we were now 
being charged with absent without leave (AWOL). I had a police 
officer call my work, and my 16-year-old daughter had been in a 
car accident, and I had verbally went and sought approval from 
management and received it and left the office. However, when I 
came back, when I officially put in my leave request, I was 
charged with AWOL, and that was the beginning--and it is still 
occurring. Despite any type of medical certification that 
employees are receiving from their physicians, management is 
giving themselves the right to decide whether or not your 
condition is serious and denying employees leave. And this is 
happening every day. You can speak with anybody in management 
in our office right now. That did not happen before this 
investigation.
    Senator Coburn. Each judge would have several support staff 
working with them, including those that would help draft 
decisions. Can you describe Judge Daugherty's approach to 
writing decisions and the extent to which he was helped by 
staff?
    Ms. Carver. When he was holding hearings for other 
representatives, they would write the decisions. These are 
paralegal writers. They would write the decisions, and we had 
one writer specifically who said that, ``There is not enough 
information for me to write this favorable decision. There is 
not enough substantial evidence in the file.'' And she was told 
by the supervisor, Ms. Goforth, that if she did not write the 
decision that she would be held insubordinate.
    Senator Coburn. All right. We have heard from many judges 
that ALJ hearings can take as long as an hour or more. When 
Judge Daugherty would hold hearings for Mr. Conn's clients, how 
long would they take?
    Ms. Carver. About 10 minutes, if that.
    Senator Coburn. And did he issue a decision at the time?
    Ms. Carver. Most of the time, yes. He went in long enough 
to go on the record and no testimony was taken, you could 
listen to the court reporting as a senior case technician. We 
would bring these hearings back in and put them into our 
system, and you could listen to the recordings and he would 
just go on record and announce that his decision was favorable, 
and there would be no testimony from the vocational expert 
(VE), the claimant, or anybody.
    Senator Coburn. And it is true that you notified Mr. Hall 
that you were aware that Judge Daugherty was assigning himself 
cases as well?
    Ms. Carver. On many occasions.
    Senator Coburn. And that was written as well?
    Ms. Carver. Yes.
    Senator Coburn. All right. Thank you.
    Chairman Carper. The next questions will be asked by 
Senator Levin, and he will be followed by Senator McCain, 
Senator Baldwin, and Senator Heitkamp. Senator Levin.
    Senator Levin. Thank you very much, Mr. Chairman.
    Ms. Carver, you were targeted for speaking out. 
Administrative Law Judge Andrus and Mr. Conn used a Conn 
employee who was a former police officer to videotape you on 
the days that you were supposed to be working from home. They 
were trying to catch you going shopping or otherwise taking 
advantage of the rules. They failed. They were unable to 
provide any kind of proof like that, so instead, you were 
filmed going shopping on the weekend. And then evidence was 
fabricated in that videotape to make it appear as though you 
were going shopping during work hours. And then the videotape 
was turned over to your superiors.
    So far is that correct?
    Ms. Carver. Yes.
    Senator Levin. They tried to discredit you because they 
believed you had spoken to a reporter about what was going on 
in the office, and Judge Andrus has admitted as much in the 
signed statement to the Social Security Administration IG, 
which is Exhibit No. 82.\1\
---------------------------------------------------------------------------
    \1\ See Exhibit No. 82, which appears in the Appendix on page 1276.
---------------------------------------------------------------------------
    Shall I call you ``Ms. Martin'' or ``Ms. Hicks? '' I am 
sorry.
    Ms. (Martin) Hicks. Either will be fine.
    Senator Levin. OK. Ms. Hicks--you are married, obviously--
did a member of the Huntington office, Sandy Nease, regularly 
place calls to you at the Conn office informing you when Ms. 
Carver would be working from home?
    Ms. (Martin) Hicks. She did. She actually did not call the 
office. She called my personal cell phone.
    Senator Levin. Were you at the office when she called?
    Ms. (Martin) Hicks. Most of the time.
    Senator Levin. And why was she calling your personal cell 
phone, do you know?
    Ms. (Martin) Hicks. Yes. She wanted me to let Eric know 
when----
    Senator Levin. Eric Conn?
    Ms. (Martin) Hicks. Yes, what days Sarah would be on her 
flex day, and she also called to give us directions to her 
home, her address. She told us that she had a tall privacy 
fence that would be hard to record over, and also told us the 
type of vehicles that she and her husband drove so that it 
would be easier for them to find her.
    Senator Levin. And this came from the Social Security 
office?
    Ms. (Martin) Hicks. Yes.
    Senator Levin. And then was part of that a coded message?
    Ms. (Martin) Hicks. Yes, a couple of messages she would say 
that her children had band practice, and I do not think that 
she had children that actually had band practice. That just 
meant that instead of saying it is her flex day, she would just 
call and say her children had band practice.
    Senator Levin. And a flex day is when employees are working 
at home. Is that correct?
    Ms. (Martin) Hicks. Yes.
    Senator Levin. And so that was, in your judgment, coded 
words for she is supposed to be doing work at home on a flex 
day.
    Ms. (Martin) Hicks. Right.
    Senator Levin. And not that the kids had band practice.
    Ms. (Martin) Hicks. Correct.
    Senator Levin. And did you then give that information to 
Mr. Conn?
    Ms. (Martin) Hicks. I did.
    Senator Levin. That is pretty stunning testimony, I have to 
tell you. You are being tracked and followed here, Ms. Carver, 
and we now have a witness from the Social Security 
Administration office there who confirms that these calls were 
made to Mr. Conn from your office so that you could be tracked. 
And I am just wondering, I think you have initiated a lawsuit I 
believe you have made reference to. Is that correct?
    Ms. Carver. Yes.
    Senator Levin. Against the Social Security Administration?
    Ms. Carver. Well----
    Senator Levin. What kind of lawsuit is it called? It is a 
special name, right?
    Ms. Carver. The qui tam.
    Senator Levin. Yes, OK. Have you also thought about suing 
Mr. Conn for interfering with your employee-employer 
relationship?
    Ms. Carver. Well, a lot of this information, obviously, I 
was not privy to until just within the last couple of days. It 
was quite shocking because in the report it stated that the 
agency, once they found out this information, that they did not 
use it. And they did use it. The acting Hearing Office Chief 
Administrative Law Judge (HOCALJ), Judge Devlin, had talked to 
me and had ordered an investigation with Steven Hayes, which 
was my supervisor at the time, and they brought me into the 
office and asked me a bunch of questions. It was kind of 
intimidating because they would not tell me what, when, where, 
or how, and at the time my union representative had requested 
any information that they had, documentation that they based 
this investigation on, and they were told--I was told there was 
not any. It was just an anonymous call.
    So I am just now kind of finding out this information. I 
mean, it is shocking.
    Senator Levin. Well, it is stunning and shocking 
information.
    Ms. Carver. It is scary.
    Senator Levin. I hope it will have an impact in many ways. 
I think that both you, Ms. Carver, and Ms. Griffith indicated 
that you pointed out what was going on to your bosses there at 
the Social Security office. I believe you alerted the chief of 
staff in your office--is this correct?--Greg Hall as to what 
was going on. Is that correct, Ms. Griffith?
    Ms. Griffith. Yes, that is correct.
    Ms. Carver. Yes.
    Senator Levin. OK. Now, what about Chief Judge Andrus? Did 
you inform him what was going on as well?
    Ms. Griffith. Most of the e-mails after a certain point 
started to be copied to Mr. Andrus. On one particular occasion, 
Judge Daugherty had taken approximately 50 cases away from ALJ 
Gitlow and had them in his office preparing to write favorable 
off-the-record (OTR) decisions after they had already been 
assigned to Judge Gitlow. I took Ms. Goforth and Mr. Andrus 
into Judge Daugherty's office and showed them the cases. They 
removed them, but they were then later back with Judge 
Daugherty and were decided favorably.
    Senator Levin. OK. Thank you.
    Let me ask Ms. Slone and Mrs. Hicks, the bank records of 
Judge Daugherty from 2005 to 2011 show some, so far, 
unexplained cash deposits of $96,000 in round amounts, usually 
starting as low as $1,000, going as high as $5,000 at a time. 
Some $26,000 was posted to his daughter's account from 2007 and 
2008. When asked, Judge Daugherty declined to provide any 
information for those cash payments. There is no explanation of 
them in his financial disclosure forms.
    Ms. Slone and Mrs. Hicks, do either of you know anything 
about those cash deposits? Ms. Slone.
    Ms. Slone. No, sir, I do not know anything specifically 
about those cash deposits. I had been at the firm for quite a 
few years and working closely with Eric, and I did his schedule 
for him for hearings----
    Senator Levin. That is Eric Conn, right?
    Ms. Slone. Eric Conn, yes, sir. So I pretty much knew where 
Eric Conn was every day. There were some days--one day usually 
a month that he was unaccounted for--by myself, anyway. I had 
asked him--one day when he came back. He was gone half the day, 
and I told him that I had a theory about him, and he asked what 
that theory was. And I said, ``I think when you disappear 1 day 
a month that you go and meet DB.'' And he just looked at me and 
kind of smiled, and he said, ``Well, you know what they say. 
Where there is smoke, there is fire.''
    Senator Levin. That you go and meet whom?
    Ms. Slone. DB. Judge Daugherty. But that has been the 
only--I have never----
    Senator Levin. Do you know, Ms. Hicks, anything about those 
cash deposits?
    Ms. (Martin) Hicks. No, not about the cash deposits.
    Senator Levin. My time is up. Thank you.
    Chairman Carper. Senator McCain, and then Senator Baldwin, 
Senator Heitkamp, and Senator McCaskill.
    Senator McCain. Well, I want to thank the witnesses. I also 
want to thank Senator Coburn and Senator Levin on the excellent 
work they and their staff have done. Obviously this is 
appalling. It is one of these things you read about in novels 
or see on TV.
    What is most disturbing--and I would like to begin with the 
witnesses, who I want to thank profusely. Is it true there was 
a pattern of intimidation and inaction concerning your 
willingness to step forward? Could I just go down the line and 
make sure that that is an accurate statement? Is that true, Ms. 
Carver?
    Ms. Carver. Yes, it is.
    Senator McCain. And could you give me a couple of the most 
egregious examples?
    Ms. Carver. Everything from, I guess it would be, 
suspensions to a private detective----
    Senator McCain. To videotaping?
    Ms. Carver. Being videotaped, yes.
    Senator McCain. It should not happen in America, I do not 
think.
    Ms. Carver. No.
    Senator McCain. Ms. Griffith.
    Ms. Griffith. I am much more fortunate than Sarah. I have 
not been followed by the private investigator in this matter. I 
was already gone by that time. And I was already gone by the 
time the worst of the office environment happened, I had been 
gone for several years. But during my time there, each 
reporting action was met with equal and opposite reaction of 
negative verbal reprimands. I have had files that would 
disappear and be reviewed.
    In the last example before I left, the supervisor had 
issued another union employee to go through my desk to 
determine if any mail was over a certain age. Then in my 
progress review, she told me that was her goal, to make sure 
that I was not going to be there by the close of the year, 
which would have been 2 month away.
    Ms. Carver. Can I say one more thing?
    Senator McCain. Sure.
    Ms. Carver. During this investigation, we were able to 
obtain an e-mail from Greg Hall to Howard Goldberg, which----
    Senator McCain. And would you identify who they are?
    Ms. Carver. Greg Hall is the hearing office director; 
Howard Goldberg was, I believe at the time, an employee 
relations person in the region. And the e-mail said, ``Sarah we 
have suspended. Jennifer we are working on.''
    Senator McCain. Ms. Slone.
    Ms. Slone. Once the Wall Street Journal story aired or came 
out, at our office things changed. Before we went into Eric's 
office, he actually had a security wand.
    Senator McCain. Eric is Mr. Conn.
    Ms. Slone. Eric is Mr. Conn. You would have to go through a 
security check to make sure you did not have any phones or any 
recording devices or anything like that before you would be 
allowed to enter his office. He just became a lot more strict 
and more aware of who was around him, things that he said in 
the presence of certain people. But there was no retaliation. I 
mean, we were asked if we had spoken to anyone or been 
contacted by anyone, but other than that, there was not 
anything.
    Senator McCain. Ms. Hicks.
    Ms. (Martin) Hicks. No, not for me personally. After the 
story came out, I did not stick around too much longer because 
Eric Conn did start to do things so crazy, like have someone 
call my phone so that he could stalk some person. So I actually 
did not stay too much longer after that.
    Senator McCain. How do you know that he had someone do 
that?
    Ms. (Martin) Hicks. Because he had actually spoken to 
Administrative Law Judge Andrus, and he had given my phone 
number to an employee there, Sandra Nease, and she had left 
several messages on my phone to let me know when the employee 
was going to be off work so that Eric could send someone to 
follow her.
    Senator McCain. So there is no doubt you felt intimidated.
    Ms. (Martin) Hicks. Very much so. I did not want to be 
involved in it. It was bad enough that she had my number and 
left messages on my phone, but he actually asked me to drive to 
her home. He would get upset if you told him no to anything, so 
when I told him I did not want to do that, there were just days 
that he would not talk to you for a while and make you feel bad 
for not doing what he wanted. So I just left shortly after 
that.
    Senator McCain. Ms. Carver and Ms. Griffith, from what you 
have seen, there is no way that Judge Daugherty could have had 
as many cases under his authority and carried out a lot of the 
activities that he did without the active support of Judge 
Andrus.
    Ms. Carver. Correct.
    Ms. Griffith. Correct.
    Senator McCain. And that obviously is disturbing since 
Judge Andrus was the chief judge here, right?
    Ms. Carver. Yes. When I would report it to the hearing 
office director, Greg Hall, he had told me on several occasions 
that he had spoken with ALJ Andrus about it and that ALJ Andrus 
was going to address the judges. However, the activity never 
did stop.
    Senator McCain. How is your life now, Ms. Carver?
    Ms. Carver. In the office, it is not good right now.
    Senator McCain. Are you shunned by fellow employees?
    Ms. Carver. For several years, every supervisor that I was 
assigned to--I now have employees telling me things that they 
were afraid to tell me at the time. Each and every one of them 
were told to not associate with me, that I was a bad person, 
that if you wanted to be promoted in that office, you were to 
be----
    Senator McCain. And do you know who it was that was saying 
these things?
    Ms. Carver. They were newly hired employees as they would 
be----
    Senator McCain. No, but I mean who was telling them.
    Ms. Carver. The supervisors.
    Senator McCain. And you know who they were?
    Ms. Carver. Yes.
    Senator McCain. Ms. Griffith.
    Ms. Griffith. My life is drastically different. I do not 
have the medical problems that I had when I worked there that 
were caused by stress. Right now I am going back to school, 
and, I am very happy that I am not there now, because I cannot 
imagine if it was as bad for me as it was then. I was taken out 
of the office one time. I was taken out of the office by 
ambulance because my blood pressure had reached the level of 
stroke. I had been working with my doctor for a number of years 
to try and get that down, and my health was just going downhill 
because I could not control the stress. And I walked away from 
that, and I have worked for several years in the private sector 
as a paralegal, and I have not ever experienced anything like 
what I experienced there.
    Senator McCain. Well, I thank the witnesses. I thank you, 
Mr. Chairman. And all I can say is that I know I speak for all 
of us that we will try to see that no one else ever goes 
through what you have been through, and obviously there are 
problems here that are much larger than your office and you 
individually. But you are the people who have made this 
possible, and we thank you.
    Chairman Carper. Senator McCain, thank you. I made a 
mistake earlier when I said that Senator Baldwin was here 
before Senator Heitkamp, and the honor system would suggest 
that the next Senator recognized is Senator Heitkamp. Senator, 
welcome.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Senator Baldwin is always honest. An 
amazing woman, as all of you are amazing and really pretty 
remarkable women who are doing something incredibly difficult 
and who have been doing something incredibly difficult for a 
very long period of time, which is to stand up for the American 
taxpayers, which is to stand up for what is right. And I want 
to just extend my personal thank you, but also a thank you on 
behalf of the people of this country.
    Unfortunately, your story is so utterly remarkable because 
all of you attempted, on every step along the way, you 
attempted to try and get attention to this problem. And I have 
heard repeatedly during this that management stopped you or 
management began to use intimidation, management began to do 
this, management began to do that.
    I am obviously not as familiar as Senator Levin, Senator 
McCain, and Senator Coburn with this file. I am new on this 
Committee. But this is an opportunity, I think, for especially 
Ms. Carver and Ms. Griffith, to name all of the people within 
management who have been intimidators, who have been ignorers 
and in some way, whether illegally or legally, collaborators 
with a system that allowed this to continue. And so I guess I 
would start with you, Ms. Carver, to provide us a list of those 
names.
    Ms. Carver. I started with Supervisor Arthur Weathersby, 
Kathie Goforth, Jerry Meade, Stacy Clarkson, Steven Hayes, 
currently Bobby Bentley, and I have a new supervisor that has 
just recently conducted an investigation on me, and his last 
name is Bono, and he is so relatively new that I do not even 
recall his first name at this point.
    Senator Heitkamp. Thank you. Ms. Griffith.
    Ms. Griffith. My primary experience with it was with Ms. 
Kathie Goforth and former Hearing Office Director Greg Hall and 
Chief ALJ Charlie Andrus and to some degree, although much more 
minor, ALJ Daugherty.
    Senator Heitkamp. It may seem odd to you that I have asked 
you to name folks, but it certainly has been our experience 
that sunshine can go a long way, and if other agencies are 
operating like this, if other events like this are occurring 
within the system, having people know that your name will be 
listed in Washington, DC, in a hearing could provide maybe some 
relief to folks in your situation who are calling out these 
kinds of egregious problems and not getting any answer.
    I want to transition from what was happening internally, 
because obviously not only has this hearing and all of the 
attention not led to a change of atmosphere for you within that 
agency, it seems like there continues to be pushback from the 
agency on what needs to be done. But I want to just transition 
for a moment, because I think it was you, Ms. Griffith, who 
talked about filing an Inspector General's complaint in 2009.
    Ms. Griffith. That is correct.
    Senator Heitkamp. And never hearing--I want to just make 
sure we have this right. You filed the complaint in 2009 and 
did not hear from the Inspector General until 2011, after the 
report in the Wall Street Journal. Is that correct?
    Ms. Griffith. I believe that is correct, yes.
    Senator Heitkamp. Did you ever followup with the IG in 
that, not hearing, or did you just say it is more of the same, 
I am done with it, my blood pressure is going down, I want to 
be rid of this problem?
    Ms. Griffith. Initially I made a few phone calls, but I 
really did not yield any results, and I just sort of let it go.
    Senator Heitkamp. Do you remember who it was or do you have 
any record of who it was in the IG's office that you contacted?
    Ms. Griffith. No. The only thing I have with regards to 
that complaint was a copy of the original e-mail confirming 
that complaint that I had.
    Senator Heitkamp. And you got that e-mail almost right 
after you filed the complaint in 2009?
    Ms. Griffith. Yes. I think it might have even been the same 
day that they knowledged receiving that.
    Senator Heitkamp. So probably just something that was 
generated. One of our tasks here is not just to expose your 
particular situation but to look ahead and say if there are 
women like you in an agency who are being intimidated, who are 
having these problems, who are pointing out something that just 
seems so blatantly wrong and not getting listened to, how do we 
fix that for other women or other individuals within agencies? 
Have you thought about that? And I, again, direct the question 
to Ms. Carver and Ms. Griffith. Have you thought about if only 
this, that would have made a difference?
    Ms. Carver. Well, I have often, because we currently have 
had several complaints filed from women in our office, and, 
unfortunately, the way our grievance procedure operates is we 
file our first appeal with our first-line supervisor, our 
second appeal with the hearing office director, and then the 
third appeal goes to the chief ALJ at the region level. They 
are all three denied. And management knows this because our 
union can only arbitrate so many cases a year based on money, 
and if your case is not selected to be arbitrated, then you 
have no other recourse.
    Senator Heitkamp. Ms. Griffith.
    Ms. Griffith. Part of the problem, when you run into a 
problem within the agency, or at least in my experience, is 
that if you have a complaint about your supervisor, that is who 
you file the complaint with. So you do not have the ability to 
be anonymous, to talk to anybody who is not going to either 
turn around and tell her everything that you just said about 
her or him, or whoever. You do not have that protection. You 
are going to complain, you are going to complain to two people 
who are responsible for supervising you and who can in turn 
discipline you for anything they like, and they know they can 
get away with it.
    Senator Heitkamp. So if management decides you are the 
troublemaker, it is pretty easy to begin to retaliate and avoid 
dealing directly with the complaints, no matter how legitimate. 
And the other thing that is striking about your discussion is 
not only is it legitimate, but it was office gossip, but yet 
nothing got done. And, unfortunately--I would like to think 
that this does not happen in cases of people trying to do the 
right thing in other agencies, but I think it probably does, 
and it takes enormous courage to do what you have done. It 
takes enormous courage to stand up. And I just want to tell 
you, all four of you, how much I applaud what you have done, I 
know it is hard to risk a family, but you guys did it, and you 
are really great Americans. Thank you.
    Chairman Carper. Senator Heitkamp, thank you very much for 
that.
    Senator Baldwin, and then followed by Senator McCaskill.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman and Ranking Member 
Coburn, for holding this very revealing hearing. I also want to 
thank Subcommittee Chairman Levin and Ranking Member McCain for 
all the work that went into this investigation. It is 
incredibly revealing. And I look at the responsibility of this 
Committee and think at the very specific level of the 
investigation before us our responsibility is to do whatever we 
can to make sure that people who would abuse this program for 
their own personal profit or benefit are prosecuted to the 
fullest extent of the law; and, further, a responsibility to 
recognize the importance and the courage of these witnesses who 
have done the right thing and stepped forward and been very 
courageous, but others who might be similarly situated to know 
that we have their interests in mind and that there will be 
protections for those who do the right thing and speak up.
    And we also as a full Committee have larger 
responsibilities for the integrity of the program that we are 
talking about in the Social Security Administration, that the 
right reforms and oversight need to be in place to prevent 
these sort of abuses. And I take all of those responsibilities 
very seriously. I know that my colleagues on this Committee do.
    I do want to state for the record that I have certainly 
some initial hesitance to extrapolate beyond the case at hand 
based on the investigative report before us, and I think we 
need to dig further and figure out how widespread this is. And 
I do have a couple of questions in that regard, but I just 
wanted to start very specifically with the case before us, with 
Ms. Slone and Ms. Martin.
    My understanding is that Judge Daugherty would contact your 
office roughly once a month to provide the names of 30 to 50 
Social Security disability claimants that were represented by 
Mr. Conn. Is that correct? And how did that communication 
occur?
    Ms. Slone. Yes, ma'am. He would usually call around the 
first of the month. Our deadline to get him all the information 
that he requested was by the 15th of every month. He would 
place a call to our office. I was usually the one who spoke 
with Judge Daugherty. He would give me the names of the 
individuals, the first five numbers of their Social Security 
number, and whether he wanted a mental or physical RFC 
evaluation performed on the clients. Then that would be handed 
off to another employee that would schedule the appointments 
for the evaluations.
    Senator Baldwin. And RFC are the residual functional 
capacity.
    Ms. Slone. Yes, ma'am.
    Senator Baldwin. OK. Did any other judges, administrative 
law judges, aside from Judge Daugherty call into the office or 
communicate to the office like this that you are aware of?
    Ms. Slone. No, ma'am.
    Senator Baldwin. OK. When Chairman Carper was asking his 
initial questions of the panel, Ms. Carver, you talked a little 
bit about how you first became aware of this and talked about a 
mass collusion. And part of what you were describing was sort 
of what became apparent when you looked at this ALJ's docket, 
if that is the right word, and the outcomes of those cases 
versus others. Can you just sort of walk me through what stood 
out when you looked at those reports and those comparisons?
    Ms. Carver. Depending on which report you would pull up, 
you could get the monthly dispositions of each judge, and you 
could see that Judge Daugherty would do the work of three 
judges as opposed to one judge. You could also look at the 
amount of favorable decisions that he had versus the amount of 
other judges. I mean, all judges pretty much vary in their 
allowance rate, but his decisions, on one report you could see 
that they would go all the way down, and all you would see was 
favorable, favorable, favorable, favorable. So not only were 
you able to look at the number, the amount he did each month, 
but you could look at the representative and you could also 
look at the decisions.
    Senator Baldwin. When you use the term ``allowance rate,'' 
is that the percentage of favorable decisions?
    Ms. Carver. Yes.
    Senator Baldwin. And just without the documents or reports 
in front of you, can you give us some idea of how much Judge 
Daugherty stood out from the rest of the ALJs in terms of the 
allowance rates?
    Ms. Carver. In a monetary--I mean in a percentage or----
    Senator Baldwin. Percentage, yes. I mean, I guess what I 
would say is I am aware of some of the rates reported at a 
national scale by the Social Security Administration for 
favorable determinations of ALJ judges, 13 percent I have 
heard. I do not know if that was typical of any of the other 
ALJs, but how much did these stand out?
    Senator Coburn. Senator Baldwin, if I might interrupt you, 
I would ask unanimous consent to enter into the record the 
caseload of Judge Daugherty from 2006 to 2011. His average was 
99.7 percent.
    Senator Baldwin. And just so comparatively, can you give me 
any sense of the average of other ALJs in the Huntington 
office?
    Ms. Carver. Well, it would depend on each ALJ. I mean, 
usually on average, I would say probably, in my opinion, about 
60 percent, 60 to 70 percent were favorable. But with Judge 
Daugherty and Eric Conn, what I had seen was 100 percent. He 
did not even have hearings at a point for several years with 
him. And if you look at that statistic alone, what is the 
likelihood that every claimant that walks in your office is 
disabled?
    Senator Baldwin. Right. Thank you.
    Chairman Carper. Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman.
    I, too, want to thank the witnesses for being here. I have 
a feeling it will not be the last time that you will be 
testifying somewhere. Clearly this report, it gets my heart 
beating a little faster, as a former prosecutor, because I 
guarantee you, you put some good--we have had some good 
investigators on it that work for this Committee, but you put 
some good prosecutors on these set of facts, and I think you 
are going to find something more than the pressure to move a 
docket quickly.
    I do not have a lot of questions for you all. I think you 
have gone over it very well. I would ask you, those of you that 
worked in the Supplemental Security Income (SSI) offices for 
the Social Security Administration, didn't the other lawyers 
know the fix was in for Conn? Didn't the other lawyers 
representing people with disabilities know this?
    Ms. Griffith. I received numerous phone calls from other 
attorneys in the area while I was there, more toward the end of 
my time in 2007 than any other, that had complained that they 
were losing their clients to Mr. Conn's office because Mr. 
Conn's office was making the claim that they could get their 
case granted----
    Senator McCaskill. And they could.
    Ms. Griffith [continuing]. Within 30 days.
    Senator McCaskill. A hundred percent.
    Ms. Carver. And in response to that, that is why Judge 
Daugherty stopped having Eric Conn hearings because of the 
numerous complaints. That way he could have hearings for other 
representatives and move more room in his hearing schedule for 
other representatives.
    Senator McCaskill. For other lawyers representing clients.
    Ms. Carver. Yes.
    Senator McCaskill. Let me ask you this: I mean, this is a 
small community, the lawyers that do these cases, and make it 
an even smaller community because this is not a major 
metropolitan area. So everybody knew each other. All the judges 
knew each other. All the ALJs knew each other. All the lawyers 
knew each other. How many bar complaints were there about Eric 
Conn, if you know?
    Ms. Griffith. To my knowledge, none.
    Senator McCaskill. And what about judicial complaints about 
the ALJ?
    Ms. Griffith. To my knowledge, none.
    Senator McCaskill. Well, that is depressing.
    First of all, did you have the staff--if this pressure to 
move cases accurately, which I think originally there was a 
desire that these cases not languish and that the cases be 
moved through the system as quickly as possible but with 
accuracy. Did you all have sufficient staff to do that?
    Ms. Griffith. Not at the time that this occurred. The staff 
in that office has increased considerably since I left.
    Senator McCaskill. So initially this--and it reminds me a 
little bit of background checks. We say we want the government 
to be smaller and have fewer employees, but then we have 
crucial functions where we do not have enough people to do the 
work, and that is the environment that this kind of nonsense 
occurs in, whether it is people pretending they are doing 
background checks when they are not, or judges pretend like 
they are making a decision on the merits when it is a pro forma 
decision.
    Let me also say, before I turn it back to the Chairman, 
because I am anxious to have some questions for the other 
panels, I am assuming that you saw meritorious complaints, all 
of you, for disability.
    Ms. Griffith. Yes.
    Ms. Carver. Yes.
    Senator McCaskill. And I am sure you saw lawyers that were 
honest that were handling those clients.
    Ms. Griffith. Yes.
    Ms. Carver. Yes.
    Senator McCaskill. And I want to say that because, knowing 
lawyers that do this kind of work, and knowing people who have 
disabilities that receive a disability check that deserve it, I 
want to be careful that we get that on the record. I thought 
that Senator Coburn did a great job on television last night 
talking about the damage this does to the many honest, hard-
working, meritorious claims and honest, hard-working ALJs, and 
honest, hard-working lawyers that are participating in this 
system across the country. Clearly this is outrageous, and we 
have to get to the bottom of it. And if the facts lead where 
they appear to look like they lead, somebody should be 
prosecuted for it.
    But I did want to point out that there are lots of honest 
people representing lots of people that are in desperate need 
in front of good ALJs that are doing their best with the 
resources they have.
    Ms. Griffith. Yes, there are.
    Senator McCaskill. Does anybody disagree with that?
    Ms. Griffith. No.
    Ms. Carver. No.
    Senator McCaskill. Finally, for you, since you knew where 
Eric Conn was all the time, was there a lot of socializing with 
other lawyers and other judges on his schedule?
    Ms. Slone. No. Usually the only time he socialized that I 
knew of with judges was at the hearing office when he had 
hearings before them.
    Senator McCaskill. OK. Thank you, Mr. Chairman.
    Chairman Carper. Before I yield back to Dr. Coburn--I know 
he has more questions--let me ask a couple of my own.
    What advice would you have to others, whether they happen 
to work in the Social Security Administration or some other 
part of our government, who see things that are wrong and are 
inclined to say something about it? I ride the train a lot, and 
we have a saying on the train: If you see something, say 
something. And we sort of adopted that throughout our Homeland 
Security operation. But what advice would you have to others 
who see things that ought not to be happening and that might be 
helpful to them, maybe encouraging to them?
    Ms. Carver. As you see these occurrences happening, I feel 
the most important thing to do is to document them, because 
without the documentation that we used, we would not have been 
able to prove it. And the administration, I feel, believes that 
we somehow may have gotten our information from--some other 
way, because they have since installed--I believe it is like 
six doors at $6,000 or $7,000 apiece that are soundproof doors 
in our office and soundproofed their offices, management has, 
and now locks their offices every time they leave, even if it 
is to a copier.
    So it is not a matter of us stealing information off of a 
supervisor's desk. It is just a matter of reporting it and then 
following up with a simple e-mail saying this is what we 
discussed, I discussed this problem with you, I look forward to 
you resolving it in the near future. And that is what we did.
    Chairman Carper. OK. Ms. Griffith, what advice would you 
have to others who might see things that are untoward or wrong 
and might be inclined to speak up, or may be reluctant, may be 
fearful?
    Ms. Griffith. I agree with Sarah that we would not be where 
we are today had we not kept accurate accounts of things that 
went on and records. But I think that the best advice I could 
give to anybody is not to back down and not to be afraid to say 
something.
    Chairman Carper. All right. Ms. Slone.
    Ms. Slone. I agree with Ms. Carver and Ms. Griffith. The 
documentation is the most important thing.
    Chairman Carper. All right. Thank you.
    Ms. Hicks, I called you ``Ms. Martin.'' I apologize.
    Ms. (Martin) Hicks. Either is fine, and I agree with all of 
them.
    Chairman Carper. OK. What advice do you have for us? This 
is a Committee that is called ``Homeland Security and 
Governmental Affairs.'' It used to be just ``Governmental 
Affairs.'' It historically has broad oversight responsibilities 
for the whole Federal Government or much of the Federal 
Government. What we have done here, under the leadership of Dr. 
Coburn and Senator Levin, is exercise our responsibilities 
under the governmental affairs piece of our Committee.
    What advice would you have for us? What advice would you 
have for us given what you have been through and what you have 
learned and that we might be more constructive in the work that 
we do and more supportive, frankly, of people like you who see 
things that ought not to be happening?
    Ms. Carver. I feel that there should be some type of a 
system of accountability within each administration. I feel 
that for the most part managers, supervisors, ALJs, those 
higher up in the agency are promoted, allowed to retire, are 
given monetary awards that we as employees, we do not get. We 
are held to the same standard of conduct, but we do not get 
the--we would be fired, terminated, disciplined. I have never 
known of, up until this investigation, anybody, any judge, any 
manager that has been disciplined--they have been removed and 
promoted or a position created for them, but never held 
accountable for their actions.
    Chairman Carper. All right. Thank you.
    Again, Ms. Griffith, advice for us, please?
    Ms. Griffith. I think it is important to do what you have 
already started to do, to take a very hard look at what is 
going on with Social Security, because it is not just about one 
judge and one attorney when you look at it, because it is not 
just occurring there. It is occurring everywhere. It is 
something that needs to have more safeguards put in place to 
prevent this from happening anywhere else, because look at what 
it has cost. Just look at what one judge and one attorney have 
cost the American taxpayers. It needs to be strengthened, and 
there needs to be more safeguards in place to protect not only 
the employees but to protect the American taxpayers from having 
this benefit system hijacked.
    Chairman Carper. Ms. Slone, Ms. Hicks, any advice for us?
    Ms. (Martin) Hicks. I think maybe trying to make changes in 
the ways that the lawyers and judges actually communicate 
together and spending time together and allowing them to 
develop a personal relationship. I think that a change there 
would probably help.
    Chairman Carper. OK. Thank you. I would say, before I turn 
it over to Dr. Coburn for his remaining questions, one of the 
things we have sought to do in other parts of our oversight is 
to look at programs like Medicare and Medicaid and to see where 
technology can be used to put a spotlight on behavior that is 
questionable, untoward, where you have doctors maybe 
prescribing large amounts of controlled substances to a lot of 
people, in some cases to the same person over and over and over 
again, different pharmacies and that kind of thing. There is a 
pattern of behavior that we are able to detect using 
technology. Credit card companies have been doing this for some 
time. If I end up charging things in Nepal on my credit card 
and I have never been to Nepal, that just pops up, and for the 
credit card company, they say, well, something is going on 
here, and for them to give me a call, and say, ``What are you 
doing in Nepal? '' And I am not really there. But technology 
can be our friend here. And to the extent that we use it, we 
can put people like you less likely in harm's way or less 
likely in a position of having to face the prospect of losing 
your job and your standing in the community. Technology does 
not solve all of our problems, but it can really help.
    Do you all have any comment on that? Then I will yield to 
Dr. Coburn.
    Ms. Carver. I feel though somebody outside of the agency 
needs to know how to read that technology. I mean, we have the 
availability to see those reports. That was published in that 
Oregonian article as far as the favorable rates, and anybody 
could look at this information, but we need somebody on the 
outside that knows how to look at the information and know what 
is going on, what the procedures are within the agency to be 
able to recognize, hey, this is a red flag here.
    Chairman Carper. All right. Thank you. Dr. Coburn.
    Senator Coburn. Thank you. I am going to go through this 
fairly quickly because there are some things I want to get on 
the record.
    Sarah, if you would look at Exhibit 22\1\  and 28,\2\ I am 
going to ask you some questions about that. And then I am going 
to turn to you, Ms. Slone.
---------------------------------------------------------------------------
    \1\ See Exhibit No. 22, which appears in the Appendix on page 725.
    \2\ See Exhibit No. 28, which appears in the Appendix on page 732.
---------------------------------------------------------------------------
    This is an e-mail you sent to Mr. Hall on January 25, 2007. 
It was one of the times you alerted him that Judge Daugherty 
was assigning himself cases represented by Mr. Conn, and you 
wrote the following: ``As you are aware, DBD has on his own 
initiative elected to go in and assign himself several 
electronic cases, all of which are Eric Conn cases.''
    How did you know that Judge Daugherty was assigning himself 
cases? It is just your e-mail.
    Ms. Carver. OK. Jennifer had came to me as the union 
representative and had discussed this situation, because he was 
one of the first judges that was trained on the electronic 
file. However, the electronic files, we had cases from other 
attorney representatives, but he was selecting only those.
    Senator Coburn. Is this the first time you noticed that he 
was doing this?
    Ms. Carver. This is probably around the first time that 
Jennifer, yes, had come to me over it. Now, she may have, 
verbally or written, told him, but this is the first time I 
believe I made him aware of that.
    Senator Coburn. Were you aware of any time that Judge 
Daugherty ever assigned himself cases represented by another 
lawyer?
    Ms. Carver. No.
    Senator Coburn. All right. You said in your e-mail that the 
agency could take certain steps to put a stop to Eric Conn 
calling DBD and giving him a list of electronic cases. Why do 
you think Mr. Conn was calling Judge Daugherty to let him know 
his cases were on the way?
    Ms. Carver. Because he could intercept these cases before 
they were assigned to another administrative law judge.
    Senator Coburn. Is that the only explanation, that he would 
know what the cases were to go into the file, unless he--if he 
had no knowledge of what those cases were, how would he know 
what cases to look for? Could he search it by the lawyer's last 
name?
    Ms. Carver. No, not if they had not been receipted yet.
    Senator Coburn. So, therefore, he had to know the cases.
    Ms. Carver. He had to know the Social Security number.
    Senator Coburn. Got you. All right.
    Finally, you ended the e-mail saying, ``All of this is not 
going unnoticed. People on the floor are beginning to talk and, 
if not taken care of, this could escalate into a bigger 
problem.'' What do you mean widely known? Was everybody in the 
office talking about this?
    Ms. Carver. Yes.
    Senator Coburn. Well, I should not use the word 
``everybody.''
    Ms. Carver. I mean----
    Senator Coburn. A large number of people were aware of 
this.
    Ms. Carver. A large number of the girls who were processing 
the cases.
    Senator Coburn. Thank you.
    Now go to Exhibit 28,\1\ if you would, Sarah, please? This 
problem did not seem to go away after you raised it to 
management's attention. If you will look at Exhibit 28, it is 
an e-mail from March 29, 2010, from you to Judge William 
Gitlow, another ALJ at the Huntington office. You wrote: ``For 
your information, someone was closing this case, and it was 
originally your case, and DBD took it and did an OTR on it.''
---------------------------------------------------------------------------
    \1\ See Exhibit No. 28, which appears in the Appendix on page 732.
---------------------------------------------------------------------------
    Can you describe in more detail what happened and why you 
sent this e-mail?
    Ms. Carver. This was one of many e-mails that I began to 
actually send to the ALJs themselves in hopes that the ALJs 
would start complaining to Charlie Andrus.
    Senator Coburn. And an on-the-record determination can only 
be made positively. If it is a denial, it has to have a 
hearing. Is that correct?
    Ms. Carver. Correct.
    Senator Coburn. This e-mail was sent 2\1/2\ years after the 
2000 e-mail from Jennifer Griffith, which we had discussed. Did 
you see Judge Daugherty assign himself other judges' cases 
after management was made aware of the problem in 2007?
    Ms. Carver. Yes.
    Senator Coburn. Was there ever any followup to your e-mail, 
either from Judge Gitlow or from management?
    Ms. Carver. Yes. I had talked with Judge Gitlow on several 
occasions. He----
    Senator Coburn. And?
    Ms. Carver. He said that he had e-mailed Chief ALJ Andrus 
on several occasions and even had told Judge Andrus that if he 
did not take care of the problem that he was going to take it 
outside of the office.
    Senator Coburn. All right. Thank you.
    Ms. Slone, you actually worked for Mr. Conn for a long 
period of time. That is correct?
    Ms. Slone. Yes, sir.
    Senator Coburn. Can you describe, what did you actually do 
for him? I mean, were you his Miss Everything?
    Ms. Slone. I started out as a claims taker. I worked 
several positions within the office. When I left, I was doing 
managerial duties.
    Senator Coburn. Were you his most senior employee?
    Ms. Slone. Yes.
    Senator Coburn. In terms of responsibility?
    Ms. Slone. Yes.
    Senator Coburn. All right. For the time that you worked in 
Mr. Conn's office, how important would you say Judge Daugherty 
was to the success of the law firm?
    Ms. Slone. Very successful.
    Senator Coburn. OK.
    Ms. Slone. Very important.
    Senator Coburn. When did you first grow concerned about the 
relationship between Mr. Conn and Judge Daugherty?
    Ms. Slone. When I first moved to the hearing department and 
noticed that Judge Daugherty was the only one that we did not 
hold hearings for, I remember asking, why it was different for 
him. We were just told that this is what he preferred to do.
    Senator Coburn. OK. Can you tell us what a DB list was and 
how it was used?
    Ms. Slone. The DB list was a list of claimants that DB 
would call once a month----
    Senator Coburn. DB being Judge Daugherty.
    Ms. Slone. Judge Daugherty would call once a month and give 
us a list of claimants that he wanted us to send for an 
evaluation and send to him for an on-the-record decision.
    Senator Coburn. OK. And how were these lists created?
    Ms. Slone. I would create the list when Judge Daugherty 
would call and give me the information.
    Senator Coburn. All right. Would you look at Exhibit 18\1\? 
At the top of the first document it says, ``DB September 
2009.'' Another one on the stack says, ``DB June quarters due 
on 6/16/06.'' Can you describe to us what all that means?
---------------------------------------------------------------------------
    \1\ See Exhibit No. 18, which appears in the Appendix on page 479.
---------------------------------------------------------------------------
    Ms. Slone. You have the claimant's name, their Social 
Security number; ``physical'' would mean which kind of report 
that Judge Daugherty requested. AOD is amended onset date. 
Judge Daugherty would request either if there was a prior 
decision or if there was an age due to the grid rules, if they 
had turned 50, he would require----
    Senator Coburn. So he would back date it to the age grid or 
he would back date it to the last denial?
    Ms. Slone. Yes, sir.
    Senator Coburn. All right. Some list the word ``mental'' 
next to the claimant's name and some say ``physical.'' Why did 
sometimes it say either?
    Ms. Slone. He would leave that at the discretion of Eric, 
which report he would----
    Senator Coburn. Submit?
    Ms. Slone. Yes.
    Senator Coburn. All right. A lot of the claimants have what 
are called amended onset dates. Why would Judge Daugherty do 
that? I think we covered that.
    Ms. Slone. Yes, sir.
    Senator Coburn. Jamie, Exhibit 18, there is a huge stack of 
DB lists dated from 2006 to 2010. When did they start first 
using DB lists?
    Ms. Slone. I do not know when they started using them. When 
I moved to the hearing department, they were already in place, 
so I do not know when they began.
    Senator Coburn. So that was prior to 2006.
    Ms. Slone. No. I did not move to the hearing department 
until maybe late 2008.
    Senator Coburn. OK. But they were there then?
    Ms. Slone. Yes.
    Senator Coburn. All right. How often did Judge Daugherty 
call your office with a list of clients?
    Ms. Slone. Once a month.
    Senator Coburn. All right. Who would Mr. Conn send his 
clients to once Judge Daugherty called to say mental or 
physical?
    Ms. Slone. If it was a physical, it was primarily Dr. 
Frederic Huffnagle until his death. If it was mental, it was 
Dr. Brad Adkins.
    Senator Coburn. OK. And what would they get in return?
    Ms. Slone. Dr. Huffnagle was $400 per evaluation, and Dr. 
Brad Adkins--I am not exactly sure. He was in the $300 range.
    Senator Coburn. And they would give a finding as to what 
Mr. Conn wanted?
    Ms. Slone. Yes, sir.
    Senator Coburn. Would the doctors fill out the RFCs 
themselves or would someone else do that?
    Ms. Slone. Someone else did it.
    Senator Coburn. Did you ever have occupational therapists 
in your office to determine these forms?
    Ms. Slone. Not to my knowledge.
    Senator Coburn. All right. Where did Mr. Conn find doctors 
that he knew would give him the medical answers that he wanted?
    Ms. Slone. Dr. Huffnagle had already been there performing 
evaluations for several years prior to my employment. The same 
with Dr. Brad Adkins. When Dr. Huffnagle did pass away, he 
looked for some other doctors to fill his shoes, and he would 
look for doctors that had had prior sanctions and problems. He 
said that it was easier to hire them.
    Senator Coburn. All right. Ms. Hicks, what did you do for 
Mr. Conn? And how long did you work there?
    Ms. (Martin) Hicks. I was with the law firm for 6 years. I 
did a number of different things as well. I actually filed 
claims with the Social Security office. I assisted in managing 
the office at one point. I have even been the receptionist. 
Actually, for about a year and a half or 2 years, I mostly went 
to hearings with Eric.
    Senator Coburn. OK. Where would Mr. Conn's clients go when 
they needed to be seen by a doctor?
    Ms. (Martin) Hicks. Eric had a medical wing, but he only 
had that maybe the last year or 2 years that I was there. 
Mostly they were seen there. Dr. Ammisetty's office was 
actually within walking distance from Eric Conn's office, so 
the clients would go to his office. And for Brad Adkins, I 
think they mostly saw him at his own office as well.
    Senator Coburn. Could you describe to me a typical day when 
Dr. Huffnagle was seeing patients in Eric Conn's office, the 
number of patients, the amount of time spent with the patient? 
You can generalize if not specific.
    Ms. (Martin) Hicks. OK. When Dr. Huffnagle was in the 
office, he probably saw anywhere from 15 to 25 clients. He did 
not spend a lot of time with them at all. His wife actually saw 
them first. I am not exactly sure what she did. But he only saw 
them for maybe 20 minutes at the most, sometimes less than 
that.
    Senator Coburn. Was there ever a time Dr. Huffnagle did not 
sign the pre-filled-out RFC form?
    Ms. (Martin) Hicks. Not that I am aware of.
    Senator Coburn. Was there ever a time that you were aware 
that he requested a change in an RFC form?
    Ms. (Martin) Hicks. Not that I am aware of.
    Senator Coburn. SSA rules prohibit claimant lawyers from 
charging their clients for doctor visits when additional 
evidence is requested. Where would Mr. Conn get the money to 
pay for these exams?
    Ms. (Martin) Hicks. I am not sure where the money came 
from. He wrote checks to each of the doctors. I assume that 
that was from the office account.
    Senator Coburn. Would he require all clients to sign a 
contract on camera promising to pay for the additional medical 
costs themselves?
    Ms. (Martin) Hicks. They all signed a contract. For a while 
it was on camera, but that did not last very long. There were 
so many that came in, it was too hard and cost him too much 
money to keep tapes for that camera.
    Senator Coburn. Jamie, I want to go back to Dr. Huffnagle. 
When he was finished examining someone, later you would get a 
brief report and then sign a form called the ``Residual 
Functional Capacity.'' These forms would then be sent to Judge 
Daugherty to approve the cases. Please look at Exhibit 45.\1\ 
Can you explain how Mr. Conn used this form and others like it?
---------------------------------------------------------------------------
    \1\ See Exhibit No. 45, which appears in the Appendix on page 774.
---------------------------------------------------------------------------
    Ms. Slone. For the physical medical assessment form, during 
the time that I dealt with these, there were 10 different ones. 
They were just labeled RFC numbers 1 through 10. These would be 
printed out. If we had 50 claimants that came in to see Dr. 
Huffnagle in the course of 2 days, then 50 of these would be 
printed out, and someone would just handwrite the name of the 
individual and their Social Security number at the top attached 
to the medical report, and both would be signed at the same 
time by Dr. Huffnagle.
    Senator Coburn. And these were pre-filled-out forms, 
correct?
    Ms. Slone. Yes, sir. The only thing that was blank was the 
name and Social Security number.
    Senator Coburn. I would note for the record, of all the 
forms that Mr. Conn had prepared, every one of them, every one 
of the forms said ``Demonstrated reliability: Poor.'' Every 
form. So that means nobody came through Mr. Conn's office and 
his RFCs, nobody was better than poor at demonstrating 
reliability. That will be important later.
    How was it decided which RFC form would go with which 
client?
    Ms. Slone. There was no form or fashion. It was just 
random----
    Senator Coburn. It was just random----
    Ms. Slone. Random assignment, yes, sir.
    Senator Coburn. OK. Did Dr. Huffnagle ever review any of 
the RFC forms to ensure that they matched the claimant's 
limitations?
    Ms. Slone. Not that I am aware of.
    Senator Coburn. Did Dr. Huffnagle ever ask for an RFC to be 
changed?
    Ms. Slone. Not that I am aware of.
    Senator Coburn. Would other ALJs call Mr. Conn's office and 
give lists of claimants they planned to approve on the record 
like this?
    Ms. Slone. No, sir.
    Senator Coburn. Why do you think Judge Daugherty would do 
this? What do you think was going on? And I am not asking you 
to speculate. What should common sense tell you?
    Ms. Slone. Common sense always told us and, talk of the 
office was that he was paid to do so.
    Senator Coburn. All right. I would ask unanimous consent to 
enter into the record the list of RFC forms and note that they 
all show ``Poor'' on ``Demonstrated reliability.''
    Chairman Carper. Without objection.
    Senator Coburn. Ms. Hicks, I have one other set of 
questions for you. In May 2011, some of the details about the 
arrangement with Mr. Conn and Judge Daugherty became public in 
an article, which you before related to. What was the reaction 
inside the Conn law office at that time?
    Ms. (Martin) Hicks. Chaos.
    Senator Coburn. Chaos.
    Ms. (Martin) Hicks. Absolute chaos.
    Senator Coburn. Describe that.
    Ms. (Martin) Hicks. Everyone was in a panic. There was not 
a lot of work done at all. I remember actually the day that 
Damian Paletta came to visit our office, no one spoke to him, 
and he left and went to the Subway next door, and we had 
employees there, and Eric Conn actually told me to go get them, 
that they all had to come out of the Subway. He did not want 
anybody around him or anything.
    Eric actually at the time had to get himself prescribed 
medication, and one of the doctors gave that to him, so he 
laughed and joked that when the OIG came to our office to ask 
him questions that he was high on the pills he was prescribed. 
That is the only way he was able to speak to him.
    Senator Coburn. All right. Please look, if you would, Ms. 
Hicks, at Exhibit 75.\1\ This is a receipt from Family Dollar 
for a throwaway cell phone. Can you explain why Mr. Conn would 
use these phones?
---------------------------------------------------------------------------
    \1\ See Exhibit No. 75, which appears in the Appendix on page 1266.
---------------------------------------------------------------------------
    Ms. (Martin) Hicks. After the article came out in the Wall 
Street Journal, he actually purchased a lot of these. He was 
afraid for Judge Daugherty to call the office because he said 
if the phones were tapped or if anyone ever looked at the phone 
records, they would see that they were still communicating. So 
he purchased a lot of these. And the reason for that was the 
first time they had purchased cell phones, Judge Daugherty 
forgot to use his TracFone and called Eric--I do not remember 
if it was from his home number or from the Social Security 
office, but he had called the TracFone without using his 
TracFone, so they had to throw them away and get new ones.
    Senator Coburn. All right. Ms. Slone, one of the most 
troubling findings of our investigation is Mr. Conn destroyed a 
huge volume of documents related to his disability practice 
once his relationship with Judge Daugherty became public. Can 
you describe what you saw in regard to what happened in those 
events?
    Ms. Slone. Most of the documents that I knew that were 
destroyed came after his mother left the office. We went 
through and there was a lot of changes, of course, made in the 
office, there were several files that were kept in what we 
called the ``closed building.'' They were closed files. Those 
were, depending on their age, gotten rid of. A lot of documents 
that were in his mother's office, he went through those himself 
and decided what needed to be destroyed.
    Senator Coburn. Was this after the Inspector General's 
visit?
    Ms. Slone. Yes, sir.
    Senator Coburn. So all this occurred after the Inspector 
General's visit?
    Ms. Slone. Yes, sir.
    Senator Coburn. All right. What was unusual this time about 
what had happened in the past with normal document destruction?
    Ms. Slone. To my knowledge, I do not remember us having, 
ever having a document destruction of this size.
    Senator Coburn. All right. Why do you think he wanted to 
destroy the DB lists?
    Ms. Slone. I guess just not to have anything that had 
anything to do with DB on it.
    Senator Coburn. Was there conversation specifically about 
making sure the DB lists were destroyed?
    Ms. Slone. Yes, sir. He told us to check our offices, 
especially the ones in the hearing department, and make sure 
that we did not have any DB lists or any documents that had 
DB's name on it.
    Senator Coburn. What did he do with the electronic files?
    Ms. Slone. The electronic files--I am sorry. Do you mean 
like the SSA electronic files or----
    Senator Coburn. No. The electronic files, the computer 
files at your office.
    Ms. Slone. Oh. We had replaced several computers in our 
office with new ones, and he would have employees remove the 
hard drive from the computers and destroy them. What they would 
do is smash them with a hammer and then later burn those.
    Senator Coburn. Did Mr. Conn ever make any statement to you 
about why he was destroying all of his documents?
    Ms. Slone. Just that he wanted--he called it ``spring 
cleaning,'' that he just did not want to have any documents in 
the office pertaining to DB.
    Senator Coburn. To Judge Daugherty.
    Ms. Slone. To Judge Daugherty.
    Senator Coburn. All right. Thank you, Mr. Chairman. Thank 
you all very much.
    Chairman Carper. Thank you, Dr. Coburn. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    I just have one additional question here. Ms. Slone and Ms. 
Hicks, did either or both of you watch as Mr. Conn looked for 
doctors with disciplinary problems?
    Ms. Slone. Yes.
    Ms. (Martin) Hicks. Yes.
    Senator Levin. Both of you.
    Ms. Slone. Yes.
    Ms. (Martin) Hicks. Yes.
    Senator Levin. What did you--you say you watched. Where was 
he looking?
    Ms. Slone. In his office. He was looking on the computer at 
the Kentucky Board of Licensure, and he would look for doctors 
that had had sanctions or problems with their license in the 
past, and he would print out their information. I know that I 
had made several phone calls to doctors to ask if they would be 
interested in doing evaluations for him.
    Senator Levin. Ms. Hicks, is this true? You also saw that?
    Ms. (Martin) Hicks. Yes.
    Senator Levin. And the reason is that, as I think you 
testified to, it would be easier--he said it would be easier to 
work with them if they had prior sanctions?
    Ms. (Martin) Hicks. He actually had said before that--he 
referred to those as ``whore doctors.'' He said that if they 
had sanctions and had their license suspended before, that he 
could get them to do whatever he wanted, and they were cheaper 
to work with.
    Senator Levin. You heard him say that?
    Ms. (Martin) Hicks. Yes.
    Ms. Slone. Yes, sir.
    Senator Levin. I am done.
    Chairman Carper. Ladies, I think that concludes this part 
of our hearing. Do any of you want to make a brief closing 
remark, anything that you would like to say before you are 
dismissed? Please.
    Ms. Carver. No, thank you.
    Ms. Griffith. Thank you.
    Chairman Carper. All right. We thank you. We thank you very 
much.
    Ms. Griffith. We thank you for listening to us.
    Chairman Carper. We thank Dr. Coburn, Senator Levin, and 
their staffs, and particularly we thank all of you.
    Senator Levin. I think you had to get here on your own dime 
as well, didn't you?
    Chairman Carper. Well, Albert Einstein used to say in 
adversity lies opportunity. It has been true for a long time, 
and there is a lot of adversity here. There has been a lot of 
adversity in Huntington, West Virginia, and I bet there is some 
opportunity here. And the opportunity is to learn from this 
experience and to make sure it is not happening in other places 
around the country where they are trying to make these 
difficult Social Security disability determinations, and so we 
can better ensure that we are not wasting money, throwing money 
away, at a time when we are running out of money in the trust 
fund. And so my hope is, my prayer is that something good is 
going to happen from what have been a tough couple of years.
    And with that having been said, before I excuse you and 
bring forth our second panel, we are going to start voting. We 
have at least one vote at 5 or 5:30pm for the full Senate. Dr. 
Coburn is going to hustle over there and vote and then come 
back, relieve me, I will go back and vote, and we will all 
return shortly after that. That way we will not have to slow 
things down further. Dr. Coburn.
    Senator Coburn. I just had one additional question.
    Chairman Carper. Please, go ahead.
    Senator Coburn. We are going to have a doctor in the next 
panel that both made recommendations for Social Security and 
recommendations for Mr. Conn. Was it ever noticed in the Social 
Security office, the disparity of those two sets of 
recommendations, one by a paid attorney and one paid by the 
Social Security office, and that they said opposite things?
    Ms. Carver. Yes.
    Ms. Griffith. Yes.
    Senator Coburn. Thank you.
    Chairman Carper. That is the last question. Thank you so 
much.
    Ms. Carver. Thank you.
    Chairman Carper. And as our first panel prepares to leave, 
I will ask our second panel to approach the table. I will make 
a brief introduction of our witnesses on the second panel, and 
I will ask them to take an oath and be sworn in to testify.
    Gentlemen, thank you for joining us this afternoon. I will 
briefly introduce this panel of three witnesses, and we will 
begin with David P. Herr, a doctor from West Union, Ohio.
    Next we have Dr. A. Bradley Adkins, a psychologist from 
Pikesville, Kentucky.
    And, finally, Dr. Srinivas Ammisetty, a pulmonary disease 
specialist, who comes to us today from Stanville, Kentucky. Is 
that correct?
    Dr. Ammisetty. Yes, sir.
    Chairman Carper. All right. Thank you. As you may know, our 
standard practice in investigative hearings is to ask that our 
witnesses be sworn in. So at this time, I am going to ask each 
of you, if you would, to please stand and raise your right 
hand. Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Dr. Herr. Yes.
    Mr. Adkins. Yes.
    Dr. Ammisetty. Yes, sir.
    Chairman Carper. Please be seated.
    Dr. Herr, do you have any opening remarks, sir?

       TESTIMONY OF DAVID P. HERR, D.O., WEST UNION, OHIO

    Dr. Herr. No, sir, I do not.
    Chairman Carper. All right. Dr. Herr, do you have any 
corrections to the statement of facts laid out in Dr. Coburn's 
opening statement or to the facts included in the staff report 
released by the Committee today?
    Dr. Herr. Mr. Carper, based upon recommendation of counsel, 
I respectfully decline to answer based upon my Fifth Amendment 
rights.
    Chairman Carper. All right. We have other questions. Is it 
your intention to assert your Fifth Amendment right to any 
question that might be directed to you by the Committee today?
    Dr. Herr. Yes, sir, it is.
    Chairman Carper. All right. Given the fact that you intend 
to assert a Fifth Amendment right against self-incrimination to 
all questions asked of you today by this Committee, you are 
excused.
    Dr. Herr. Thank you.
    Chairman Carper. Dr. Adkins, you are recognized for your 
statement. Welcome.

   TESTIMONY OF ALFRED BRADLEY ADKINS,\1\ PH.D., PIKEVILLE, 
                            KENTUCKY

    Mr. Adkins. Thank you very much. Ladies and gentlemen, my 
statement will be relatively short.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Adkins appears in the Appendix on 
page 115.
---------------------------------------------------------------------------
    I am here today to tell the truth. I have nothing to hide. 
If the ladies and gentlemen on the Committee have read my 
testimony, I do understand that it seems like the biggest 
question regarding my performance or my relationship with Mr. 
Eric Conn was the RFCs in question. When asked, I would be more 
than happy to illuminate or talk about that.
    But the biggest thing you asked if I had any reaction to 
anything that had been said, particularly by Mr. Coburn. I 
would take exception to being painted with the broad brush of 
being someone who was recruited by Mr. Eric Conn. The fact of 
the matter is I have no storied or no checkered past 
professionally. There have been no sanctions against me, 
nothing of that kind. And also, I was not recruited by Mr. 
Conn. Actually, several years before the RFC incidents in 
question came about, I went to Mr. Conn. At that time I was 
very young in my practice. I was trying to build a practice. At 
that time I actually went to Mr. Conn and several other 
attorneys in the area and became a vendor for the State of 
Kentucky Department of Disability Determinations.
    So the fact of the matter is that I was not recruited. I 
was trying to build a practice and looking for potential 
referral bases.
    Thank you.
    Chairman Carper. You may continue if you have some other 
things you would like to say, and then we will hear from Dr. 
Ammisetty, and then ask questions of both of you. But you are 
welcome to continue.
    Mr. Adkins. No, sir. I believe that is all I have to say at 
this time. Thank you, though.
    Chairman Carper. All right. Dr. Ammisetty.

    TESTIMONY OF SRINIVAS M. AMMISETTY, M.D.,\2\ STANVILLE, 
                            KENTUCKY

    Dr. Ammisetty. Respectable Senators, good afternoon. I came 
from South India, and I trained in Chicago, and then I moved to 
underserved area, Stanville, Kentucky. I have five hospital 
active privileges, regional hospitals. I am the director for a 
couple of hospitals. I never had any license issues on my 
practice. I never had any medical-legal problems. I never had 
any personal legal problems. I am a physician, my practice is 
an honest practice. And I am happy with my wife. She is also a 
physician. And the place I came from, South India, ruled by the 
British for almost 250 years, is relatively flat farming land. 
Three generations of my family worked on the farms under the 
strict rule, strict law, we have grown up, three generations, 
hard work, finally we became professionals.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Ammisetty appears in the Appendix 
on page 120.
---------------------------------------------------------------------------
    Chairman Carper. No. What did you raise, what did you grow?
    Dr. Ammisetty. Rice paddy lands.
    Chairman Carper. OK.
    Dr. Ammisetty. And then almost, this is a land--strict law 
and rule, so we moved to America. I moved to America, and my 
family members also moved here. Almost 20, 25 members in my 
close family, but physicians successfully practicing in the USA 
for the last 30 to 40 years.
    In my home we have two girls that are medical students in a 
top-notch hospital in the USA. One girl is a Fulbright scholar, 
Marshall nominee, and my one son, he is the only one in Pike 
County the National Merit Scholar for this year semifinals. The 
parents' character reflects in the kids, and I do not have any 
problem. I am happy to answer any questions you have.
    The reason--I am a happy practice. I built up my practice, 
and I am part of the community. I never give any pending bills 
to collection agency all my life practice. Usually physicians 
deal with the collection agency, but I become a part of the 
community.
    Around 2005, Mr. Eric C. Conn was my patient. His mom also 
became my patient. During that time he offered me a position 
that, ``If you come to my office, I can give you heavy 
business, you do not need to practice at all.'' But I was 
building my practice, pulmonary and sleep, and so I refused.
    And then around 2010, December, he said that his one office 
physician passed away, other physician was so sick, so he asked 
me to do a comprehensive exam for his patients. And he is next 
door to me, and a good samaritan, and I accepted.
    So initially comprehensive, then I said it was a good thing 
to come to my office so when I have a look, I can have better 
understanding. So he started scheduling patients to my office, 
and I was seeing the patients around--so December 2010. And 
then around May, I was so busy, I mean, he is giving--more 
demanding, writing a letter that I need more quick response and 
more deadlines or something. I already have a busy practice, 
pure busy practice, good practice. Even though I am board 
certified in addiction medicine, very few doctors in Kentucky 
are really board certified. If I am looking for money, I can 
start pain practice because Kentucky is a hotbed for the pain 
patients. I can get with 10 minutes $400 for a patient visit. I 
can see 30 to 40 patients a day. That is common practice with 
pain medications in Pike in Kentucky. But I never practiced 
pain medication--pain practice in my life, even though I am a 
board-certified, well-qualified addiction person.
    So around that time he was more demanding. Slowly I 
started, I am weaning off, I am worried because he is a big 
attorney in the local area, find billboards around my area. So 
I'm delaying and slowly, and then at one time he asked me--his 
assistant, David Clark, can you at least do a chart review? So 
last 2 months, I did a chart review for him, and I stopped 
completely in August. In the meantime, Ms. Slone, talked about 
Subway. The same Subway, my girls go to the Subway. So the 
rumors came up, and I did not know, even though--then 2 months 
ago, next door, he was raided by the agents, because that 
reason--I was in my own practice, I just go to hospital and see 
the patients, come into the office, see the patients, and if I 
have time, go and spend my time with my kids, my wife. That is 
my life.
    So, finally, my girls brought me information--this is going 
on in the Eric C. Conn office, and then I reviewed the 
information, and then I stopped my practice with him 
completely. Once I knew, that is not good for me, I stopped 
that.
    Chairman Carper. Thank you for that testimony.
    Dr. Coburn has offered to remain. The vote is underway on 
the floor simultaneous with a business committee meeting, a 
markup of the nomination by the President for a deputy position 
at the Office of Management and Budget (OMB). We are going to 
do both of those at the same time. Dr. Coburn is going to stay 
here. He has a number of questions to ask of both of you, and I 
will be back to join you very shortly.
    Thank you. Dr. Coburn, thanks.
    Senator Coburn [presiding]. All right. Thank you. Maybe I 
can get these finished before you get back.
    Well, thank you both for being here. I appreciate you 
coming. Some very concerning things, if you listened to our 
first panel.
    Dr. Ammisetty, I have a list of questions I will go through 
with you, but my biggest--have you ever seen the American 
Medical Association (AMA) guide to evaluation for physical 
disability?
    Dr. Ammisetty. The physical?
    Senator Coburn. Have you ever seen the AMA guide for----
    Dr. Ammisetty. Yes, sir, definitely.
    Senator Coburn [continuing]. Guidelines for--did you follow 
that as you did these exams on these patients?
    Dr. Ammisetty. The RFC I did not follow, sir.
    Senator Coburn. I am sorry?
    Dr. Ammisetty. RFC I did not follow.
    Senator Coburn. But you did for the rest of it? You did a 
mental status exam on every patient?
    Dr. Ammisetty. No, sir.
    Senator Coburn. And why not?
    Dr. Ammisetty. Because it is a complete physical 
examination.
    Senator Coburn. Well, complete physical examination 
includes a mental status exam.
    Dr. Ammisetty. Mental status, I did not do anything.
    Senator Coburn. You did not do mental status exam. And it 
was your testimony and your feeling that the RFC forms were 
filled out by occupational therapists?
    Dr. Ammisetty. Yes, sir.
    Senator Coburn. And where did you learn that from? Who told 
you that?
    Dr. Ammisetty. Initially, when I started working, seeing 
the patients, I told them I am good at physical examination and 
also pulmonary evaluation, because being a pulmonologist, I do 
the pulmonary evaluation. That is one reason----
    Senator Coburn. I understand that, but my question is: Who 
told you that occupational therapists did the portion of the 
exam----
    Dr. Ammisetty. Mr. Eric C. Conn and his assistant, David 
Clark. The RFCs, we do not need to worry, we will take care of 
the patient--we will take over that----
    Senator Coburn. And he assured you that they were done by 
occupational therapists?
    Dr. Ammisetty. Yes, sir.
    Senator Coburn. That is your testimony?
    Dr. Ammisetty. Yes, sir.
    Senator Coburn. And he communicated that to you?
    Dr. Ammisetty. Yes, sir.
    Senator Coburn. All right. And so on your exams--I have no 
doubt that you are a great physician. And I did not say 
``doctor.''
    Dr. Ammisetty. Thank you.
    Senator Coburn. I said ``physician'' because that means you 
care for the whole person. And I have no doubt, your testimony, 
you were trying to do Mr. Conn a favor because he was in a 
pinch, so I do not doubt the veracity of that.
    Dr. Ammisetty. Thank you.
    Senator Coburn. And you said in your opening statement, if 
I followed it, that you really were not aware of the size and 
scope of Mr. Conn's practice when you started doing these exams 
for him?
    Dr. Ammisetty. He had a huge practice, no doubt, sir. In 
the area he is the only one, and his billboards and talk, 90 
percent of Social Security, he is Mr. Social Security.
    Senator Coburn. OK. And it is your testimony that you quit 
working for Mr. Conn in October 2011 in part because of the 
negative news coverage he was getting?
    Dr. Ammisetty. Negative news coverage, and also I have 
beautiful, good practice, and suddenly Ms. Slone or somebody 
call, ``Can you see a patient?'' And I had to hold my other 
schedule. And also he is demanding. He wrote a letter demanding 
that one. So I could not tolerate and all these things----
    Senator Coburn. You could not meet his demands. But your 
testimony to our investigators was that after the news broke 
and the investigation started that that is when you quit. But 
it actually took you 5 months after the first news story to 
stop seeing patients for Mr. Conn. Can you explain that?
    Dr. Ammisetty. That is--as I told you before, sir, I am 
busy with my practice. I go to five hospitals, and I did not 
know what is going on next door.
    Senator Coburn. OK.
    Dr. Ammisetty. Next door. That is the one reason we are----
    Senator Coburn. So you were not aware until 5 months after 
the major----
    Dr. Ammisetty. Yes, sir.
    Senator Coburn [continuing]. News story broke what was 
being insinuated but not proven.
    Dr. Ammisetty. Yes, sir.
    Senator Coburn. All right. That is all--let me see. And 
your testimony was that you saw all these patients at your 
office?
    Dr. Ammisetty. Yes, sir.
    Senator Coburn. At no time did you see a patient in Mr. 
Conn's office?
    Dr. Ammisetty. He has everything in his office, and he 
invited me to come and do everything in his office.
    Senator Coburn. But you said no?
    Dr. Ammisetty. I said no.
    Senator Coburn. All right.
    Dr. Ammisetty. Because that is my professional pride.
    Senator Coburn. All right. Let me go to the RFCs for a 
minute. If you did not perform an evaluation on the claimants' 
RFCs, who did?
    Dr. Ammisetty. From the Eric C. Conn's office, sir.
    Senator Coburn. All right. But you have heard testimony 
that nobody did those today, they were randomly filled out by 
his office staff?
    Dr. Ammisetty. That I came to know, sir.
    Senator Coburn. Yes. So why did you sign them? If you did 
not do them, you put your signature on them.
    Dr. Ammisetty. As we know, as being a physician for many 
years, we send a lot of patients for the home health care, and 
I did not go there, and the home health people evaluate and 
bring it to me, usually we sign it. That is the routine way. 
And also he said this is a part of the process.
    Senator Coburn. Were you unaware of the importance of RFCs 
in determining disability?
    Dr. Ammisetty. I did not know that much about the RFCs, 
sir. If I knew they were important, I would not sign as a 
physician for so many years.
    Senator Coburn. In hindsight, did you make a mistake 
signing those RFCs?
    Dr. Ammisetty. Definitely, sir.
    Senator Coburn. You did. And I take it from your testimony 
also that one of the reasons--and I know the relationship here. 
One of the reasons you helped Mr. Conn out was he was a former 
patient. Is that correct?
    Dr. Ammisetty. He was a former patient. Yes, sir.
    Senator Coburn. But he was not currently under your care. 
Is that correct?
    Dr. Ammisetty. No, sir.
    Senator Coburn. All right. Thank you.
    Did you ever visit the Conn law offices?
    Dr. Ammisetty. I visited a total of three times. One time 
when the great President Abraham Lincoln statue opened. Second 
time, was at Christmas and the third time, when I got the 
letter, I was worried that everybody know he is a powerful man, 
and I never had any legal problems in the country here, 
anywhere. And my mentality is do not make enemy, just wean him 
off. So I went there and that is the reason, sir.
    Senator Coburn. Dr. Ammisetty, would you look at Exhibit 
48\1\ in that book sitting next to you? Number 48.
---------------------------------------------------------------------------
    \1\ See Exhibit No. 48, which appears in the Appendix on page 1087.
---------------------------------------------------------------------------
    Dr. Ammisetty. This is up to 45?
    Senator Coburn. It should be 48. We will help you.
    Dr. Ammisetty. OK.
    Senator Coburn. It is in the next book.
    Please look at the third page of this document with the 
heading ``Physical Medical Assessment.''
    Dr. Ammisetty. Yes, sir.
    Senator Coburn. Did you fill this form out?
    Dr. Ammisetty. No, sir.
    Senator Coburn. All right. Do you know who did fill out 
this form?
    Dr. Ammisetty. His office staff, after I dictated my full 
comprehensive history, and it is taken by the office staff, and 
they brought it back to my office with this form. Then I sign 
it.
    Senator Coburn. All right. How did you know that the 
information in this physical assessment form was accurate?
    Dr. Ammisetty. I trusted them, sir.
    Senator Coburn. In other words, you did not know that it 
was accurate. You just trusted the----
    Dr. Ammisetty. I trusted them, sir.
    Senator Coburn. All right. Thank you.
    Dr. Ammisetty. Because he is an attorney, he knows the law.
    Senator Coburn. All right. That is all the questions I have 
for you. Good job.
    Dr. Ammisetty. Thank you. I really appreciate it, sir.
    Senator Coburn. Dr. Adkins, thank you for being here.
    Mr. Adkins. Thank you for inviting me, sir.
    Senator Coburn. You started working for Mr. Conn in 2005. 
Is that correct?
    Mr. Adkins. It may have been a little bit before that. I 
really do not remember the exact date that I----
    Senator Coburn. So late 2004, 2005, or was it----
    Mr. Adkins. Maybe even 2003. I am not real sure.
    Senator Coburn. All right. So possibly 2003.
    Mr. Adkins. Yes, sir.
    Senator Coburn. It is true you do work for the Social 
Security Administration as well.
    Mr. Adkins. Yes.
    Senator Coburn. All right. And how much does Social 
Security pay you for an evaluation?
    Mr. Adkins. Well----
    Senator Coburn. Give me the range.
    Mr. Adkins. Anywhere from--there is the basic evaluation. 
Basically it just consists of the clinical interview that--oh, 
gosh, when I am under the gun.
    Senator Coburn. It is OK. It is $80 to $175.
    Mr. Adkins. Yes. There you go.
    Senator Coburn. I will help you out there. And how much 
were you paid to do evaluations by Mr. Conn?
    Mr. Adkins. Well, by Mr. Conn as well as any other 
attorney, the usual fee was $350.
    Senator Coburn. All right. And how much time on average did 
you spend with the claimants for Mr. Conn versus the amount of 
time you spent for claimants with the agency?
    Mr. Adkins. If the agency requested just the basic clinical 
interview, you are looking at maybe like half an hour, 
something like that.
    Senator Coburn. OK.
    Mr. Adkins. If the agency requested the full battery--that 
would be the clinical interview plus administration of an IQ 
test--it would have been equivalent to what it would have taken 
for Mr. Conn's patients, because Mr. Conn's----
    Senator Coburn. OK. And that was how much time?
    Mr. Adkins [continuing]. Patients always got the full 
battery.
    Senator Coburn. And that was how much time?
    Mr. Adkins. An hour and 15 minutes. An hour, hour and 15 
minutes, 20 minutes. Something like that.
    Senator Coburn. All right. Did you perform a mental status 
exam on every patient that came into your office?
    Mr. Adkins. The mental status exam?
    Senator Coburn. Did you perform a mental status exam on the 
patients that were referred to you both from Social Security 
and from Mr. Conn?
    Mr. Adkins. The answer would be no because when you do the 
basic evaluation for the State of Kentucky, that included the 
mental status examination. It was the clinical interview plus 
the mental status examination. Lawyers always requested the 
full battery. Sometimes the State of Kentucky would request the 
full battery. When the full battery is administered, the 
administration of the IQ test goes above and beyond the mental 
status examination. So no.
    Senator Coburn. So you did not routinely perform a mental 
status examination on patients?
    Mr. Adkins. I did routinely if they were the----
    Senator Coburn. Full battery.
    Mr. Adkins. No, for the full battery, that was the clinical 
interview plus administration of the IQ test.
    Senator Coburn. All right.
    Mr. Adkins. The IQ test goes above and beyond the mental 
status eval, so there was no need to do the mental status 
examination.
    Senator Coburn. An IQ test demonstrates reliability or not 
reliability?
    Mr. Adkins. Repeat, please?
    Senator Coburn. Does the IQ test that you administer--I 
guess it is a Wechsler?
    Mr. Adkins. Yes.
    Senator Coburn. Does it demonstrate client or patient 
reliability?
    Mr. Adkins. Reliability. No.
    Senator Coburn. So it does not demonstrate reliability. Is 
that your testimony?
    Mr. Adkins. I am having a hard time understanding how you 
are----
    Senator Coburn. Well, you filled out all these forms that 
said every patient that you saw for Eric Conn had poor 
reliability. I mean, you signed every one of those forms, and 
every one of them had ``poor reliability.''
    Mr. Adkins. I think there is a misunderstanding, sir, 
between reliability and validity. When the RFCs were filled 
out, but, even for the RFCs that I did do for other entities 
and prior to seeing Mr. Conn's patients, reliability would be--
at least the way I was understanding reliability is: Is this 
person going to be able to consistently be at work on time, 
consistently perform well at work, consistently be able to 
finish the day out? Are they going to call in a lot?
    Senator Coburn. OK, great. So if that is what that means, 
every patient you saw for Mr. Conn had poor reliability? Is 
that your testimony?
    Mr. Adkins. Yes, sir. I think anybody who has a significant 
mental health problem is going to have poor reliability.
    Senator Coburn. And every patient that you saw for Mr. Conn 
had mental health problems?
    Mr. Adkins. Every single----
    Senator Coburn. You did not find one that did not?
    Mr. Adkins. Every single one? I cannot say. But I will 
honestly say that the vast majority of them, yes, I did--in my 
opinion, they were----
    Senator Coburn. How do you explain that on multiple 
occasions you would give one report to the Social Security 
Administration of a patient's condition and give an opposite 
report to Mr. Conn each on the same patient?
    Mr. Adkins. I did not know that that ever happened.
    Senator Coburn. Well, we are going to demonstrate that it 
did. It did on multiple occasions. As a matter of fact, we had 
that testimony here in this first panel, that they noticed that 
you would get one report that would say one thing and one 
report that would say another.
    Mr. Adkins. OK.
    Senator Coburn. Did you perform a symptom validity test on 
any of these patients like an MMPI?
    Mr. Adkins. When I first started out in practice, I would 
indeed do those. But there was at one point I was doing those 
with every single patient, and in discourse with the Department 
of Disability Determination, I was told that those were not 
necessary for the----
    Senator Coburn. Do you remember what time you were told 
that, what year you were told that?
    Mr. Adkins. What year I was told that?
    Senator Coburn. Yes.
    Mr. Adkins. Well----
    Senator Coburn. You do not recall when that became not a 
requirement?
    Mr. Adkins. Exactly.
    Senator Coburn. All right. Thank you.
    If you would, Dr. Adkins, turn to Exhibit 47\1\, the last 
two medical opinions in Exhibit 47.
---------------------------------------------------------------------------
    \1\ See Exhibit No. 47, which appears in the Appendix on page 872.
---------------------------------------------------------------------------
    Mr. Adkins. OK. Do you want the last two?
    Senator Coburn. Yes.
    Mr. Adkins. Would that be Adkins Number 1?
    Senator Coburn. Is this document typical of the medical 
forms you completed for Mr. Conn's clients.
    Mr. Adkins. Can I have just a second to look through it, 
please?
    Senator Coburn. Sure. [Pause.]
    Mr. Adkins. Yes, sir.
    Senator Coburn. All right.
    Mr. Adkins. It appears to be.
    Senator Coburn. In the background section of each of those 
reports, a typical patient, is this the information included in 
the section of the report provided by the claimant?
    Mr. Adkins. I am sorry.
    Senator Coburn. Go to the background section in your 
report.
    Mr. Adkins. Are you talking about the portion dated 
September 1, 2010?
    Senator Coburn. Yes.
    Mr. Adkins. OK. Now, what was your question, sir?
    Senator Coburn. Is this information routinely provided by 
the claimant?
    Mr. Adkins. Routinely provided by the claimant.
    Senator Coburn. In other words, where did you get the 
information?
    Mr. Adkins. OK. Where did I get this information?
    Senator Coburn. Yes.
    Mr. Adkins. From Eric Conn's office.
    Senator Coburn. So you did not get it from the claimant?
    Mr. Adkins. Well, let me check back here.
    There is nothing showing in the actual body of the report. 
I did not document the actual date of onset.
    Senator Coburn. Well, I am not as concerned about onset. I 
am asking--you put the background information in this report, 
and I am asking the origin of it. Did it come from the claimant 
or did it come from Mr. Conn?
    Mr. Adkins. This piece of paper came from Mr. Conn's 
office.
    Senator Coburn. All right. Now, please review the section 
of the exam titled ``Summary and Conclusions.'' Go on over.
    Mr. Adkins. OK. I am there.
    Senator Coburn. All right. I would note, first of all, that 
you told Committee investigators on the first background 
information that it came from the claimant, not Mr. Conn. Now, 
in this section, the end of the report is reserved for your own 
conclusion, I believe. Does this represent your conclusions?
    Mr. Adkins. The summary and conclusions on----
    Senator Coburn. Yes.
    Mr. Adkins. Yes, it says page 7.
    Senator Coburn. All right. Now, please look at the summary 
section, and let me ask you the question again. The information 
in the background section came from Mr. Conn.
    Mr. Adkins. Yes, sir.
    Senator Coburn. All right. And if you look at the summary 
section, it seems to be identical to the background section.
    Mr. Adkins. It seems to be identical.
    Senator Coburn. As a matter of fact, in this particular 
one, the information in both sections is word for word 
identical. So that your summary matches exactly the 
information, according to your testimony, that you got from Mr. 
Conn.
    Mr. Adkins. Wait a minute. I think there is some 
misunderstanding here. When you say the background section, I 
am looking at a document that says, ``To Whom It May Concern: 
It is my medical opinion''--blanked out--``medical conditions 
and limitations.'' Is that correct? Is that what we are 
referring to?
    Senator Coburn. No. Go back to the first question I asked 
you on the background section. I asked you where that 
information came from in the background.
    Mr. Adkins. Oh. I apologize. I was looking at something 
else completely. When you said the background section, I 
thought you----
    Senator Coburn. That is the first thing that you looked at, 
the first thing I had you look at.
    Mr. Adkins. Yes, the first thing I looked at was this, I 
believe. When you said background, I thought you meant whatever 
was after----
    Senator Coburn. No. It says ``Background Section.''
    Mr. Adkins. Oh, OK. Background information, OK.
    Senator Coburn. And who gave you that information, Mr. Conn 
or the claimant?
    Mr. Adkins. The claimant gave me that information.
    Senator Coburn. All right.
    Mr. Adkins. OK. I am sorry.
    Senator Coburn. So now look at the summary section, and it 
seems that the summary section is exactly the same as the 
background.
    Mr. Adkins. Oh, OK. Well----
    Senator Coburn. Why is that?
    Mr. Adkins. Because it was cut and pasted.
    Senator Coburn. OK. Why is it cut and pasted?
    Mr. Adkins. Well, because when the report was typed, the 
summary and conclusions basically said the same thing as the 
background information said. It was cut and pasted from my own 
words that the claimant--based on information that the claimant 
had given to me, sir.
    Senator Coburn. But this is a medical conclusion. Would you 
agree with that?
    Mr. Adkins. It is a psychological conclusion. I do not know 
if it is a medical----
    Senator Coburn. Well, that is part of medicine, as far as I 
am concerned. I think you think so, too, don't you? 
Psychological aspect is a part of medicine.
    Mr. Adkins. They interlap----
    Senator Coburn. I mean, we are all trained to do mental 
status exams, treat psychiatric diseases.
    Mr. Adkins. They interlap. I think that psychiatry would be 
more of a medical profession.
    Senator Coburn. Do you think it is appropriate as a medical 
professional to copy a claimant's subjective allegations word 
for word and pass it off as your own medical conclusions?
    Mr. Adkins. Oh, I see what you are getting at. This summary 
and conclusions section is--well, basically it is exactly what 
it says it is. It was a spot for me to summarize if somebody 
wanted to go and just get a quick lowdown of this report, that 
they could go straight to this section, and in the course of--
--
    Senator Coburn. So you found no objective findings that 
were different than the subjective complaints that were given 
to you by the claimant?
    Mr. Adkins. There is not----
    Senator Coburn. Well, let me ask another question. On page 
9 of this opinion, you diagnose the claimant with a 
deteriorating disk in his back and neck.
    Mr. Adkins. OK. Page 9? Yes, that was reported to me by the 
patient.
    Senator Coburn. All right. So your medical conclusion is 
the patient subjective information. You did not test it, you 
did not look at a computed tomography (CT scan) or a magnetic 
resonance imaging (MRI) to say that this is confirmed and, 
therefore, I am going to put it in the diagnosis. It is all 
subjective going to an objective conclusion. Is that correct?
    Mr. Adkins. That would be correct, but I think that is 
pretty much standard operating procedure in my field.
    Senator Coburn. All right.
    Mr. Adkins. If a patient comes to me and says, you know, 
``Dr. Adkins, I''--he is coming to me primarily for 
psychological issues. If he tells me along the way, ``And I 
have heart conditions,'' actually at that time I would have 
included heart conditions or----
    Senator Coburn. I understand.
    Mr. Adkins. OK.
    Senator Coburn. All right. On this opinion, you found the 
claimant to have an IQ of 61?
    Mr. Adkins. Mm-hmm.
    Senator Coburn. Is that correct?
    Mr. Adkins. Let me take a look. [Pause.]
    Full-scale IQ score, 61, yes, sir.
    Senator Coburn. OK. And what is average?
    Mr. Adkins. Average IQ would run from like 80 to 120.
    Senator Coburn. All right. And so how is it that you also 
found that this claimant with an IQ of 61, two standard 
deviations below low normal, had no problem managing his money?
    Mr. Adkins. Well, the intelligence scale, sir, they are 
based on a lot of----
    Senator Coburn. I understand that. Did you ask him any 
questions about handling money in your interview with him?
    Mr. Adkins. Not in particular, no.
    Senator Coburn. So how would you know if he had any 
problems handling his money if you did not ask?
    Mr. Adkins. Based on his presentation, based on his 
conversation, based on his IQ scores. An IQ score of 61 does 
not necessarily indicate that----
    Senator Coburn. I did not say that. I asked you, did you 
ask him any questions specifically relating to your assumption 
that he could handle money?
    Mr. Adkins. No, sir.
    Senator Coburn. And you said no.
    Mr. Adkins. No, sir.
    Senator Coburn. On Exhibit 47,\1\ now look at page 11 of 
this same document. Exhibit 47, page 11.
---------------------------------------------------------------------------
    \1\ See Exhibit No. 47, which appears in the Appendix on page 872.
---------------------------------------------------------------------------
    Mr. Adkins. OK. This is the document that says September 1, 
2010, at the top of it?
    Senator Coburn. Yes, sir.
    Mr. Adkins. OK. That is the one I was looking at earlier 
when I was confused.
    Senator Coburn. The document is a very short signed 
statement in which you assert, without any explanation, that 
the claimant's medical conditions and limitations would not be 
significantly different as of February 15, 2005.
    Mr. Adkins. Yes, sir.
    Senator Coburn. So you are asserting that his status is 
totally unchanged from 2005.
    Mr. Adkins. I did sign to that.
    Senator Coburn. Yes. And did you happen to encounter this 
patient in 2005?
    Mr. Adkins. No, sir.
    Senator Coburn. So this was your first interface with this 
patient?
    Mr. Adkins. The date of the examination is stated as 
September 1, 2010. That would have been the----
    Senator Coburn. All right. Do you have any idea why you 
would assert that--putting this into a document like this? Were 
you asked to put this into the document?
    Mr. Adkins. Yes, sir, I----
    Senator Coburn. And who asked you to put that into the 
document?
    Mr. Adkins. Somebody from Eric Conn's office.
    Senator Coburn. Do you know who?
    Mr. Adkins. I do not know the particular person, sir.
    Senator Coburn. And was that before you saw the patient or 
after you saw the patient?
    Mr. Adkins. It would have been after I saw the patient.
    Senator Coburn. It was after you saw the patient?
    Mr. Adkins. Yes.
    Senator Coburn. All right. And you have never seen this 
patient before, to your knowledge?
    Mr. Adkins. Not to my knowledge.
    Senator Coburn. All right. Now turn to page 12 of this same 
document.
    Mr. Adkins. That would be the RFC form, correct?
    Senator Coburn. Yes, sir.
    Mr. Adkins. OK, sir.
    Senator Coburn. Did Mr. Conn's firm provide this to you?
    Mr. Adkins. Yes, sir.
    Senator Coburn. When the form was provided to you by Mr. 
Conn's firm, were the X's that appear in the boxes of Sections 
1, 2, and 3 already filled out?
    Mr. Adkins. I am going to say that I am quite sure that 
they were.
    Senator Coburn. All right. And then you were asked to sign 
those?
    Mr. Adkins. Yes.
    Senator Coburn. All right. Why did you not fill out the 
entire form yourself?
    Mr. Adkins. Because I did not know, No. 1, that this was to 
be completed only by the professional who did this. I had no 
idea the role that this little form played in the determination 
process.
    Senator Coburn. Do you routinely fill out these forms for 
other lawyers that you do psychological evaluations for?
    Mr. Adkins. Yes, sir.
    Senator Coburn. And do they ever send them to you pre-
filled out?
    Mr. Adkins. No, sir.
    Senator Coburn. All right. So you did not know that this 
was part of the evaluation process?
    Mr. Adkins. They look different from each attorney that 
they came from. Let us see. Mr. Conn here was one, two, three 
pages long. Some of them were only one page long. It seems like 
they asked primarily the same questions, but they were in 
different formats, different layouts, and none of them said 
anywhere, this is an official U.S. Government form, this is 
going to be used for this. I did not know at that time that it 
was used in the actual decisionmaking process.
    Senator Coburn. You were not aware that a medical 
assessment of ability to do work-related activities would be 
used in evaluating somebody's disability?
    Mr. Adkins. No, sir, I was not aware of that at that time. 
I thought they were used in-office, in-house, might be a better 
way to say.
    Senator Coburn. On all the forms we have reviewed that you 
signed, you checked, ``The claimant demonstrated poor 
reliability.'' Every one that Mr. Conn sent you demonstrated 
poor reliability? Every patient that you saw from Mr. Conn 
demonstrated poor reliability?
    Mr. Adkins. I think that if the patient was diagnosed with 
a significant mental----
    Senator Coburn. Well, you did not fill out the form that 
said it. You just admitted that you signed the form and you did 
not fill it out.
    Mr. Adkins. Right.
    Senator Coburn. So are the forms right or wrong? Are all 
these forms right? You did not fill them out. You just signed 
them. Are they right or wrong?
    Mr. Adkins. There are some that could be better, in retro--
--
    Senator Coburn. Are they right or are they wrong? You did 
not fill them out, so I am not holding you responsible for 
filling them out. I am asking: you signed them, but are they 
right or are they wrong?
    Mr. Adkins. Some of them are right and some of them are 
wrong.
    Senator Coburn. With your signature on them?
    Mr. Adkins. Yes, sir. I cannot give you a broad, sweeping 
answer.
    Senator Coburn. Given that the form was already completed 
when you received it, you did not go through to see if the 
forms actually reflected your exam. Is that correct?
    Mr. Adkins. There were----
    Senator Coburn. I am talking about these forms.
    Mr. Adkins. These RFC forms.
    Senator Coburn. Yes. You did not go through the forms to 
see if they actually reflected your examination.
    Mr. Adkins. I did go through them. I never saw anything 
that jumped out at me as something that I would disagree with.
    Senator Coburn. So you just told me that some were right 
and some were wrong, and now you are telling me that not any of 
them are anything that you would disagree with.
    Mr. Adkins. No. What I am telling you is that I did not 
know the significance of these forms when I was signing them. 
If I had known the significance of them, I would have been more 
diligent in comparing them to my reports.
    Senator Coburn. But your testimony is no other lawyer sent 
you a pre-filled-out form?
    Mr. Adkins. Yes, sir.
    Senator Coburn. All right. Given that the form was already 
completed when you received it--I have covered that.
    We have testimony to the Committee that you did not look at 
the forms at all, that you just signed them and took the check, 
because they were brought to you when you were paid. Is that 
correct or not?
    Mr. Adkins. That is not correct.
    Senator Coburn. All right. Thank you.
    Besides the mental assessment form that we saw in Exhibit 
47,\1\ the Committee reviewed 31 additional psychological 
evaluations that you performed for Mr. Conn between July 2007 
and 2010. The mental assessment form that you filled out--or 
signed--you did not fill out--on Exhibit 47 was identical in 
all 31.
---------------------------------------------------------------------------
    \1\ See Exhibit No. 47, which appears in the Appendix on page 872.
---------------------------------------------------------------------------
    Mr. Adkins. Yes, sir, I understand that.
    Senator Coburn. Do you think there is a problem with that?
    Mr. Adkins. In retrospect, yes.
    Senator Coburn. All right. This particular form had 15 
questions with 5 answers each. Do you think it is likely that 
31 people would end up with a form filled out the exact same 
way? I am not blaming you for not noticing how they were filled 
out. I am not trying to go there. I am just saying, do you 
think it is likely that 31 would end up filled out exactly the 
same way?
    Mr. Adkins. With this population----
    Senator Coburn. Exactly the same way.
    Mr. Adkins. Exactly the same way. With this population, 
yes, sir, I could see that happening.
    Senator Coburn. That 31 out of 31 people sent to you would 
have exactly the same on 75 different parameters?
    Mr. Adkins. The way the rating is set up, unlimited, good, 
fair, poor, none----
    Senator Coburn. But you did not fill these out.
    Mr. Adkins. True.
    Senator Coburn. All right. You have testified to that. Let 
us go to page 1 of the document on Exhibit 47. This is on a 
child 8 years old at the time of his assessment in 2007. Do you 
use a different approach when you examine a child instead of an 
adult? Is there a difference in your approach?
    Mr. Adkins. The difference in my approach would have been 
observing the child while he or she was in my office and 
talking with the mother, getting information from her.
    Senator Coburn. All right. You gave a possible diagnosis or 
a rule-out diagnosis of possible oppositional deficit disorder.
    Mr. Adkins. That is a typo. That should say ``oppositional 
defiant disorder.''
    Senator Coburn. Yes. Should this child have been tested for 
this before making this conclusion? Or was your assessment that 
it was probably likely?
    Mr. Adkins. When I make a rule-out--or when a rule-out 
diagnosis is made, you are not saying the child has this. You 
are saying there is a likely--or there is a possibility that 
the child has it and, possibly more testing, more formalized 
testing should be done.
    Senator Coburn. All right. Would you please turn to page 5, 
which is the beginning of the medical assessment of ability to 
do work-related activities, mental form provided to you by Mr. 
Conn's employees.
    Mr. Adkins. Yes, sir.
    Senator Coburn. This is identical to the forms you used and 
signed for adults?
    Mr. Adkins. Yes, sir.
    Senator Coburn. Do you think this form is appropriate for 
evaluating children?
    Mr. Adkins. Well, do I think it now or did I think it then?
    Senator Coburn. Answer both.
    Mr. Adkins. OK. Thank you for letting me. Now, no. You have 
to understand, like I have told you before, I had no idea of 
the significance of these forms, what they were used for. OK? 
Then, I thought nothing of it. I did not think that it was 
irregular, because I thought that the attorney who would be 
reviewing the forms--like I said, I thought these were used in-
house. I thought that a paralegal or one of Mr. Conn's 
assistants filled these out and they were just for his use.
    Senator Coburn. You did not fill the X's out on this form, 
right?
    Mr. Adkins. Correct.
    Senator Coburn. You did not. Does it strike you as strange 
that a child 8 years of age would have poor ability to deal 
with work stresses?
    Mr. Adkins. The reason----
    Senator Coburn. Did he have a job?
    Mr. Adkins. No, of course he did not. The reason that I 
went along with something like this was because, like I said, I 
thought the attorney was in his office, just strictly him 
seeing this form, nobody else, and that he would understand, 
for example, follow work rules--what was the one you just said? 
Interact with supervisors. I thought it was understood that the 
attorney would think, well, that means he is talking about 
teachers as opposed to a work supervisor.
    Senator Coburn. Do they have a form for children? Does 
Social Security evaluate children's mental capacity different 
than they assess those of adults?
    Mr. Adkins. At that time I probably would not have known.
    Senator Coburn. OK.
    Mr. Adkins. I do now, just from reading the report of Mr. 
Dockham.
    Senator Coburn. I will just summarize your testimony and 
get you to say yes or no, if you would. You did not fill out 
these forms.
    Mr. Adkins. Correct.
    Senator Coburn. On any of the cases.
    Mr. Adkins. I did before----
    Senator Coburn. On Mr. Conn's, these cases.
    Mr. Adkins. There was a time that I did fill them out, 
handwritten.
    Senator Coburn. And when did you stop?
    Mr. Adkins. I cannot tell you an exact date. It was after I 
quit working private practice full-time and made private 
practice more of a sideline.
    Senator Coburn. OK. And you signed the forms really without 
evaluating them, what was in them.
    Mr. Adkins. Without evaluating the forms?
    Senator Coburn. Yes. I know you evaluated the patients.
    Mr. Adkins. The short answer would be yes.
    Senator Coburn. All right. And when were these forms 
presented to you?
    Mr. Adkins. These forms were usually presented to me--after 
the evaluation was done, one of Mr. Conn's employees would 
bring these to me, along with the report, and I would sign them 
after----
    Senator Coburn. After your reports were finished?
    Mr. Adkins. Yes, sir.
    Senator Coburn. All right. Thank you. I have no other 
questions.
    Chairman Carper [presiding]. Thank you, Dr. Coburn.
    Senator Levin, and then I am going to come to Senator 
Heitkamp.
    Senator Levin. I am sorry that I missed the previous 
questions, but I just want to get one thing clear, although it 
may have already been asked.
    Dr. Adkins, you were given forms, and on these forms you, 
after an examination, said that the client was disabled 
mentally. You did your own examination.
    Mr. Adkins. Yes, sir.
    Senator Levin. But on this form, there was a lot of 
information that backed up your diagnosis. Is that correct?
    Mr. Adkins. That backed up my diagnosis?
    Senator Levin. Your conclusion.
    Mr. Adkins. Yes, sir.
    Senator Levin. There are a bunch of pages here on most of 
these forms, right?
    Mr. Adkins. There is three, I think, for the average one, 
or for the ones that I have looked at today.
    Senator Levin. OK. Three pages that presumably gave support 
for the conclusion. Is that correct?
    Mr. Adkins. Yes, sir.
    Senator Levin. Did you ever change any of those three 
pages?
    Mr. Adkins. Could you elaborate just a little bit?
    Senator Levin. Well, there are three pages on the average, 
right?
    Mr. Adkins. Yes, sir.
    Senator Levin. To support the conclusion.
    Mr. Adkins. OK. Did I ever change----
    Senator Levin. Yes.
    Mr. Adkins [continuing]. Anything on these three pages?
    Senator Levin. Right.
    Mr. Adkins. Not that I can remember, sir.
    Senator Levin. So how many different clients or patients 
did you look at as you did an evaluation?
    Mr. Adkins. How many different patients?
    Senator Levin. Yes, from this office, Mr. Conn's office. 
How many of his clients did you do mental evaluations on? 
About.
    Mr. Adkins. During that time, the time in question, I think 
it is 2007 or 2006 to 2011?
    Senator Levin. Yes.
    Mr. Adkins. I have no idea, sir.
    Senator Levin. Well, how many hundreds?
    Mr. Adkins. How many hundreds of people did I see?
    Senator Levin. Yes.
    Mr. Adkins. Let us take a look----
    Senator Levin. From the Conn office.
    Mr. Adkins. Just for the Conn office?
    Senator Levin. Yes.
    Mr. Adkins. I think I had figured it out roughly on a--give 
me just a second, please. [Pause.]
    Here we go. On the average, what I have it boiled down to 
is about two a week.
    Senator Levin. How many total? You have about 5 years 
there.
    Mr. Adkins. It would be a hundred and--let's see.
    Senator Levin. You said five a week for about 250 weeks, so 
that is about 1,200, something like that?
    Mr. Adkins. No. If you can give me a second, I can do the 
math on it and give you a rough figure.
    Senator Levin. OK. We will give you a second to do the 
math.
    Mr. Adkins. Thank you. [Pause.]
    That comes out to 568, sir.
    Senator Levin. All right. Now, did you ever change anything 
that was presented to you?
    Mr. Adkins. No, sir.
    Senator Levin. 558 examinations.
    Mr. Adkins. 568, sir.
    Senator Levin. I did not mean to short-change you. 568 
examinations, you never changed anything on those 568 forms?
    Mr. Adkins. No, sir. Not that I can remember. I cannot 
remember one time ever changing them. I said I was here today 
to tell you the truth.
    Senator Levin. That is an extraordinary acknowledgment. 
Truthful, but it is an extraordinary acknowledgment if you did 
not change one word of an analysis that you are depending on 
for--or you are signing, put it that way, you are signing your 
name to.
    Mr. Adkins. The reason that that was----
    Senator Levin. Let me ask a different question. 568, how 
many did you find were not disabled?
    Mr. Adkins. I do not know. I am sure the vast majority of 
them I found that they had significant depression issues or 
anxiety issues or pain issues, what have you.
    Senator Levin. Well, of the 568 examinations, how many, 
about? We can check it. Were there 10?
    Mr. Adkins. Probably not even 10.
    Senator Levin. Were there five?
    Mr. Adkins. Probably not five. Probably zero.
    Senator Levin. Zero. I have no further questions. I am 
done.
    Chairman Carper. Thanks, Senator Levin.
    Senator Heitkamp, and then Senator McCain.
    Senator Heitkamp. Again, I am sorry I was not here for your 
testimony, but reviewing these documents, each one of these 
three-page documents that you signed your name to, you are now 
saying you did not prepare those documents?
    Mr. Adkins. Correct, ma'am.
    Senator Heitkamp. I am not as familiar with ethical 
standards for people in your profession, but how does this 
square with ethical standards in your profession that you would 
just simply rubber-stamp an analysis that somebody else did 
without adequately reviewing their current condition?
    Mr. Adkins. At the time that I signed----
    Senator Heitkamp. No. I just want to know, in your 
professional status, what are the standards of your profession 
in terms of the ethical obligations that you had here.
    Mr. Adkins. What are the ethical standards? It was a 
mistake to do it.
    Senator Heitkamp. Was it unethical to do it?
    Mr. Adkins. Looking back on it, knowing now what they were 
for, yes.
    Senator Heitkamp. Your testimony here, and correct me if I 
am wrong, is that you were not aware of what these were being 
used for.
    Mr. Adkins. Correct, ma'am.
    Senator Heitkamp. Do you really think that is something 
that has credibility here?
    Mr. Adkins. I have to be honest----
    Senator Heitkamp. Is that really a credible claim?
    Mr. Adkins. Yes, ma'am. At the time I did not know that 
these were going in front of administrative law judges and that 
decisions were being made based on these forms.
    Senator Heitkamp. What did you think these forms were for?
    Mr. Adkins. I thought these forms were used in-house at the 
attorney's office. Like I said----
    Senator Heitkamp. But to form the basis for what? Why would 
the attorney be asking for these? Were you aware----
    Mr. Adkins. I thought the attorney just kind of looked at 
them and used them as a quick summary, like a----
    Senator Heitkamp. No. Why do you think the attorney would 
even be concerned about these patients and their current mental 
or physical capabilities? When an attorney asked you for an 
evaluation and to sign your name on these documents, what did 
you think they were going to be used for?
    Mr. Adkins. I thought the report was going to be--the 
actual four-or five-page report, I thought that was actually 
going to be put in front of a judge and that that was going to 
be looked at and read in its entirety. These documents, the 
RFCs, I thought did not leave the attorney's office. I thought 
they were used by him----
    Senator Heitkamp. So it was OK to just sign your name on to 
them without doing the ethical--doing the appropriate 
investigation, so it was OK as long as they were in the 
attorney's office, but not OK if they were going to be used in 
a court of law or an administrative proceeding. Is that what 
you are saying?
    Mr. Adkins. That is what I thought at that time.
    Senator Heitkamp. Do you still think that?
    Mr. Adkins. Oh, no, ma'am. Not now.
    Senator Heitkamp. This is just--it is hard to believe that 
you credibly did not believe that these would form the basis 
for some kind of legal proceeding. If a lawyer asked you to do 
that kind of--it's kind of hard, isn't it? If you are sitting 
where I am sitting, wouldn't you think?
    Mr. Adkins. Yes, from outside looking in, yes, ma'am. But I 
testified earlier at the time I was very young in practice. I 
did not really--and Mr. Conn's practice was very well known. It 
was well known in the area.
    Senator Heitkamp. It was well known that he did disability 
claims, correct?
    Mr. Adkins. Yes, very well known that he was a very 
successful attorney. So when these were brought to me and folks 
said, ``Oh, yes, hey, do you care to sign these? '' it never 
dawned on me that there was anything less than legitimate about 
it because of the fact, you know----
    Senator Heitkamp. But yet you are saying here that your 
ethical standards would have told you not to do this, never 
mind the legal standards. I can understand and appreciate where 
that might be sometimes confusing to people who do not deal 
with the law on a regular basis. But ethically, the training 
that you received would suggest that you should not just 
rubber-stamp an evaluation that someone else did.
    Mr. Adkins. At that time it did not seem unethical to me.
    Senator Heitkamp. OK. Thank you. My time is up.
    Mr. Adkins. That is my testimony.
    Chairman Carper. Senator Heitkamp, thanks. Senator McCain.
    Senator McCain. Thank you.
    Mr. Adkins, I understand that there was a place actually in 
Mr. Conn's law firm where some of this examination was done. 
Were you ever there?
    Mr. Adkins. Yes, sir, for a very short time, for maybe 2 
months, maybe less than 2 months.
    Senator McCain. Months?
    Mr. Adkins. Yes, sir.
    Senator McCain. Dr. Ammisetty, were you there?
    Dr. Ammisetty. Never, sir. He requested me to come and do 
physicals in his office, and I said no because----
    Senator McCain. You said no?
    Dr. Ammisetty. I said no. That is my professional pride. 
So----
    Senator McCain. But, Mr. Adkins, you did some of this 
investigating right there in Mr. Conn's office. That in itself 
creates an appearance problem. Did he ever--what was your 
compensation for that?
    Mr. Adkins. Well, the compensation was the standard fee 
that we discussed a few minutes ago. It was $350, Senator.
    Senator McCain. And how long would you examine these 
people?
    Mr. Adkins. An hour, hour and 15 minutes. Something like 
that it would take.
    Senator McCain. And what was the compensation, standard 
compensation per patient?
    Mr. Adkins. $350.
    Senator McCain. Did you know Judge Daugherty?
    Mr. Adkins. No, sir.
    Senator McCain. You did not know him or Judge Andrus?
    Mr. Adkins. No, sir.
    Senator McCain. Never appeared before them?
    Mr. Adkins. No, sir.
    Senator McCain. Dr. Ammisetty, did you?
    Dr. Ammisetty. That judge I did not know personally, but I 
told the investigators one time, and while I was doing my 
paperwork in my office, Ms. Slone asked Jessica--or somebody 
came, some judge came toward--somebody came from Huntington you 
want to see. At 9 o'clock they called me, and then I did not 
go. Around lunchtime, they again--the staff came to me so they 
took me to their office. The judge and Eric C. Conn and David 
Hicks, they both at the table, they are eating Chinese food. 
They introduced me. I was so busy with my practice, I do not 
want to say no to him, so I went there. The office staff was 
there, whoever the girl--I still remember, the girl next to me 
in the--standing, and she was serving the food for the three of 
them. Then the judge asked me, ``Where do you came from? '' I 
told them I came from India. Then his assistant, David Hicks, 
and judge, they are talking about they love Indian food. A few 
minutes conversation, and then I said I am leaving, I have a 
practice. All the time, 10 minutes, the girl was standing 
there, and then I left. But I do not remember the judge is 
Daugherty or Judge Gitlow. I do not know, sir. But----
    Senator McCain. OK. Dr. Adkins, if you were getting $350 
per patient and you spent an hour with each one, you did pretty 
well for an 8-hour day?
    Mr. Adkins. No. I would not see eight patients a day, sir.
    Senator McCain. Well, he was referring as many as 35 per 
tranche of them, so I do not know who else was doing the 
examining. How many other doctors do you know were doing these 
examinations in Mr. Conn's law offices?
    Mr. Adkins. To my understanding, Dr. Huffnagle did.
    Senator McCain. All right. Mr. Chairman, I have no 
additional questions.
    Chairman Carper. Let me change focus just a little bit 
before we excuse this panel. In your written testimony, I 
believe that both of you suggested some ways in which the 
Social Security disability program could operate more 
effectively with better oversight over the medical evidence 
that is presented, and I just want each of you to give us your 
single best idea, your single best recommendation to address 
this program so that it might be run more effectively with 
better oversight over the medical evidence that is presented.
    Dr. Ammisetty, I am going to ask you to go first. Give us 
your best idea.
    Dr. Ammisetty. As a physician, I have been here many years, 
and I do not have any legal-medical problems. In the medical 
school, residency fellowship, I spent a lot of time. They never 
taught about disability evaluation. And all the disability 
evaluation we learned during the practice. That is where 
physicians make mistakes. And the physician community and the 
legal community are completely different. We do not know what 
is going in the court. We do not know what process they are 
going on, what the RFC forms.
    My impression, my recommendation, the physicians who want 
to do disability evaluation, they should register in the 
registry, and they should go through some mandatory continuous 
medical education, and especially disability. That is what is 
happening in other branches of Social Security, like a black 
lung evaluation. I do pulmonary evaluations, and for the last 
20 years, I went to West Virginia, Princeton, Miners 
Association conferences. There we meet the ALJs, law judges, 
and miners, and the Federal Government employee directors and 
physician community. They all sit together and discuss what is 
the legal problem, what is going on, and that brings a lot of 
input, and where we are going wrong, where we should go. And 
miners also come and complain what their problems are. That is 
a big beneficial for whoever is evaluating the Social Security 
disability.
    Chairman Carper. Dr. Adkins, your best idea.
    Mr. Adkins. It is hard for me to boil it down----
    Chairman Carper. Go ahead and turn your mic on, please.
    Mr. Adkins. My apologies. It is hard to boil it down to 
one, sir. Can I give two or three?
    Chairman Carper. You can give two, but be fairly brief.
    Mr. Adkins. The first, I think I agree with Dr. Ammisetty, 
education. Anybody looking back on it, anybody who is going to 
be performing consultative examinations, I would highly 
recommend that they be educated regarding the process from 
beginning to end, and that that education be continued possibly 
in the form of continuing education (CEs).
    The second one would be review by government entities of 
the forms and documents that are turned in on a regular basis. 
This went on for 5 years, 2006 to 2011. If I had known early in 
the process, I certainly would have been glad to have stopped 
and apologized and said this will not happen anymore.
    Chairman Carper. All right. Dr. Coburn has more questions.
    Senator Coburn. I just have one other question for Dr. 
Adkins. Did at any time the Social Security system, when they 
asked you to evaluate a patient, send you an RFC form pre-
filled out?
    Mr. Adkins. Very rarely.
    Senator Coburn. Pre-filled out?
    Mr. Adkins. Oh, I am sorry. No, no. No, sir, not pre-filled 
out.
    Senator Coburn. Did they ever send you one that was pre-
filled?
    Mr. Adkins. No, sir.
    Senator Coburn. All right. Thank you.
    Chairman Carper. Any more questions from our Senators? [No 
response.]
    OK. Thank you, Governor Manchin, for joining us. And with 
that, this panel is excused. Thank you for joining us today.
    Dr. Ammisetty. Thank you for giving me the time. Thank you.
    Chairman Carper. You bet. And we are going to take just a 
very short break, a short intermission, and we will be right 
back. [Recess.]
    I would like now to invite our third panel of witnesses to 
the witness table for this evening's hearing. I will just 
briefly introduce each of you.
    Eric Conn, attorney and owner of The Conn Law Firm. Mr. 
Conn, welcome. Thank you for joining us.
    Judge David Daugherty, a former administrative law judge 
with the U.S. Social Security Administration.
    And Judge Charlie Andrus, an administrative law judge at 
the U.S. Social Security Administration, appearing in his 
personal capacity.
    Judge Daugherty, are you in the room? [No response.]
    I am told by our staff that Judge Daugherty is believed to 
have left the room about 2 hours ago and has not returned.
    Our practice in investigative hearings is to---- [Pause.]
    Before I ask our witnesses to stand and take an oath to 
testify, I would note that a subpoena has been served, was 
served to Judge Daugherty, and that it was properly served and 
we will be in consultation to decide what further steps to 
take.
    With that having been said, I am going to ask our 
witnesses, Mr. Conn and Judge Andrus, to stand and ask you to 
raise your right hand. Gentlemen, do you swear that the 
testimony you will give before this Committee will be the 
truth, the whole truth, and nothing but the truth, so help you, 
God?
    Mr. Conn. I do.
    Judge Andrus. I do.
    Chairman Carper. Thank you.
    Mr. Conn, do you have any opening remarks you would like to 
give, please?

  TESTIMONY OF ERIC C. CONN, ATTORNEY AND OWNER, THE CONN LAW 
                              FIRM

    Mr. Conn. No, sir, I do not.
    Chairman Carper. All right. Do you have any corrections to 
the statement of facts laid out in Dr. Coburn's opening 
statement or to the facts included in the staff report released 
by the Committee today?
    Mr. Conn. Mr. Chairman and Members of the honorable 
Committee, my lawyer, Abbe Lowell, sent a letter on October 7 
explaining the reasons that I am not going to testify today, 
and pursuant to that letter, I respectfully assert my 
constitutional right not to testify here today, sir.
    Chairman Carper. Let me just followup with that, Mr. Conn. 
Is it your intention to assert your Fifth Amendment right in 
response to any question that might be directed to you by the 
Committee today?
    Mr. Conn. It is, sir.
    Chairman Carper. Well, given the fact that you intend to 
assert a Fifth Amendment right against self-incrimination to 
all questions asked of you by this Committee, you are excused.
    Mr. Conn. Thank you, sir. [Pause.]
    Chairman Carper. Judge Andrus, you are recognized. Welcome. 
Please proceed with your statement.

 TESTIMONY OF CHARLIE P. ANDRUS,\1\ ADMINISTRATIVE LAW JUDGE, 
 U.S. SOCIAL SECURITY ADMINISTRATION (APPEARING IN A PERSONAL 
                           CAPACITY)

    Judge Andrus. Chairman Carper and Ranking Member Coburn, I 
just wish to state at the outset that I am here in a personal 
and not official capacity. The views expressed in my testimony 
are mine, expressed in my personal capacity as a private 
citizen. In this testimony I do not represent the views of the 
Social Security Administration or the U.S. Government. I am not 
acting as an agent or representative of the Social Security 
Administration or the U.S. Government in this activity. There 
is no expressed or implied endorsement of my views or 
activities either by the Social Security Administration or the 
U.S. Government. And I was asked to make that position clear to 
you before I testified.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Andrus appears in the Appendix on 
page 122.
---------------------------------------------------------------------------
    Chairman Carper. Thank you. Please proceed.
    Judge Andrus. I have heard a lot of testimony here today 
about my office, and I would like to start by explaining a 
little bit how we changed our processes of handling cases.
    We, the Social Security Administration, recently adopted an 
electronic business process to try and create a unified system 
for handling cases as they came up from the Social Security 
district offices. Huntington handles appeals from the 
Huntington, West Virginia, office; Prestonsburg, Kentucky; 
Pikeville, Kentucky; and Ashland, Kentucky. So most of our work 
is actually done with Kentucky cases.
    There was some discussion about scheduling Mr. Conn's cases 
and why we did it the way we did. After Mr. Conn's practice 
grew to the point it took up quite a bit of our dockets, it 
became hard to schedule. He was a solo practitioner, and so we 
could only schedule the cases when he was available. And this 
started to age his cases more than cases assigned to other 
lawyers, that other lawyers represented people.
    So what we decided to do--and I sent this up to my regional 
office and got permission to do it----
    Chairman Carper. Where is your regional office?
    Judge Andrus. In Philadelphia, sir.
    Chairman Carper. All right. Thank you.
    Judge Andrus. And at that time Judge Cristaudo was the 
regional chief judge. He later became the national chief judge 
and is still with the agency, I believe, as general counsel in 
Boston.
    Normally what we would do is when we saw that a judge had a 
case, a docket of cases scheduled, we would bring from a case 
of what is called ``worked-up cases,'' cases that had been 
exhibitized, they had been put into proper order, and we would 
pull the oldest from that list. That list was generated from 
master docket, pulling the oldest cases. What we found was that 
by assigning Mr. Conn's cases as they came in, in rotation, to 
every judge, it evened this out.
    There was concern expressed to me that Mr. Conn would be 
available for certain weeks and not available at others, and I 
felt to remove the possibility of him trying to be available 
when certain judges were available and not when others, I felt 
that if we assigned the same amount to everybody and kept them 
with everybody, then everyone would have about the same number 
of his cases. And that was approved, and that is what we did.
    Now, when we would schedule cases, particularly for our 
Prestonsburg dockets, we looked at the age of the cases, and in 
some weeks that I was down in Prestonsburg, Mr. Conn would have 
2\1/2\, 3 days of cases, which is roughly what his percentage 
of our cases down there would be. Sometimes I would go the 
entire week, and he would not have a case down there. And that 
is as it varies with the age of the other cases. We always 
tried to do the older cases first.
    Now, with regards to the on-the-records, when the 
Commissioner set forth a series of plans to try and reduce our 
backlog, one of them was to have judges review cases that were 
unpulled--in other words, not made ready for hearing, just raw 
cases that came up, so the pages may not be in order, the 
exhibits may not be in chronological order--to review those 
cases and see if there were any that could be done on the 
record with a view to getting the case to the claimant as soon 
as we can.
    You have heard a lot about pressure, and some of you have 
talked about the pressure that we are under, and I would ask 
you to consider this: The administrative law judges are the 
only ones that see the claimants on a regular basis. We see how 
they are feeling. We see how this affects them. And for me 
personally, the major pressure was to try and get that case 
done so that, whether it is an allowance or a denial, they 
would get a decision.
    So part of the process was on reviewing for on-the-records. 
This started back when we were still mainly a paper file 
system, and in conformity with that--I keep forgetting the 
word--process, I told all of the judges in the office that if 
any of them felt that they had the time, to go ahead and go to 
the master docket, the paper case in the master docket that had 
not been pulled yet, and they could review cases for on-the-
record. And Judge Daugherty was the one who did this.
    Now, that is how that process started. One of the things 
that as the hearing office chief administrative law judge is 
that I carried the same workload as every other judge in the 
office, and so I had a full docket of my own cases to handle 
also.
    Now, Senator Coburn brought up some things about--and we 
talked about some things about what has happened. Shortly after 
the newspaper article was published, I stepped down as the 
chief judge. So I have no idea or no knowledge of what 
management had done after that time because I just was not 
included in that information. But Mr. Conn was one of three or 
four attorneys that worked with Judge Daugherty getting files 
to him and getting new evidence put in the files for him to 
review. I know the Committee and the investigation, which is 
very thorough, has primarily focused on that, but there were 
other attorneys who were submitting on-the-record decisions to 
Judge Daugherty also, besides Mr. Conn.
    Now, the details of how Mr. Conn filled out the RFCs and so 
forth I had no idea existed until I read your report that you 
graciously furnished me a couple days ago.
    As far as the reassigning of cases is concerned, that was 
discussed. Before we went to the electronic system that we have 
now of electronic files and electronic case control, we had 
started with what has been referred to as CPMS, which is 
essentially an electronic control system for all our files as 
they move through the office.
    CPMS has gone through several iterations, with several 
changes to it. In the beginning, I could tell that a case file 
had been assigned or reassigned, but I could not tell by whom. 
I could tell that cases moved from one section to another, one 
status to another, but I could not tell who made those changes.
    So when it was brought to my attention by Mr. Hall and by 
Judge Gitlow that Judge Daugherty or someone had moved cases to 
Judge Daugherty that originally had been assigned to them, I 
went to Judge Daugherty, and I asked him if he had been 
reassigning cases, and he said that he had. And I asked him, 
``Did you know that these were already assigned? '' Because 
that was the program that we had set up, that they would be 
assigned to us from Mr. Conn and not reassigned. And he said, 
``Well, I did not know.'' So I sent out another memo, an e-mail 
to the office staff. I believe that is one of them in the 
report.
    And I said, ``Look, do not reassign these cases.'' And I 
emphasized to Judge Daugherty, I said, ``This has to be''--
``when they are assigned to a judge, that is it.'' He says, 
``All right. Fine. I understand.''
    Quite a bit later, again, Judge Gitlow came to me and I 
believe Judge Chwalibog came to me and said that they had found 
more. At this point I went to Judge Daugherty, and I said, 
``Why did you reassign these to you? '' He said, ``I did not 
think they belonged to anybody.'' And what had happened was, in 
the latest iteration of CPMS, I believe, they moved where they 
put that in the file. So he said, ``I did not see it.'' I said, 
``All right. Fine. We will take care of this. I do not want you 
to reassign anything. If you have one that you are going to 
review on the record, go to the supervisor, have the supervisor 
look at it, and they will reassign it if it is appropriate.'' 
He agreed.
    And then right before the story in the Wall Street Journal, 
Judge Gitlow came to me again and said, ``No, he is still doing 
it.'' And at that time I asked him for a list, looked at it, 
and I talked to Judge Daugherty, and he said, ``Oops. I must 
have done this.''
    So those were the steps that I took, reminding everybody 
not to reassign it, specifically telling Judge Daugherty not to 
reassign cases.
    But the main purpose from----
    Chairman Carper. Judge Andrus, I am going to have to ask 
you to wrap it up in about 2 minutes so we can begin our 
questions.
    Judge Andrus. Oh, OK. The main reason that I wanted to do 
that was to keep the age of the cases between Eric Conn's very 
large docket and the cases represented by other individuals 
pretty much on the same level so that we would not age any 
cases.
    Chairman Carper. All right. Thank you.
    Let me start off by--again, thank you for coming, thank you 
for testifying. I want to ask you, are you married?
    Judge Andrus. Yes, sir.
    Chairman Carper. Do you have any children?
    Judge Andrus. Two.
    Chairman Carper. Do you have any daughters?
    Judge Andrus. Yes, sir.
    Chairman Carper. OK. I think most of us up here have 
children, and I think except maybe for me, we have daughters. 
One of the guiding principles in my life, I suspect in the life 
of most of the people in this room, is to treat other people 
the way we would want to be treated.
    As I understand it, you were the chief judge.
    Judge Andrus. Yes, sir.
    Chairman Carper. The person in charge, the leader of this 
operation in Huntington. And we have listened to the first 
panel of witnesses talk about the way they were treated for a 
number of years by those in charge, those in a position to do 
something about it. And I just want to ask you, how would you 
feel if your wife or your daughter were treated that way by 
their employer at their place of work?
    Judge Andrus. I would feel badly. But, Senator, I----
    Chairman Carper. Would you do anything about it?
    Judge Andrus. I would find out if there were two sides to 
the story.
    Chairman Carper. What is their motivation to risk a lot to 
come here and really to be involved--to agree to cooperate with 
the Inspector General? What is their motivation?
    Judge Andrus. On the----
    Chairman Carper. How do you square your behavior with the 
Golden Rule, treat other people----
    Judge Andrus. I do not----
    Chairman Carper. How does that square----
    Judge Andrus. I failed in a very large way on that.
    Chairman Carper. I am sorry?
    Judge Andrus. I said I failed in a very large way on that. 
I do not agree with the statements made by Ms. Carver about the 
retaliation. As I said, I do not know what has been going on 
since 2011. But before, particularly the information she gave 
about Ms. Goforth, I would respectfully request that perhaps 
you get Ms. Goforth's side of that story.
    Chairman Carper. In Delaware, our Social Security 
disability operation is headquartered in Dover, our State 
capital, and it is interesting when you look at the number of 
cases across the country that are approved or not. The number 
seems to run around 50 percent, maybe a little bit over 50 
percent nationwide. In Delaware, we have a couple of judges 
whose approval of cases is actually below 50 percent, below 40 
percent, maybe as low as 30, or even 25 percent. And there has 
been some training in the past year or so for our 
administrative law judges to make sure that they are aware of 
all the factors that they ought to be aware of in making these 
determinations. I am told that the training that they have gone 
through might ultimately be used as a model for some other 
parts of the country.
    But I come from a State where it is not uncommon for as few 
as one out of four cases to be approved. And it boggles my mind 
when I hear of an administrative law judge who has apparently 
ignored our subpoena--he was not here. We were mistaken. 
Someone said they thought they saw him in the audience. 
Apparently not. But for him to approve over 99 percent of the 
cases that come before him, over 99 percent, and the lion's 
share apparently from one lawyer, and I think the person in 
charge of overseeing this operation where this occurred was 
you. And what did you do about it?
    Judge Andrus. Under the Administrative Procedure Act, an 
administrative law judge has qualified judicial independence. 
And in the 27 years that I have been an administrative law 
judge, I can honestly say that no one has ever come to me, 
either from my agency or even a Member of Congress, either the 
Senate or the House of Representatives, and asked me to decide 
a case a certain way. And I think that is an important concept 
because, as I mentioned to one of your staff, if you were, say, 
representing a family member and you walked into the room and 
sat down and a judge walks in and you had found out that 
someone had told him, ``You are allowing too many cases,'' how 
would you feel about the hearing you are going to have?
    What I have done, and did with Judge Daugherty on one end 
of the spectrum and another judge that was on the very low end 
of the spectrum, I said, ``Look, I am a manager for Social 
Security. I am not going to tell you how to decide your cases. 
But if you look and you see that you are two standard 
deviations above the norm or below the norm, maybe it is time 
you take a step back, take a look at what you are doing, and 
see if you want to change it.''
    At which point Judge Daugherty turned to me and said, 
``Chuck, I love you like a brother, but I am going to do this 
because I think that is what I should do.'' And that is about 
as far as I thought I could go as----
    Chairman Carper. Thank you. Let me just interrupt you for a 
moment. Staff has given me an exhibit--I think it is Exhibit 
No. 32\1\--and it is called ``Message 006.'' Exhibit 32, page 1 
of 9, and can someone help--again, it is Exhibit 32, page 1 of 
9. Let me know when you have it, please.
---------------------------------------------------------------------------
    \1\ See Exhibit No. 32, which appears in the Appendix on page 739.
---------------------------------------------------------------------------
    Judge Andrus. I will have to redo your book. I am sorry.
    Chairman Carper. Exhibit 32, page 1 of 9.
    Judge Andrus. From Judge Helsper.
    Chairman Carper. That is correct. And I am looking at--it 
is an e-mail chain. It looks like it began at the bottom of the 
page, it seems it began at about 2 p.m. on Thursday, May 19, 
and it is from Bill Connolly, and the subject is, ``Heard about 
this.'' And below that, we read, ``U.S. disability claim judge 
has trouble saying no, near perfect approval record, Social 
Security program strained.''
    And then above that is an e-mail sent about 2 hours later 
from William Helsper--it is Judge Helsper? Is that correct?
    Judge Andrus. Yes, that is correct. In fact, I was the one 
that replaced Judge Helsper in Huntington, so we knew each 
other.
    Chairman Carper. And it is an e-mail from him to you, and 
the subject again is, ``Heard about this.'' And there are only 
three words in his message to you that says, ``Shame on you.'' 
``Shame on you,'' with an exclamation point.
    And your response about a minute later, it looks like, to 
Judge Helsper is, ``What can I say? Judicial independence.''
    Judge Andrus. Yes, sir.
    Chairman Carper. For a person, for a judge that operates, 
serves not for you but you are this person's leader, and for 
you to say, in response to Judge Helsper's ``Shame on you,'' 
for you to say, ``What can I say? Judicial independence,'' I 
can see where judicial independence is important. I think we 
will all agree on that. But not when the numbers are like this. 
99.5 percent of the cases that come before that judge, who is 
not here, to have been approved, many for the same lawyer, and 
for you to say, ``What can I say? Judicial independence,'' very 
disappointing. Very disappointing.
    Judge, let me turn to Dr. Coburn.
    Senator Coburn. Mr. Chairman, I am flabbergasted at what we 
have heard.
    I am not a lawyer, Judge, so my deference is to you and the 
fact that you are one. Multiple times you were notified that 
Judge Daugherty was taking cases. You did nothing about it. You 
did nothing. You did not stop it. It continued. You abdicated 
your responsibility as chief judge.
    I am sitting here thinking, you expect us to believe that 
judicial independence is the reason that Judge Daugherty had a 
99.7 percent approval rate? Is that judicial independence or is 
it fraud? And if you really think it was judicial 
independence--I mean, do you really think it was judicial 
independence? Is that your belief right now?
    Judge Andrus. My belief right now is that there is very 
little that management in this agency can do about a judge's 
decision to allow or deny a claim.
    Senator Coburn. Well, that is a great point, and that is 
one of the reasons we are having this hearing, because if you 
are telling us, you are helpless. Obviously Judge Helsper did 
not think he would have been helpless with that, or he would 
have never sent you that e-mail. And what your testimony 
basically is, is you were helpless to fix the system. You 
allowed it to run uncontrolled. You had great chances to stop 
this, and you did not.
    I do not know your motivations. I cannot question them. But 
the fact is the facts are the facts. And what we have heard 
here today shows somebody was not minding the store.
    I would like for you to go, if you would, to Exhibit 10,\1\ 
if you can find that.
---------------------------------------------------------------------------
    \1\ See Exhibit No. 10, which appears in the Appendix on page 445.
---------------------------------------------------------------------------
    Judge Andrus. Yes, sir.
    Senator Coburn. And this is from a rating, Steve--I guess 
it is Slahta.
    Judge Andrus. Slahta, yes.
    Senator Coburn. Slahta. And basically about changing case 
scheduling in Prestonsburg. And in the memo, you stated that 
you suspect Eric Conn was forum shopping. What do you mean by 
that?
    Judge Andrus. When I mentioned before that he seemed to be 
available some weeks and not available others, at that time the 
Huntington judges were on a pretty standard schedule. We would 
do 1 week of hearings in Huntington, spend a week in the 
office, and it was always the same week. So he knew when Judge 
Daugherty was going to be in Prestonsburg. So when a scheduling 
clerk would call up and say, ``I need to schedule cases for 
such-and-such a week,'' he might not be available.
    Senator Coburn. You would agree we have already gotten 
testimony that Eric Conn was forum shopping just by the 
testimony that has been here today. You would agree with that, 
right?
    Judge Andrus. Yes, sir.
    Senator Coburn. That is a matter of fact now before this 
Committee.
    Judge Andrus. Yes, sir.
    Senator Coburn. There is no doubt in your mind?
    Judge Andrus. No, sir.
    Senator Coburn. All right. You developed two tracks of 
cases, and you set one up for his, and then you set one up for 
the other. And we heard what you said in your opening 
statement. The fact is, that was totally against agency policy, 
was it not?
    Judge Andrus. I believe that is why I asked for the 
deviation.
    Senator Coburn. Yes, but it was against policy, right?
    Judge Andrus. Right.
    Senator Coburn. And so is there any culpability on your 
part from what we have seen come about from what has happened 
in this office?
    Judge Andrus. I do not understand.
    Senator Coburn. You set up the system that allowed this to 
occur. I mean, you knew he was forum shopping.
    Judge Andrus. Right.
    Senator Coburn. And you ignored it once it really started 
happening big. I mean, once he started moving cases to his 
own--and how did he know those cases were in there? I mean, we 
have developed that fact, that the only way he could have known 
is that he was told by Mr. Conn the names and the Social 
Security numbers. That is the only way he could have gone into 
your system and rearranged and assigned those cases to himself. 
He did not know they were in there because they had not been 
filed and brought up to date so that you would see them on a 
list.
    Judge Andrus. I believe there is a report that is sent up 
from the district office when they transferred an electronic 
case to us.
    Senator Coburn. And does that go to the judges?
    Judge Andrus. No, it does not.
    Senator Coburn. No, it does not. So the only way he could 
have known is have the names and Social Security numbers--we 
have numerous e-mails to you about this problem. Nothing 
happened. I am just asking, Why didn't something happen? I 
mean, you ultimately as the chief judge were responsible for 
this. I am just saying, sitting back, listening to what you 
have had to say--you know, I am obviously not a very good 
attorney. I am a pretty good doctor. But I do not think it 
passes the smell test, your answers, in terms of how this 
happened and how it came about. That is opinion and that is not 
fact, and I am sorry to bore you with that.
    My staff asked you, in early interviews, if you knew 
anything about trying to videotape Sarah Carver.
    Judge Andrus. Yes, sir.
    Senator Coburn. And you denied knowledge of that to my 
staff, did you not?
    Judge Andrus. I said I could not recall.
    Senator Coburn. OK, you could not recall. It would seem to 
me if you are going to videotape somebody, you would have 
trouble not recalling that. But after the fact, you, in fact, 
signed a statement saying, in fact, it did happen. Is that 
correct?
    Judge Andrus. That is correct.
    Senator Coburn. And you were involved in it.
    Judge Andrus. Yes.
    Senator Coburn. You do recall that.
    Judge Andrus. Yes.
    Senator Coburn. And what was the purpose for that 
videotaping?
    Judge Andrus. To see if Ms. Carver was abusing Flexi-Place.
    Senator Coburn. And did you have any reason to believe that 
she was? And is it abnormal for a chief judge to go after 
somebody that works under them in that regard? When Judge 
Daugherty abused his time all the time, nobody could ever find 
him in his office? What was the reason for that?
    Judge Andrus. There are some things that are not public 
record that I cannot talk about in a public hearing, which is 
why I suggested you may want to talk with Ms. Goforth.
    Senator Coburn. Well, we are going to--Social Security 
would have been here had it not been for legal wrangling, and 
they will be here, and so we will get to that.
    As a judge, an administrative law judge in the United 
States of America, was your action proper in any way, shape, or 
form in terms of trying to work with the lawyer who has nothing 
to do with Sarah, and actually what I would say is a conspiracy 
between you and Mr. Conn, was there anything proper about that?
    Judge Andrus. Not at all.
    Senator Coburn. Was it ethical?
    Judge Andrus. No.
    Senator Coburn. OK. So when you tell us that you disagree 
with some of Ms. Carver's assertions as to the office, 
especially in terms of Ms. Goforth, is that based on fact or is 
that based on opinion?
    Judge Andrus. That is based on discussions Ms. Goforth had 
with me when I was the chief judge, and she was Ms. Carver's 
supervisor.
    Senator Coburn. And you have heard the testimony here today 
about perceived, if not actual, retributions against Ms. 
Carver?
    Judge Andrus. Yes.
    Senator Coburn. All right. And you discount those?
    Judge Andrus. Since when I was no longer the hearing office 
chief judge, I do not know what the current management is 
doing. I was a line judge. They did not discuss it. They could 
not discuss it. So I do not know what the basis was for their 
actions.
    Senator Coburn. All right. Thank you.
    I want to jump back to where we were just a moment ago. A 
number of people in the Philadelphia regional office disagreed 
with your proposal when you tried to change. That is why you 
sought an exemption for it, back to what we were talking about 
before. If you would turn to Exhibit 11,\1\ page 3, at the top 
of that page, this e-mail states, ``Your whole proposal seems 
to be an attempt to accommodate Mr. Conn.'' That is in the e-
mail.
---------------------------------------------------------------------------
    \1\ See Exhibit No. 11, which appears in the Appendix on page 447.
---------------------------------------------------------------------------
    Judge Andrus. I am trying to find that.
    Senator Coburn. It is page 3, Exhibit 11.
    Judge Andrus. Yes, I see that.
    Senator Coburn. Isn't that the case?
    Judge Andrus. No, sir. The purpose of trying to do that was 
not to accommodate Mr. Conn, but was to try and make sure that 
he did not try and get a disproportionate number of his cases 
before Judge Daugherty and, say, not one of the other judges 
who had a lower allowance rate, and to make sure that we had 
the ability to schedule his cases so that they would not age 
more than cases that were represented by other representatives.
    Senator Coburn. Wasn't it the case that Mr. Conn routinely, 
if he got in front of a judge or had cases assigned in front of 
a judge, that he would try to reschedule cases so that he could 
get a different judge?
    Judge Andrus. I do not know about anyone else, but he did 
not do that with me.
    Senator Coburn. No, but wasn't--I think our testimony that 
we took in our investigation showed that he tried that 
technique several times so that he could change what judge he 
was presenting in front of. Are you not aware of that?
    Judge Andrus. I am aware that he would dismiss cases and 
refile them.
    Senator Coburn. Yes.
    Judge Andrus. Is that what you are speaking about, Senator?
    Senator Coburn. Yes.
    Judge Andrus. Yes, I am aware of that.
    Senator Coburn. Yes. So he would dismiss cases in front of 
a judge that he did not think would give him a favorable 
outcome so that those cases could then be before Judge 
Daugherty.
    Judge Andrus. Actually, those cases were supposed to have 
been reassigned to the same judge.
    Senator Coburn. Did Mr. Conn ever withdraw a case before 
you during a hearing?
    Judge Andrus. During a hearing?
    Senator Coburn. Yes.
    Judge Andrus. I believe he has.
    Senator Coburn. All right. Do you remember the numbers?
    Judge Andrus. I could estimate for you. Maybe two or three 
in a docket of 3 or 4 days.
    Senator Coburn. All right. I will enter into the record the 
number of Conn withdrawals before Judge Andrus. It totals in 
2005, 25; in 2006, 52; in 2007, 75; in 2008, 68; in 2009, 58; 
in 2010, 69; in 2011, 34. I ask unanimous consent that be made 
part of the record, and since Tom is not here, any objection? 
Thank you.
    So there were a significant number of cases----
    Judge Andrus. Yes.
    Senator Coburn [continuing]. Withdrawn in front of you?
    Judge Andrus. Yes, sir.
    Senator Coburn. Not one or two, not three or four, but 
hundreds.
    Judge Andrus. I said one or two per docket.
    Senator Coburn. Per docket, and how many dockets would you 
typically have that Mr. Conn would be in?
    Judge Andrus. At least once a month down in Prestonsburg, 
and he also had some cases in Huntington.
    Senator Coburn. So maybe 18 times a year.
    Judge Andrus. At least.
    Senator Coburn. Yes, so at least sometimes as many as six--
--
    Judge Andrus. On a docket.
    Senator Coburn. Yes, requested dismissals that were on the 
docket. Is that not a waste of your time?
    Judge Andrus. Yes and no.
    Senator Coburn. All right. I am going to get to my point. 
Can you tell this Committee that you honestly believe that you 
had no inclination that there was anything nefarious going on 
with Judge Daugherty and Eric Conn? You had no suspicion that 
there was anything going on in this process where Conn would, 
on the record, do multiple on-the-record decisions, would 
rotate decisions out of the registry and put them on his own 
docket, Eric Conn's, take cases from other judges that were 
Eric Conn's and reassign them to himself, and you at no time 
had any suspicion that this was anything other than judicial 
independence?
    Judge Andrus. No, sir, I am not saying that.
    Senator Coburn. All right. So my next question is: If you 
are not saying that, you had to have had some suspicion that 
things were not going in an ethical manner in relationship to 
Mr. Conn and Judge Daugherty because you suspected Conn of 
forum shopping?
    Judge Andrus. Yes, sir.
    Senator Coburn. So do you regret now not interceding in 
that? I mean, there is no question administrative law judges 
have independence, but they do not have independence to totally 
flout the rules and violate the law. You would agree with that?
    Judge Andrus. Yes, sir.
    Senator Coburn. Do you think you failed as chief judge in 
managing Judge Daugherty?
    Judge Andrus. I thought I had done what I was able to do as 
far as that is concerned. I told Judge Daugherty not to 
reassign the cases.
    Senator Coburn. But he did anyway.
    Judge Andrus. He did anyway.
    Senator Coburn. Regardless of what you told him.
    Judge Andrus. That is correct.
    Senator Coburn. So you had no administrative capabilities 
that you could have used outside what you used to change that 
situation? A totally defiant judge going directly against your 
order of reassigning cases, moving cases, taking cases away 
from other judges who had previously decided and then take them 
himself, changing the onset dates----
    Judge Andrus. Changing the onset dates----
    Senator Coburn. Well, he did--when he would get the case 
reassigned, then he would send the information, and the cases 
would go back to the date at which first denial or change the 
dates, he would actually manipulate the system.
    Judge Andrus. The claimant would change the onset, yes.
    Senator Coburn. Yes, at the request of Judge Daugherty, as 
we have heard here today.
    Judge Andrus. Yes.
    Senator Coburn. All right. So did you at any time take 
anything of value whatsoever from Mr. Conn, his employees, or 
his associates?
    Judge Andrus. He gave me some digital video discs (DVDs) 
that had been movies that had been burned into recordable DVDs. 
Mr. Conn also on occasion brought sandwiches to the office, to 
the hearing office.
    Senator Coburn. All right. And that is the extent of any 
interaction of value.
    Judge Andrus. And the DVDs were of minimal value and well 
within the ethics standards as far as accepting gifts, and 
the----
    Senator Coburn. Yes. Did----
    Judge Andrus. Excuse me, Senator. I do not mean to 
interrupt you.
    Senator Coburn. No, that is OK. I did not let you finish.
    Judge Andrus. And the food is also--if we do get gifts of 
food from attorneys, which the office sometimes does, we make 
that available to the entire office or provide it to some food 
bank.
    Senator Coburn. Yes. Well, you are not the only profession 
with problems with that. I was a doctor and would not allow the 
drug companies to bring in anything for my employees because I 
did not want to be seen as being complicit or bought.
    I have gone way past my time. I will pass it off to Senator 
Levin.
    Senator Levin. Judge, the report that we released today 
describes a number of instances in which Judge Daugherty's 
improper practice of assigning Conn cases to himself and taking 
Conn cases from other judges and assigning them to himself was 
reported to you as chief judge. This issue was brought to your 
attention by Judge Kemper in 2005 and again in 2006. In 2007, 2 
years after it was first brought to your attention, another 
judge, Judge Gitlow, alerted you to the fact that Judge 
Daugherty was assigning cases to himself, and Judge Gitlow 
brought the matter to your attention again in 2009 and 2011. 
Ms. Carver and Ms. Griffith also reported this behavior 
directly to you as well.
    Now, are you saying as chief judge that you had no power to 
discipline Judge Daugherty?
    Judge Andrus. A hearing office chief judge has no power to 
discipline an administrative law judge at all.
    Senator Levin. Do you have power to recommend?
    Judge Andrus. Yes, I do.
    Senator Levin. Did you?
    Judge Andrus. On that, no, I did not send that up to the 
regional office.
    Senator Levin. How many of these cases did he actually 
withdraw from you?
    Judge Andrus. None that I know of.
    Senator Levin. So he never took a case from you?
    Judge Andrus. Right.
    Senator Levin. But you knew that all these other judges--
there were how many ALJs there?
    Judge Andrus. It varied between five and eight others.
    Senator Levin. And so you get complaint after complaint 
after complaint. You knew they were true. You told him he had 
to stop it--how many times? At least three times you told him. 
He did not stop it. In fact, all he said, I guess, was, 
``Oops.''
    Judge Andrus. That was the last one, yes, sir.
    Senator Levin. Yes. ``Oops.''
    Judge Andrus. Now, the last time----
    Senator Levin. And the guy is doing forum shopping, and you 
are suspicious of it, and you have all these complaints from 
your colleagues, 2005, 2006, 2007, 2009, 2011, from your own 
staff, and you are sitting here and saying, well, gee whiz, you 
did not have power to do anything about it. But you did have 
power to make a recommendation, and you did not do that.
    Judge Andrus. I did in 2011, Senator.
    Senator Levin. After it hit the paper.
    Judge Andrus. Before it hit the paper.
    Senator Levin. Just before it hit the paper.
    Judge Andrus. Right.
    Senator Levin. You knew there was something going on by 
then.
    Judge Andrus. I cannot recall that.
    Senator Levin. I think your staff recalls it.
    So 2011, when something is just about ready to pop, now you 
decide you are going to take some kind of action. I find this 
incredible. And your invocation of the term ``judicial 
independence'' I find to be, frankly, despicable. Judge, I am 
looking you right in the eye. I have judges in my family. I 
know what judicial independence is. You cannot say that 
somebody who is engaged, as this lawyer was, 99.9 percent of 
his cases, one way, after stealing cases from other dockets and 
you knew about it, and then you invoke--or you did invoke as an 
excuse judicial independence. As a lawyer and as a nephew of a 
Federal judge and as a cousin of another Federal judge, I find 
your invocation of judicial independence to be something which, 
frankly, you ought to be ashamed of as a lawyer. It has nothing 
to do with judicial independence. It has to do with whether or 
not you have abdicated your role as a chief judge in that area, 
that region, to do something about an intolerable situation. 
That is what it is about, an abdication on your part. And it 
cannot have any other name from my view.
    E-mails. You sent out e-mails, this behavior cannot be 
allowed. But you did not stop the practice, nor did you bring 
into your administrative agencies in your region somebody who 
could do something about it.
    And here is what you did, instead of acting to stamp out 
this activity, these misdeeds that are going on under your 
nose: In 2001, Greg Hall, your office supervisor, sent you a 
memo--this is Exhibit 55,\1\ Judge, if you want to look at it. 
Your office supervisor sent you a memo noting that Judge 
Daugherty had missed three scheduled hearings. If you would 
take a look at Exhibit 55. [Pause.]
---------------------------------------------------------------------------
    \1\ See Exhibit No. 55, which appears in the Appendix on page 1180.
---------------------------------------------------------------------------
    Judge Andrus. Yes, sir.
    Senator Levin. This is May 10, 2001. He missed three 
hearings, yet he later took credit for having worked those 
hours.
    Then in 2002, you are alerted by Judge Kemper that Judge 
Daugherty appeared to be signing in each morning and then 
immediately leaving the office for hours at a time. That is the 
next exhibit there, Exhibit 56.\1\ So here is what Judge Kemper 
tells you: ``When I signed in today, I noticed that Judge 
Showalter had signed in at 7:15, and directly under her name 
was Judge Daugherty's initials, reportedly showing that he had 
signed in at the same time. When I drove by the Third Avenue 
entrance at 7:35, I noticed Daugherty's car was parked in the 
handicapped spot, and after parking my car and coming to the 
front entrance, I noticed that his car was gone. I spoke to 
Judge Showalter about this, and she assured me that he was 
nowhere in sight when she signed in at 7:15. At exactly 8:10, 
Showalter went downstairs and informed me that his car was 
still gone. This is the usual procedure he follows every day. 
When Judge Paris is here, he usually signs in at 6:30, and if 
no one signs in earlier than about 7:15, Daugherty will sign in 
directly below Judge Paris' name at the same time of 6:30. And 
if you will speak to Judge Paris, I am sure he will tell you 
that he never sees Daugherty when he comes in.''
---------------------------------------------------------------------------
    \1\ See Exhibit No. 56, which appears in the Appendix on page 1181.
---------------------------------------------------------------------------
    So Daugherty is coming in at the same time as these two 
judges, but they never see him.
    Now, he goes on: ``One of us will be sending you periodic 
e-mails to show you this pattern of cheating''--cheating--``on 
time and attendance, which, by the way, Judges Gitlow, 
Chwalibog, and I have consistently informed you about through 
the years.''
    Is that true? Have they consistently informed you about 
that cheating pattern?
    Judge Andrus. Yes.
    Senator Levin. Can you do something about cheating? Is that 
judicial independence?
    Judge Andrus. Me?
    Senator Levin. No. Can you get somebody there to do 
something about cheating? This is 2002.
    Judge Andrus. That is what I sent up to the regional chief 
judge.
    Senator Levin. That he is cheating?
    Judge Andrus. Yes.
    Senator Levin. And the chief judge?
    Judge Andrus. Judge Cristaudo.
    Senator Levin. And did what?
    Judge Andrus. I believe on that incident he talked to the 
people in central office, the national chief judge, and nothing 
was done.
    Senator Levin. And what did they do?
    Judge Andrus. Nothing.
    Senator Levin. What did you hear? Did you get a reply?
    Judge Andrus. No.
    Senator Levin. So you wrote the chief judge----
    Judge Andrus. I wrote my regional chief judge.
    Senator Levin. The regional chief judge, who is still 
there.
    Judge Andrus. Well, he is still in the agency. He is not--
--
    Senator Levin. Yes, and he did nothing after being informed 
that your colleague, it was said by a number of your other 
colleagues, Judge Daugherty was said to be cheating on his 
time, and you never heard back.
    Judge Andrus. Not anything specific.
    Senator Levin. How about something general?
    Judge Andrus. When I spoke with Judge Cristaudo, he said he 
had forwarded it to the national chief judge, and that is the 
last I----
    Senator Levin. The last you heard of it, and you never 
followed up to say, ``Hey, guys, I never heard back. What is 
going on? ''
    Judge Andrus. That is correct.
    Senator Levin. OK. So you never followed up.
    Judge Andrus. No.
    Senator Levin. All right. Now, in 2002, Exhibit 59,\1\ if 
you would take a look at that, says--this is from Frank 
Cristaudo.
---------------------------------------------------------------------------
    \1\ See Exhibit No. 59, which appears in the Appendix on page 1190.
---------------------------------------------------------------------------
    Judge Andrus. Right.
    Senator Levin. That is the same Judge Cristaudo?
    Judge Andrus. Yes.
    Senator Levin. You said you never heard from him. So here 
is Exhibit 59, 11/8/2002. ``Charlie''--that is you, right?
    Judge Andrus. Yes, sir.
    Senator Levin. ``. . . you have often mentioned that Judge 
Daugherty fails to comply with time and attendance rules. We 
ask you to monitor his compliance with the time and attendance 
rules and to deal with any failures to comply. Please let me 
know the status of his compliance with the time and attendance 
rules. Only by actually documenting incidents of unapproved 
absences will there be any opportunity to take action for such 
abuse. Therefore, I am asking you to monitor the time sheet and 
whereabouts of Judge Daugherty. If he cannot be located in his 
private office or elsewhere in the office environment, you 
should leave a note in his office asking him to see you as soon 
as he returns. You, of course, should keep detailed notes to 
document periods of absence and times you left notes for him.''
    This is a pretty specific response, isn't it?
    Judge Andrus. Yes, sir.
    Senator Levin. Did you do that?
    Judge Andrus. Yes, sir.
    Senator Levin. So you took all these notes and kept track 
of Judge Daugherty when he was not there and followed his 
patterns of cheating.
    Judge Andrus. When----
    Senator Levin. And then you sent these notes, did you, to 
Judge Cristaudo?
    Judge Andrus. What I did was, when he would come--when I 
could not find him, I left the note.
    Senator Levin. Left a note?
    Judge Andrus. In his office.
    Senator Levin. And then you kept track of all the times? 
Did you then tell Judge Cristaudo?
    Judge Andrus. Right.
    Senator Levin. And you sent him all this information, 
``Hey, I have done what you told me to do,'' and----
    Judge Andrus. No. Judge Daugherty came to me and explained 
where he was. He would either fill in, give me a leave slip to 
account for the time--we are talking, Senator, 11 years ago.
    Senator Levin. So you are saying he did not persist with 
the abuse of time?
    Judge Andrus. There were times that he would leave and not 
indicate it on the sign-out sheet, and I would bring that to 
his attention, and the time sign-out sheet would be corrected 
and/or he would give me a leave slip.
    Senator Levin. And did he also sign in when he actually was 
not there? Did that pattern continue that he was putting his 
initials underneath some judges' time for showing up but really 
was not there? Did that continue?
    Judge Andrus. Not that I was able to see.
    Senator Levin. You were just told by, you said, your chief 
judge you were supposed to keep track of it.
    Judge Andrus. Right. I do not get in at the same time he 
does.
    Senator Levin. But you could check with all the judges who 
came at a time that they signed in, and then if Daugherty was 
not there, you could ask them did this pattern continue. You 
could have done that.
    Judge Andrus. Yes, sir.
    Senator Levin. But you did not.
    Judge Andrus. No, sir.
    Senator Levin. But your chief judge, who you said never 
even responded to your e-mail, who did respond to your e-mail--
--
    Judge Andrus. That response was on a different incident.
    Senator Levin. This is not an incident. You say--according 
to Cristaudo, you have often mentioned that Judge Daugherty 
fails to comply with time and attendance . . .'' It was more 
than one incident. And then they ask you, they directed you 
what to do. ``First time he is absent without approved leave, 
give him a leave slip and caution him further time and 
attendance will lead you to AWOL assessments and disciplinary 
action. It is very important you document each instance with 
notes and copies of leave slips as well as a summary of each 
incident and the discussion with him. If he persists with abuse 
of the time and attendance rules, with the record you will have 
created, we will seek disciplinary action against him.''
    Well, did you?
    Judge Andrus. No.
    Senator Levin. And then take a look at Exhibit 59.
    Judge Andrus. I thought that is what we were on.
    Senator Levin. I am sorry. Exhibit 61.\1\ Now it is 3 years 
later. This is Frank Cristaudo to--who is Valerie Loughran?
---------------------------------------------------------------------------
    \1\ See Exhibit No. 61, which appears in the Appendix on page 1194.
---------------------------------------------------------------------------
    Judge Andrus. She was the regional management officer.
    Senator Levin. ``Subject: Judge Kemper and complaints about 
leave abuse by Judge Daugherty.''
    ``Thanks, Val. I agree something needs to be done. I have 
directed Judge Andrus on several occasions to take care of 
this. He is either unwilling or unable to handle the 
situation.''
    Boy, that is an understatement.
    There has been some discussion--I am way over my time.
    Chairman Carper. That is OK.
    Senator Levin. There has been some discussion today, Judge, 
about a plan by you and Mr. Conn to discredit a whistleblower, 
Ms. Carver, who we heard from earlier today, with the goal of 
having Ms. Carver disciplined or fired. And as part of this 
plan, you mentioned to Mr. Conn that Ms. Carver was probably 
not actually working on the days she worked from home. You 
mentioned it. You brought it up. Is that true?
    Judge Andrus. Yes.
    Senator Levin. Now, why did you bring that up? This is a 
woman who works for you.
    Judge Andrus. Yes, sir.
    Senator Levin. So now you are telling Mr. Conn that she 
probably is not actually working the days that she worked from 
home. In other words, she is allowed to work from home on 
certain days. But you told Conn that she probably was not 
actually working on those days. Why did you do that? Try again. 
You have had a couple seconds here now to think about why you 
would do that.
    Judge Andrus. Senator, that came up in a conversation, and, 
quite frankly, I do not recall the specific reason that I had 
said that. We were discussing how Ms. Carver always seems to be 
wanting everyone else to follow all the rules, but----
    Senator Levin. You were just talking about Ms. Carver, just 
talking to Conn about your staffer, she does not seem to be 
following all the rules, it just comes out of the blue.
    Judge Andrus. But we were talking about the Wall Street 
Journal article and that she had met--or he had related to me, 
I believe, that she had met with some people and the reporter.
    Senator Levin. Some other people who also had blown the 
whistle, right? Grover Arnett, Judge Kemper, along with her. Is 
that right?
    Judge Andrus. I believe that is correct.
    Senator Levin. And they met with the Wall Street Journal 
reporter about Judge Daugherty. And so, then you told the IG 
that he was not happy with Sarah Carver. Who was not happy with 
Sarah Carver?
    Judge Andrus. Mr. Conn.
    Senator Levin. Mr. Conn. So now Mr. Conn was not happy 
about your employee, so you say, ``Hey, she is supposed to be 
working at home on these special days where she is allowed to 
work at home,'' and he said, ``Difficult to prove that. The 
only way she could be disciplined is if there was a video sent 
to her supervisor.'' So Eric Conn said he would be willing to 
hire a private investigator to check. Is that right?
    Judge Andrus. That is correct.
    Senator Levin. And then you say you told him, ``That sounds 
like an idea.'' And then Eric Conn gave you a note. Is that 
correct?
    Judge Andrus. That is correct.
    Senator Levin. For Sarah Nease. Does she work for you?
    Judge Andrus. Sandy.
    Senator Levin. I am sorry. Sandra Nease. Does she work for 
you?
    Judge Andrus. Well, at that time I was not the chief judge, 
so it was--working for me was----
    Senator Levin. Well, but he gave you the note.
    Judge Andrus. Yes.
    Senator Levin. And so that note was for you to give to 
Sandra Nease. Is that correct?
    Judge Andrus. Yes.
    Senator Levin. And you did it.
    Judge Andrus. Yes.
    Senator Levin. And that note had a cell number of a contact 
in Eric Conn's office, and you gave it to Sandra Nease, right?
    Judge Andrus. Yes.
    Senator Levin. And she said that she would call the person 
when she knew that Sarah Carver was on Flexi-Place; in other 
words, when she was supposed to be working at home. Right?
    Judge Andrus. Yes.
    Senator Levin. How do you justify----
    Judge Andrus. I do not. It was a very stupid and wrong 
thing to do.
    Senator Levin. I have more questions, but I will yield.
    Chairman Carper. I want to understand, if I can, how 
agencies--in this case, the agency in Huntington--could be 
rewarded or its employees rewarded for meeting or exceeding 
their goals. If Senator Levin here or Dr. Coburn or any of our 
other colleagues authored and passed 10 times more pieces of 
legislation, even good pieces of legislation, they do not get 
paid any more money, and their staff probably does not either.
    My understanding is that when the Huntington operation--
and, frankly, others like it around the country--were 
struggling to overcome a backlog, the word went out, ``Move 
these cases,'' and one of the people who is pretty good 
apparently at moving cases is Judge Daugherty. And I am 
wondering if, how, reducing the backlog, moving a lot of cases 
quickly, did that make anyone in the Huntington office eligible 
for some kind of cash bonus? My understanding is that the 
judges are not eligible.
    Judge Andrus. Judges cannot get any kind of cash award.
    Chairman Carper. But just explain to us how the system 
works. I just want to understand the financial incentives that 
might flow from this.
    Judge Andrus. There are two contracts with the National 
Treasury Employee Union (NTEU), which covers the attorneys in 
the office. There is a contract with AFGE that covers the non-
attorney staff. And then there is also a procedure for 
management employees, which does not include the HOCALJ, 
because as an administrative law judge, I can get no 
performance awards.
    The awards for AFGE changed about 2006, I believe, when 
they had a new contract, and that depended on a performance 
rating that went from pass-fail to a numerical rating, and that 
was given by the group supervisors, the first-line supervisors.
    The performance awards for the management team, which are 
the group supervisors and the hearing office director, were all 
handled through the regional chief judge's office.
    Now, the office, I believe, 2 or 3 years in a row got a 
Deputy Commissioner's Team Award from Deputy Commissioner 
Sklar. I believe that was one of them. Maybe his predecessor. I 
am not sure.
    Chairman Carper. And what would trigger that performance 
award or that recognition?
    Judge Andrus. The Deputy Commissioner's citation?
    Chairman Carper. That sounds like a big deal.
    Judge Andrus. It is a plaque and a coffee mug or a plaque 
and a little star. That is given through the Deputy 
Commissioner's office. My office does not have anything to do 
with that.
    Chairman Carper. I understand. But give us some idea to 
whom the performance award--a monetary performance award might 
be paid, just give us some idea. Is it a couple hundred 
dollars? Is it----
    Judge Andrus. Something along that, $200 to $500. I believe 
the exact amounts--I noticed seeing it in the report that I 
reviewed, and I do not remember the exact amounts. But those 
are, as I said, awarded by the regional chief judge's office, 
and I do make recommendations to them on that. As the chief 
judge, I made recommendations to them.
    Chairman Carper. Recommendations as to who would receive--
--
    Judge Andrus. Yes.
    Chairman Carper [continuing]. The monetary performance 
award?
    Judge Andrus. Just who would receive it, not how much.
    Chairman Carper. And who decides how much?
    Judge Andrus. I believe it is either the regional 
management officer or the regional chief judge. I am not sure 
who up there made the final decision.
    Chairman Carper. So it could be a couple hundred dollars, 
it could be a couple thousand dollars in some cases?
    Judge Andrus. I do not think it would be a thousand. I may 
be wrong, but as I said, I remember seeing something referenced 
to that in your report.
    Chairman Carper. OK. I am not a lawyer. I am not even a 
doctor like Dr. Coburn here. But I have always been interested 
in how financial incentives motivate behavior, and some of my 
friends who are lawyers, who go off to work in law firms, 
sometimes after serving in the Congress, go off and they become 
rainmakers. They go to work for these law firms, and not that 
they are going to go into the courtroom and be a trial lawyer, 
but they know folks and they are able to bring in business.
    Was Judge Daugherty something of a rainmaker for the 
Huntington office?
    Judge Andrus. I see your analogy. Let me try and--if 
Judge----
    Chairman Carper. Let me just ask, is there something to say 
that, but for his performance moving all these cases, more than 
twice the national average, even though they are at 99.5 
percent in one direction, but for that, moving that many cases 
that fast, is it likely that the Huntington office would not 
have received the kind of recognition that it did?
    Judge Andrus. If Judge Daugherty had only done the 500 
cases a year that they have asked a judge to do, except for 2 
or 3 years, the Huntington office would have met all of its 
performance goals. So during one point of time, it was 
necessary that those cases get out so that the goals would be 
met. Most of the other times, if he had just done the normal 
amount that any of us did, we still would have reached our 
performance goals.
    Chairman Carper. But those 2 or 3 years when his throughput 
made a difference, did that trigger, directly or indirectly, 
the performance awards?
    Judge Andrus. The monetary wards?
    Chairman Carper. Yes.
    Judge Andrus. I do not believe so.
    Chairman Carper. OK. All right. Senator Levin, I am going 
to in a few minutes just turn this over to you.
    Senator Levin. I am almost done.
    Chairman Carper. OK. Go ahead, please.
    Senator Levin. I just wanted to see if I heard the answer 
to the Chairman's last question. Did the ALJs get monetary 
awards?
    Judge Andrus. No, never.
    Senator Levin. OK. Now, going back to this action that was 
taken against Ms. Carver, did Judge Daugherty know what you 
were doing?
    Judge Andrus. I believe Judge Daugherty did not. I think he 
was out of the office. He had left. I believe he had retired.
    Senator Levin. OK. When both staffs interviewed you, both 
PSI staffs, I guess, and now maybe our Chairman's staff. It is 
a little bit intermixed. But in any event, when the staffs 
talked to you, you said that there was no plan to have Ms. 
Carver followed, and yet that was within a month or two after 
the decision was made to follow her. Was it not? You talked to 
our staffs in June 2012.
    Judge Andrus. Yes.
    Senator Levin. When did you suggest that she be videotaped? 
Wasn't that in early 2012?
    Judge Andrus. Yes.
    Senator Levin. So in early 2012, when you participated in 
this scheme, you told our staffs just a few months later that 
there was no plan to have her followed or videotaped.
    Judge Andrus. I remember talking about it, and from what we 
were talking about, I thought the question was whether I was 
directly, personally involved in the videotaping. And I believe 
what had happened was that was at the end of a very long day of 
going over quite a few of the things you have discussed with 
me. And I was not sure of the details, and I did not want to 
give the wrong information.
    Senator Levin. Did you say to our staffs, ``I certainly did 
not get involved in Sarah Carver's Flexi-Place? '' Did you say 
that?
    Judge Andrus. I believe I did, but that was regarding the 
videotaping. I did not do any of that.
    Senator Levin. This did not say videotaping. It says, ``I 
certainly did not get involved in Sarah Carver's Flexi-Place.'' 
Were you involved?
    Judge Andrus. I had talked to Mr. Conn about doing that, 
and----
    Senator Levin. Talked to him? You suggested it.
    Judge Andrus. I do not believe I suggested it.
    Senator Levin. Just a few minutes ago, you said that in 
order to take this matter up, we have to have a videotape.
    Judge Andrus. Right. That was----
    Senator Levin. How is that for a suggestion?
    Judge Andrus. I see what you are getting at. The videotape, 
yes, I brought that up. The idea, we were talking and . . .
    Senator Levin. And you passed along the phone number, too, 
right?
    Judge Andrus. Yes, I did.
    Senator Levin. How is that for involvement? The truth of 
the matter is, is it not, Judge Andrus, that you were involved 
in Sarah Carver's Flexi-Place issue and the effort to prove 
that she violated the rules of Flexi-Place? You were involved, 
is that not true?
    Judge Andrus. Yes. But I thought the question that they 
were talking about was the actual videotaping itself.
    Senator Levin. Then you also were asked the following 
question: ``Did you ask Sandy Nease to call Conn's office and 
inform them of Sarah Carver's Flexi-Place? '' Do you remember 
what you answered?
    Judge Andrus. ``Yes.''
    Senator Levin. What did you answer?
    Judge Andrus. I said, ``Yes.''
    Senator Levin. No. You said, ``Not that I can recall.''
    Judge Andrus. Oh. Again, when they started talking about 
this, I had no idea this was coming, that this was going to be 
discussed.
    Senator Levin. That is no excuse for lying.
    Judge Andrus. I did not recall enough of the details to 
want to give them inaccurate information. So that is why I 
couched it in the way I couched it. I do not recall.
    Senator Levin. You did give them inaccurate information. 
You gave them inaccurate information when you said you could 
not recall it when it was very recent information. And then you 
were specifically asked, ``Did you give Nease the cell phone 
number of one of Conn's employees, Melinda? '' Do you remember 
your answer?
    Judge Andrus. No, sir. What was it?
    Senator Levin. What is it now?
    Judge Andrus. Oh, I did--when I went back to Huntington and 
was able to go through the whole process again----
    Senator Levin. What is your answer now?
    Judge Andrus. Yes, I did give her a phone number.
    Senator Levin. But after a long pause, you talked to our 
staffs, your answer was, ``Not that I remember.'' Much closer 
to the event than when you talked to the IG.
    And then you were asked if you were aware of calls being 
made to Melinda about Sarah Carver's Flexi-Place. I mean, you 
were asked specifically that question. And your answer? Do you 
remember your answer?
    Judge Andrus. I believe, ``I do not recall.''
    Senator Levin. No. ``Not that I know of.'' [Pause.]
    I guess I am done. Thank you very much, Mr. Chairman. Thank 
you for holding this hearing.
    Chairman Carper. Well, we want to thank you, and we want to 
thank Dr. Coburn. We want to thank your staffs for 2 years 
worth of work that brought us to this hearing today. We want to 
thank our witnesses. We especially want to thank our first 
panel of witnesses for making the trek here and for risking a 
lot to be here.
    Senator Levin. Mr. Chairman, I think probably if Dr. Coburn 
were here, he would ask that this matter now be adjourned. Is 
it recessed or adjourned if we are going to have another 
hearing?
    Chairman Carper. We are going to have another hearing, and 
with the panel that we had hoped to be panel four, the Social 
Security Administration, as soon as our government is up and 
running again, the shutdown is over, we want to convene a 
hearing and complete these deliberations, at least for now.
    Senator Levin. And Judge David Daugherty as well.
    Chairman Carper. And we expect Judge Daugherty to be here 
at that time.
    Our hearing today discusses deeply troubling findings 
regarding a program that, I think we would all acknowledge, is 
critically important in our country. It supports Americans who 
are unable to work and enables them not to live affluently, but 
to have at least a life and have access to health care through 
Medicare or Medicaid. It is an important program, it is a 
needed program, and it is a program that is running out of 
money. And within the next year or two, it is going to run out 
of money entirely. And one of the ways to best ensure that it 
is going to be there for folks who need it in the years to come 
is to look at how we are operating this program and whether it 
is Huntington, West Virginia, or Kentucky or anyplace else, and 
ask this question: If it is not perfect how do we make it 
better?
    We in Congress have a responsibility, and it is a shared 
responsibility, but a responsibility to make certain that we 
make the efforts that we have talked about here, that are 
needed to prevent fraud or waste or abuse. Our efforts are 
joined in by a whole lot of people, not just here in 
Washington, not just on this Committee, but folks around the 
country who are actually working in the venues, who actually do 
the work on a daily basis, to receive the applications for 
disability, to decide on them, to adjudicate them, and to move 
on.
    I really again want to thank our witnesses for joining us 
today and for taking the time to be here with us. This is not 
the end of the road. I like to quote sometimes Winston 
Churchill, who was asked at the end of World War II, shortly 
after he was a hero, saved the Brits, 6 months later they threw 
him out of office, and he was asked by a reporter, he said, 
``For you, Mr. Churchill, is this the end? '' And he said, 
``This is not the end. This is not the beginning of the end.'' 
He said, ``This is the end of the beginning.'' And for some of 
you, that is not going to be very good news.
    But this is a story that has not been written in its 
entirety, but however this story ends up, we are going to make 
darn sure that the folks get a fair shake when they are 
applying for these disabilities awards. And we are going to 
make sure that the folks who are running these programs are 
playing by the rules and that, to the extent that we can, 
people are figuring out what is the right thing to do and doing 
it and we have leaders in place, in Huntington and other 
places, to make sure that this is going to be the case.
    The hearing record is going to be open for, I think, 
another 15 days, until October 22, 5 p.m., for the submission 
of statements and questions for the record.
    With that, this hearing is adjourned. Thank you.
    [Whereupon, at 8:05 p.m., the Committee was adjourned.]
    
    
    
    
    
                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
